Case: 18-40598

Document: 00515779413

Page: 1

Date Filed: 03/12/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

March 12, 2021

No. 18-40598

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Ricky Allen Fackrell; Christopher Emory Cramer,
Defendants—Appellants.
Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 1:16-CR-26
Before Stewart, Duncan, and Wilson, Circuit Judges.
Carl E. Stewart, Circuit Judge:
We withdraw our prior opinion in United States v. Fackrell, ---F.3d---,
No. 18-40598, 2021 WL 926905 (5th Cir. Mar. 11, 2021). The following
opinion is substituted therefor.
Defendants Ricky Fackrell and Christopher Cramer were convicted
and sentenced to death for the prison murder of Leo Johns, a fellow inmate.
They appeal their convictions and sentences on numerous grounds. We
AFFIRM.

1a

Case: 18-40598

Document: 00515779413

Page: 2

Date Filed: 03/12/2021

I. FACTS AND PROCEDURAL HISTORY
Ricky Allen Fackrell and Christopher Cramer were imprisoned at
USP Beaumont. Both were convicted of the June 2014 prison murder of Leo
Johns. Fackrell was a lieutenant in the Soldiers of Aryan Culture (“SAC”),
a prison gang whose members abstained from drinking, drugs, and gambling.
Members were recruited based on their beliefs in white supremacy and
paganism. Cramer was a general in the SAC, and Johns was a member.
1. Fackrell
Fackrell has several previous convictions, including convictions for
aggravated assault, robbery, and possession of a prohibited object. His prison
record denotes several instances of misconduct including fights and property
damage. He was also charged with the murder of a second inmate three
months after Johns’s death.
As to Johns’s murder, Fackrell argued that he and Cramer only agreed
to assault Johns. Johns had been drinking and gambling in violation of SAC
rules, and Cramer determined that he needed to be punished. Fackrell and
Cramer stabbed Johns with shanks in an inmate’s cell. Fackrell argues that
he stabbed Johns but left the cell before he died and that Cramer “finished
Johns off.”
At trial, Fackrell’s defense was that he neither intended to kill nor
killed Johns. Instead, Fackrell argued that he was present while Cramer killed
Johns, that Cramer ordered him to participate in the assault, and that they
only planned to “touch up [Johns] a little bit.” The jury rejected Fackrell’s
defense and found him guilty of first-degree murder.
During the penalty phase of trial, Fackrell’s mitigating evidence
centered on his childhood. His father was an alcoholic and his mother was
often working to support the family. They frequently moved around, and

2a

Case: 18-40598

Document: 00515779413

Page: 3

Date Filed: 03/12/2021

Fackrell was bullied and abused by his father and brothers. He began
drinking, using drugs, and committing crimes with his family when he was
between 10 and 14 years old.
Fackrell’s other mitigating evidence centered on his mental health
diagnoses and ability to be reformed in structured environments like that of
USP Florence-ADMAX (“ADX”), a maximum-security prison in Florence,
Colorado. Fackrell was sent to ADX to await trial for Johns’s murder.
Though individual jurors found that Fackrell had proven some
mitigating factors, the jury sentenced him to death.
2. Cramer
Christopher Cramer was Fackrell’s co-defendant at trial and
sentencing. He has prior convictions for bank robbery and use of a firearm in
relation to a crime of violence. He also has committed several instances of
prison misconduct including assaults on other inmates.
At trial, Cramer’s defense to Johns’s murder was that he only
intended to assault Johns and did not intend to kill him. He argued that his
previous visits to Johns’s cell on the day of Johns’s murder indicated that he
lacked the intent to kill Johns. The jury rejected his argument and convicted
him of first-degree murder.
At sentencing, Cramer’s mitigating evidence focused on his
dysfunctional childhood and his ability to be safely housed at ADX. Cramer
had a difficult upbringing—his mother was a prostitute and a drug addict; his
father was a pimp and a drug dealer. His family moved frequently and slept
in cars and parks. Due to his parents’ absence, Cramer had to care for his
younger siblings. He stole food to feed them and “was his siblings’ hero.”

3a

Case: 18-40598

Document: 00515779413

Page: 4

Date Filed: 03/12/2021

His other mitigation evidence centered on ADX’s ability to safely
house him if he was sentenced to life. He argued that he was unlikely to ever
leave a maximum-security prison given the severity of his crimes.
Both Defendants were convicted of first-degree murder and
sentenced to death. They now appeal their convictions and sentences.
II. DISCUSSION
Fackrell and Cramer argue that the Government and the district court
committed numerous errors at trial and at sentencing. We review each
alleged error in turn.
A. Severance
Prior to trial, Fackrell and Cramer moved to sever. Fackrell requested
separate trials, while Cramer requested separate trials, separate penaltyphase presentations, and separate penalty-phase juries. Both argue that the
district court erred by denying their motions to sever. We disagree.
We review the denial of a motion for severance for abuse of discretion.
United States v. Rocha, 916 F.2d 219, 227 (5th Cir. 1990).
“Under Rule 14, ‘[i]f the joinder of offenses or defendants in an
indictment . . . appears to prejudice a defendant or the government, the court
may order separate trials of counts, sever the defendants’ trials, or provide
any other relief that justice requires.’” United States v. Snarr, 704 F.3d 368,
396 (5th Cir. 2013) (alteration in original) (quoting FED. R. CRIM. P. 14).
Even if prejudice is shown, severance is not required. Zafiro v. United
States, 506 U.S. 534, 538–39 (1993). The district court still has discretion to
grant relief. Id. at 539. “Severance is proper ‘only if there is a serious risk that
a joint trial would compromise a specific trial right of one of the defendants
or prevent the jury from making a reliable judgment about guilt or

4a

Case: 18-40598

Document: 00515779413

Page: 5

Date Filed: 03/12/2021

innocence.’” United States v. Mitchell, 484 F.3d 762, 775 (5th Cir. 2007)
(quoting Zafiro, 506 U.S. at 539).
1. Fackrell’s severance arguments
Fackrell argues that the joint trial prejudiced his rights at the guilt
phase because the Government introduced Cramer’s statements that
implicate Fackrell in Johns’s murder. Cramer told his cellmate that Fackrell
volunteered to go to Johns’s cell, that Fackrell jumped Johns from behind,
and that he and Fackrell killed Johns. The Government introduced the
statements under Federal Rule of Evidence 801(d)(2)(A), and Fackrell
argues that the statements were prejudicial, lacked reliability, and would not
have been introduced against him if he were tried separately.
He also argues that the joint trial prejudiced him during the penalty
phase because it allowed Defendants to be conflated, their mitigation cases
to be compared, and Cramer’s personality disorder and prison assault history
to be introduced.
Fackrell’s arguments are unpersuasive. Cramer’s statements are not
so prejudicial as to be an abuse of the trial court’s discretion in admitting
them. His statements were not given in a custodial context, voiding any
suspicion of unreliability present in other cases. See United States v. Ebron,
683 F.3d 105, 133 (5th Cir. 2012). Furthermore, Cramer’s statements likely
could have been introduced against Fackrell even in a separate trial as a
statement against interest under Federal Rule of Evidence 804(b)(3).
Rule 14 does not mandate severance in any case, including capital
trials. See FED. R. CRIM. P. 14. The introduction of Cramer’s previous
offenses, mental health history, and mitigation case was not so prejudicial as
to curtail the district court’s discretion to deny severance. Ample evidence
of each defendant’s criminal histories and prison misconduct is in the record,
and mere surplusage of this evidence does not compel severance. See United

5a

Case: 18-40598

Document: 00515779413

Page: 6

Date Filed: 03/12/2021

States v. Bieganowski, 313 F.3d 264, 287 (5th Cir. 2002) (“A spillover effect,
by itself, is an insufficient predicate for a motion to sever.”). Nor did the joint
trial deny Defendants the right to individualized sentencing under Lockett v.
Ohio, 438 U.S. 586 (1978). Any conflating of the Defendants or the evidence
against each of them was remedied by the district court’s instructions, and
we “must presume that the jury heard, understood, and followed the district
court’s instructions.” United States v. Bernard, 299 F.3d 467, 476 (5th Cir.
2002).
2. Cramer’s severance arguments
Cramer’s severance arguments mirror Fackrell’s, mainly that he was
prejudiced by evidence of Fackrell’s prior convictions and prison
misconduct. Those arguments fail under Bieganowski as well.
Notably, Cramer argues that he was prejudiced at sentencing when
the Government introduced evidence of Fackrell’s involvement in a second
prison murder. After Fackrell was charged in Johns’s murder, he was charged
in the murder of another inmate, Ronald Griffith. 1 The jury heard that only
three months after Johns’s murder, Fackrell brutally stomped on Griffith’s
head and said that he “didn’t really care that he stomped [Griffith] out.”
While evidence of Fackrell’s role in the Griffith murder was more
shocking than evidence of other crimes and prison incidents, we cannot
conclude that this evidence compels severance. The jury’s similar findings
on the Defendants’ mitigating factors reflect the similarity between the
Defendants’ mitigating cases rather than any confusion by the jury. Nothing
suggests that the jury failed to follow the district court’s instructions and

1

Griffith’s murder will be further discussed infra Section G.

6a

Case: 18-40598

Document: 00515779413

Page: 7

Date Filed: 03/12/2021

impermissibly considered the Griffith murder when evaluating Cramer’s
case for life.
We find no error in the district court’s denial of Defendants’ motions
to sever and thus affirm.
B. Mental States under 18 U.S.C. § 3591(a)(2)
After a defendant is convicted of a capital offense, the jury must
determine whether the defendant had a requisite mental state under 18
U.S.C. § 3591(a)(2) before sentencing him to death. Fackrell and Cramer
argue for the first time that the Government failed to prove that they had one
of the requisite mental states when they killed Johns. We disagree.
Since Defendants failed to raise this issue at trial, review is for plain
error. United States v. Avants, 367 F.3d 433, 443 (5th Cir. 2004). To establish
plain error, Fackrell must prove that “(1) there was error, (2) the error was
plain, (3) the error affected his ‘substantial rights,’ and (4) the error seriously
affected ‘the fairness, integrity or public reputation of judicial
proceedings.’” United States v. Jones, 489 F.3d 679, 681 (5th Cir. 2007)
(quoting United States v. Olano, 507 U.S. 725, 732−734 (1993)).
18 U.S.C. § 3591(a)(2)(A)–(D) lists four mental states. The
Government must prove at least one mental state in § 3591(a)(2) beyond a
reasonable doubt. It must prove that Defendants:
(A) intentionally killed the victim;
(B) intentionally inflicted serious bodily injury that resulted in
the death of the victim;
(C) intentionally participated in an act, contemplating that the
life of a person would be taken or intending that lethal force
would be used in connection with a person, other than one of the
participants in the offense, and the victim died as a direct result
of the act; or

7a

Case: 18-40598

Document: 00515779413

Page: 8

Date Filed: 03/12/2021

(D) intentionally and specifically engaged in an act of violence,
knowing that the act created a grave risk of death to a person,
other than one of the participants in the offense, such that
participation in the act constituted a reckless disregard for
human life and the victim died as a direct result of the act.
18 U.S.C. § 3591(a)(2)(A)–(D).
Fackrell argues that the Government did not prove that he had a
requisite mental state when he participated in Johns’s murder. He argues that
the jury could not have concluded that he had one of the requisite mental
states in § 3591(a)(2)(B)– (D) because they all require actions that result in
the death of the victim. Because the coroner did not determine which blow
was fatal, Fackrell argues that the jury could not have determined that he was
the but-for cause of Johns’s death. In his view, the jury convicted him of firstdegree murder because he aided and abetted in Johns’s murder, and this level
of culpability does not demonstrate that he had a requisite mental state.
This argument fails because aiding and abetting liability does satisfy
the requisite mental states in § 3591(a)(2)(C) and (D). See United States v.
Williams, 610 F.3d 271, 287 (5th Cir. 2010); United States v. Paul, 217 F.3d
989, 998 (8th Cir. 2000) . Even if the jury convicted Fackrell on the basis of
aiding and abetting in Johns’s murder, that finding is a sufficient basis for
concluding that he had the requisite mental states under § 3591(a)(2)(C) and
(D). We thus cannot conclude that there was error, let alone plain error. We
affirm.
C. Prosecutorial Misconduct in Statements
Fackrell and Cramer challenge several statements made by the
Government at trial. They jointly challenge the Government’s statements
about (1) future dangerousness and the jury’s responsibility for Defendants’
death sentences and (2) mitigation evidence, arguing that the statements
violated their Fifth and Eighth Amendment rights. Fackrell also challenges

8a

Case: 18-40598

Document: 00515779413

Page: 9

Date Filed: 03/12/2021

the Government’s statements about getting justice for the victim and the lack
of evidence of his intent to kill Johns.
1. Joint Challenge of Statements on Future Danger and Jury Role in Sentencing
Defendants jointly challenge the Government’s statements on future
dangerousness and the jury’s responsibility for their death sentences. They
argue that the Government committed misconduct by eliciting testimony
from witnesses about their ability to be released from maximum-security
prison and then arguing that Defendants were likely to pose future danger.
They also argue that the Government erred by implying that an appellate
court would review a sentence of death. We disagree.
a. Future Danger
During the penalty-phase of trial, both the Government and
Defendants called experts on future dangerousness. Defendants called Dr.
Gravette, and the Government called Dr. Berkebile. Both testified about
several maximum-security inmates with no relation to this case, including
David Hammer. Hammer was originally sentenced to death, a court vacated
his death sentence, and he was sentenced to life in a maximum-security
prison. Hammer then killed another inmate.
The Government’s future dangerousness argument used the experts’
testimony about Hammer and other inmates to suggest that even maximumsecurity prisons could not contain some inmates. The Government further
suggested that Defendants could one day be released from maximumsecurity prison and pose further danger in a less secure prison environment.
Though the record is not clear as to whether Defendants objected to
the statements, Defendants’ arguments fail even when reviewed for abuse of
discretion. See Snarr, 704 F.3d at 399.

9a

Case: 18-40598

Document: 00515779413

Page: 10

Date Filed: 03/12/2021

The Federal Death Penalty Act permits the introduction of
aggravating and mitigating evidence unless “its probative value is
outweighed by the danger of creating unfair prejudice.” 18 U.S.C. § 3593(c).
Our court has made clear just how broad that evidentiary standard is,
concluding that “[w]here the alternative to the death penalty is life
imprisonment, the government ‘is free to argue that the defendant will pose
a danger to others in prison and that executing him is the only means of
eliminating the threat to the safety of other inmates or prison staff.’” Snarr,
704 F.3d at 394 (quoting Simmons v. S. Carolina, 512 U.S. 154, 165 n.5
(1994)). Defendants’ arguments therefore fail.
b. Jury Responsibility
Defendants also argue that the testimony about Hammer’s death
sentence later being vacated allowed the jury to think it was not ultimately
responsible for their death sentences.
Defendants failed to object to the testimony at trial, so review is for
plain error. See Avants, 367 F.3d at 443.
The Government asked Dr. Gravette about David Hammer, and the
testimony was as follows:
Question from the Government: “And [Hammer] was originally given
a death sentence, but for some legal reasons that sentence was later
overturned. Am I right so far?”
Answer from Dr. Gravette: “Yes ma’am.”
This testimony came up again when the Government examined Dr. Berkebile
and said Hammer “had received a death sentence [and] it was converted to
life . . . .” Defendants argue that this testimony violated the Eighth
Amendment by permitting the jury “to believe that the responsibility for

10a

Case: 18-40598

Document: 00515779413

Page: 11

Date Filed: 03/12/2021

determining the appropriateness of the defendant’s death rests elsewhere.”
Caldwell v. Mississippi, 472 U.S. 320, 329 (1985).
This argument is incorrect because this case is distinguishable from
Caldwell. In Caldwell, the Supreme Court vacated a death sentence after the
prosecutor told the jury that their decision was not the final decision and that
it would be reviewed by the Supreme Court. Id. at 325−26 (1985). Here, the
Government’s statements are substantially different from those requiring
reversal in Caldwell. The Government’s statements were not in error, let
alone plain error. We affirm.
2. Joint Challenge to Mitigation Statements
Defendants challenge the Government’s statements that referred to
mitigating evidence as evidence mitigating against the crime committed,
rather than as evidence mitigating against the imposition of the death penalty.
After Defendants presented mitigating evidence related to their childhood
traumas, the Government responded with,
“Well, you may very well find that that’s a true statement, that you
find that the defense has proven that by a preponderance of the
evidence. But does that mean that it mitigates against a sentence of
death? Does that mean the fact that if things were different, then he
wouldn’t have committed the crime or he wouldn’t have been in
prison?”
Defendants did not object to this statement. The Government later asked
whether evidence about Fackrell’s father’s drinking mitigated Johns’s
murder. Defendants objected to that statement, but their objections were
overruled.
We review Defendants’ evidentiary challenges for abuse of discretion.
See Ebron, 683 F.3d at 133.

11a

Case: 18-40598

Document: 00515779413

Page: 12

Date Filed: 03/12/2021

Though Defendants challenge the Government’s statements linking
mitigating evidence to evidence that makes the crime less severe, the
statements do not warrant reversal. In Boyde v. California, the Supreme Court
did not reverse on similar language—that the mitigating evidence did not
make the defendant’s crime any “less serious.” 494 U.S. 370, 385–86 (1990).
We find no error in the district court’s denial of Defendants’ motion.
Furthermore, any potential error is rendered harmless by both the
Government and district court’s curative measures. Though the
Government made the mitigation statements described above, it also said
that mitigation evidence “[is] not something that excuses or justifies the
crime; but it does have to be something that mitigates the death penalty.”
Likewise, the district court’s instructions included a similar definition of
mitigating evidence that tracks our precedent. The Government has
sufficiently demonstrated that any error is harmless beyond a reasonable
doubt. See 18 U.S.C. § 3595(c)(2).
3. Fackrell’s Challenge to Statements about Justice and Intent to Kill
Fackrell next points to the Government’s statements urging the jury
to convict him of first-degree murder to avoid “less justice,” “half justice,”
or “no justice” for Johns. He then points to the Government’s statement
that “[t]here is really not any evidence to suggest that Fackrell didn’t intend
to kill Leo Johns.”
Since Fackrell did not object to these statements, we review only for
plain error. See Avants, 367 F.3d at 443.
To establish plain error, Fackrell must prove that “(1) there was error,
(2) the error was plain, (3) the error affected his ‘substantial rights,’ and (4)
the error seriously affected ‘the fairness, integrity or public reputation of
judicial proceedings.’” Jones, 489 F.3d at 681 (quoting Olano, 507 U.S. at
734).

12a

Case: 18-40598

Document: 00515779413

Page: 13

Date Filed: 03/12/2021

Fackrell’s argument that the statements were in plain error is
unconvincing. Even assuming that the statements were error, we cannot
conclude that the error was plain or affected his substantial rights. See United
States v. Rosenberger, 502 F. App’x 389, 394−95 (5th Cir. 2012) (“[T]he
references to . . . achieving justice for Rosenberger’s victims fall well short of
any realistic likelihood of prejudice.”).
Fackrell also fails to demonstrate plain error in the Government’s
statements that there was no evidence that he did not intend to kill Johns.
Though the Government’s statement “could have been more artfully put,”
it is best understood as a summary of Fackrell’s rebuttal evidence and
therefore not in error. Moreover, any error stemming from these statements
would not impact Fackrell’s substantial rights. See id. at 395. Fackrell’s
argument fails, and we affirm the district court.
D. Testimony of Two Bureau of Prisons Psychologists
Fackrell next argues that the rebuttal testimony of two Bureau of
Prisons (“BOP”) psychologists violated his rights.
He offered various forms of mitigating evidence related to his mental
health. He presented the records of Dr. Clemmer, 2 a BOP psychologist from
ADX who treated Fackrell after Johns’s murder (but before trial). Dr.
Clemmer’s notes describe Fackrell’s history of depression while at USP
Beaumont and note that USP Beaumont staff failed to respond to Fackrell’s
requests for psychological help in February 2009, December 2014, and
January 2015.

2

Though Fackrell initially designated Dr. Clemmer as a testifying witness, he
chose not to call her to testify. The Government initially objected to Fackrell’s motion to
enter her records as evidence, but the Government ultimately withdrew its objection.

13a

Case: 18-40598

Document: 00515779413

Page: 14

Date Filed: 03/12/2021

Fackrell offered testimony and evidence from psychologist Matthew
Mendel. Mendel testified that Fackrell’s juvenile records showed that he
attempted suicide and had a provisional diagnosis of major depressive
disorder that went untreated. He also testified that Dr. Clemmer’s notes
indicated that her treatment was helping Fackrell and causing “profound
changes” in his behavior.
Fackrell also offered testimony from Robert Johnson, who holds a
doctoral degree in criminal justice. Robert Johnson testified that Fackrell was
suicidal when he arrived at ADX but had received help from the ADX staff.
He also testified that Fackrell told him that he hoped to get treatment for his
mental health issues and move forward with his life.
To rebut Fackrell’s mitigation evidence, the Government called Dr.
Shara Johnson and Dr. Brown, two BOP psychologists who treated Fackrell
while he was at USP-Beaumont. Fackrell argues that their testimony violated
his Fifth Amendment right against self-incrimination, his Sixth Amendment
right to counsel, and the psychotherapist-patient privilege.
1. Right Against Self-Incrimination
Fackrell first challenges the testimony of the BOP psychologists as
violative of his Fifth Amendment protection against self-incrimination. We
disagree.
Fackrell did not object to the testimony of Drs. Shara Johnson and
Brown on the basis that they violated his Fifth Amendment right against selfincrimination. In fact, counsel expressly stated that “we’re not objecting to
the government calling a rebuttal witness to say they disagree with the
diagnosis of whatever it is they are going to say.” Though counsel objected

14a

Case: 18-40598

Document: 00515779413

Page: 15

Date Filed: 03/12/2021

to the admission of Dr. Brown’s notes 3 under the Sixth, Eighth, and
Fourteenth Amendments, those objections do not preserve any error based
on the Fifth Amendment right against self-incrimination. See FED. R. EVID.
103(a)(1)(B) (“A party may claim error in a ruling to admit or exclude
evidence only if the error affects a substantial right of the party, and if the
ruling admits evidence . . . [the party must] timely object or move to strike;
and state the specific ground . . . .”); see also United States v. Seale, 600 F.3d
473, 485−87 (5th Cir. 2010). Nor can we say that the unoffered objection was
apparent from the context. See id.
Because no objection was made on this ground, review is for plain
error. Avants, 367 F.3d at 443.
Dr. Shara Johnson treated Fackrell between January 2015 and August
2016, and she testified that he had “no significant mental health disorders.”
She also testified about his diagnosis of antisocial personality disorder and his
corresponding “pervasive disregard for the rights of others, irritability,
aggressiveness, lack of remorse, and impulsivity.”
Dr. Brown treated Fackrell beginning in January 2016, and she
testified that when she met Fackrell he had “no mental health history
whatsoever.” She also testified that Fackrell said “[his] childhood had
nothing to do with Johns’s murder” and that his previous prison conduct
“was funny.”
More than merely undermining his case for life, Fackrell argues that
the use of his statements to the BOP psychologists violated his Fifth
Amendment right against self-incrimination because he was not warned that
his statements to the psychologists could be used against him at trial. See

3

Counsel specifically objected to Dr. Brown’s documentation of her encounters
with Fackrell while he was housed at USP-Beaumont for Johns’s murder trial.

15a

Case: 18-40598

Document: 00515779413

Page: 16

Date Filed: 03/12/2021

Estelle v. Smith, 451 U.S. 454, 468 (1981) (“Because respondent did not
voluntarily consent to the pretrial psychiatric examination after being
informed of his right to remain silent and the possible use of his statements,
the State could not rely on what he said to Dr. Grigson to establish his future
dangerousness.”). Since he did not receive Miranda 4 warnings before he
spoke to the doctors during his treatment, he concludes that the use of those
statements violated his rights under the Fifth Amendment.
We disagree with Fackrell’s argument that the Government violated
his Fifth Amendment right by calling the BOP psychologists as rebuttal
witnesses. Under United States v. Hall, the Government may use its own
expert witnesses to rebut a defendant’s experts when the defendant places
his mental health at issue. 152 F.3d 381, 398 (5th Cir. 1988), abrogated on other
grounds by United States v. Martinez–Salazar, 528 U.S. 304 (2000). “This
rule rests upon the premise that ‘[i]t is unfair and improper to allow a
defendant to introduce favorable psychological testimony and then prevent
the prosecution from resorting to the most effective and in most instances
the only means of rebuttal: other psychological testimony.’” Id. (alteration in
original) (quoting Schneider v. Lynaugh, 835 F.2d 570, 575 (5th Cir. 1988)).
This case is distinguishable from Smith because Fackrell put his
mental health at issue by introducing evidence and testimony from Clemmer,
Mendel, and Robert Johnson. See Smith, 451 U.S. at 472 (“[A] different
situation arises where a defendant intends to introduce psychiatric evidence
at the penalty phase.”). Their testimony described his past and current
struggles with depression, suicide, and other untreated diagnoses. Fackrell
offered the evidence as mitigating evidence, and the Government was
entitled to rebut that evidence using its own witnesses.

4

384 U.S. 436 (1966).

16a

Case: 18-40598

Document: 00515779413

Page: 17

Date Filed: 03/12/2021

We find no Fifth Amendment error in the Government’s use of
rebuttal testimony from the BOP psychologists.
2. Right to Counsel
Like his Fifth Amendment Miranda argument, Fackrell argues that his
Sixth Amendment right to counsel was violated because he did not have
counsel when he spoke with the BOP psychologists.
Fackrell objected to the admission of evidence on the grounds of the
Sixth Amendment right to counsel.
We review de novo Fackrell’s objection to the testimony on the basis
of the Sixth Amendment. See United States v. Webster, 162 F.3d 308, 333 (5th
Cir. 1998).
Because the doctor’s statements were used against Fackrell at trial, he
compares his treatment to a pretrial government expert evaluation. Without
counsel present (or a valid waiver of the right to counsel), he concludes that
his rights were violated.
In Powell v. Texas, the Supreme Court explained that a defendant’s
Fifth Amendment right “precludes the state from subjecting him to a
psychiatric examination concerning future dangerousness without first
informing the defendant that he has a right to remain silent and that anything
he says can be used against him at a sentencing proceeding.” 492 U.S. 680,
681 (1989) (citing Smith, 451 U.S. at 461−69). The Court further explained
that “the Sixth Amendment right to counsel precludes such an examination
without first notifying counsel that ‘the psychiatric examination [will]
encompass the issue of their client’s future dangerousness.’” Id. (alteration
in original) (quoting Smith, 451 U.S. at 471).
The BOP psychologists served as rebuttal witnesses to Fackrell’s own
evidence about his mental health. Fackrell points to nothing that indicates

17a

Case: 18-40598

Document: 00515779413

Page: 18

Date Filed: 03/12/2021

that the doctors’ evaluations were carried out in order to assess his future
dangerousness, as was the case in Smith and Powell. Instead, the doctors’
examinations were routine and in keeping with their duty of care to all
inmates. We can find no error and thus affirm the district court’s denial of
Fackrell’s objection based on the Sixth Amendment.
3. Psychotherapist-Patient Privilege
Fackrell next argues that even if the BOP psychologists’ testimony
was permissible under the Fifth and Sixth Amendments, their testimony
violated the common law psychotherapist-patient privilege. We disagree.
Though the application of the psychotherapist-patient privilege is a
legal question, Fackrell did not raise this issue before the district court. We
therefore review for plain error. Avants, 367 F.3d at 443.
The Supreme Court recognized the psychotherapist-patient privilege
under Federal Rule of Evidence 501 in Jaffee v. Redmond. 518 U.S. 1, 8−10
(1996). The Court described the importance of the privilege in fostering trust
and candor between psychotherapists and their patients. Id. at 10. The
benefits of the privilege are great because “[t]he psychotherapist privilege
serves the public interest by facilitating the provision of appropriate
treatment for individuals suffering the effects of a mental or emotional
problem.” Id. at 11. Even still, the Court noted that the privilege must give
way in certain circumstances. Id. at 18 n.19.
Though the psychotherapist-patient privilege is an important feature
of our legal system, we cannot conclude that the district court committed
plain error in permitting the doctors’ testimony.
First, it is not clear that the psychotherapist-patient privilege exists
during the sentencing phase of federal capital trials. “Information is
admissible regardless of its admissibility under the rules governing admission

18a

Case: 18-40598

Document: 00515779413

Page: 19

Date Filed: 03/12/2021

of evidence at criminal trials except that information may be excluded if its
probative value is outweighed by the danger of creating unfair prejudice,
confusing the issues, or misleading the jury.” 18 U.S.C. § 3593(c). Section
3593(c) thus favors admission of all evidence except that which creates the
risk of unfair prejudice, confusing the issues, or misleading the jury.
The psychotherapist-patient privilege prevents the admission of
communications between psychotherapists and patients, and the privilege
applies where the Federal Rules of Evidence apply after Jaffe
(notwithstanding cases where state law compels a different result). But
without the parameters of the Federal Rules of Evidence, we cannot conclude
that the privilege applies in the sentencing phase of capital trials. Without the
privilege limiting the admission of the doctors’ testimony, the evidence could
only be excluded for one of the reasons listed in § 3593(c), and we cannot say
that the district court plainly erred by permitting this testimony.
Second, even if we assume that the privilege applies (and that Fackrell
did not waive the privilege), we cannot conclude that the district court’s error
was plain. A plain error is one that is “so clear or obvious that ‘the trial judge
and prosecutor were derelict in countenancing it, even absent the
defendant’s timely assistance in detecting it.’” United States v. Narez–
Garcia, 819 F.3d 146, 151 (5th Cir. 2016) (quoting United States v. Hope, 545
F.3d 293, 295–96 (5th Cir. 2008)).
Fackrell’s best argument for applying the psychotherapist-patient
privilege comes from two cases from our sister circuits. The first is Koch v.
Cox, 489 F.3d 384 (D.C. Cir. 2007). Koch says that the psychotherapistpatient privilege can be waived when the party claiming the privilege “relies
upon the therapist’s diagnoses or treatment in making or defending a case.”
Id. at 389. Here, Fackrell argues that he did not rely on Dr. Shara Johnson or
Dr. Brown’s treatment in making or defending his case. The two doctors

19a

Case: 18-40598

Document: 00515779413

Page: 20

Date Filed: 03/12/2021

testified for the Government on rebuttal, so they did not aid him in making
or defending his case.
Following Koch, the Second Circuit decided In re Sims, 534 F.3d 117
(2d Cir. 2008). The Second Circuit agreed with Koch in Sims, adding that “a
party’s psychotherapist-patient privilege is not overcome when his mental
state is put in issue only by another party.” Id. at 134 (emphasis added).
However, neither of those cases addresses Fackrell’s argument.
Fackrell’s mental state was put in issue by his own trial strategy because his
own experts testified about his mental health history. Even if that evidence is
categorized as rebuttal evidence to the Government’s evidence of
aggravating factors, that argument is undercut by the fact that Fackrell
offered mitigating factors related to his history of depression. The record
supports the conclusion that Fackrell put his mental state at issue through his
choice of expert witnesses and mitigating evidence submitted to the jury.
Though both Koch and Sims are merely persuasive authority, they
offer some guidance. Fackrell’s claim would likely fail under both Koch and
Sims. He has not cited, nor have we found, support for his position that the
Government could not rebut his mental health evidence with the testimony
of the BOP psychologists when he put his mental health at issue. We thus
affirm, concluding that the district court did not commit plain error under
the psychotherapist-patient privilege by permitting the BOP psychologists to
testify.
E. Mental Health Rebuttal Witnesses
Cramer challenges the Government’s use of mental health rebuttal
witnesses, arguing that the testimony violated Federal Rule of Criminal
Procedure 12.2 and the Fifth and Sixth Amendments. We disagree.

20a

Case: 18-40598

Document: 00515779413

Page: 21

Date Filed: 03/12/2021

Because Cramer did not object at trial, review is for plain error. See
United States v. Rice, 607 F.3d 133, 138–39 (5th Cir. 2010).
Cramer presented mental health experts during the sentencing phase.
The experts focused on his difficult childhood and the impact of that
childhood on his development. The Government presented a rebuttal
witness, Dr. Jill Hayes. The Government agreed to limit her testimony to
only direct rebuttal of Cramer’s experts and to exclude all mention of Johns’s
murder. However, Dr. Hayes testified about statements Cramer allegedly
made that indicate his lack of remorse for his crimes.
Cramer argues that her testimony went beyond pure rebuttal and thus
violated Rule 12.2 and his Fifth Amendment rights. Much like crossexamination is generally limited to the topics inquired about on direct
examination, Cramer argues that her rebuttal should have been tied to his
mitigation evidence—evidence of his childhood and resulting traumas. See,
e.g., Kansas v. Cheever, 571 U.S. 87, 97 (2013) (limiting cross-examination to
topics from direct examination).
He further argues that his Fifth Amendment right against selfincrimination was violated when Dr. Hayes testified about his statements
without his permission. Likewise, he argues that her testimony violated Rule
12.2 by violating the reciprocity principle embedded in the rule that limits
rebuttal to the topics raised by the defendant.
We can find no plain error in permitting Dr. Hayes’s testimony. Her
testimony gave a broad overview of Cramer’s life and did not stray so far from
the topics Cramer raised as to constitute plain error. Cramer offered
testimony about his childhood and his present-day experiences, and Dr.
Hayes’s testimony was similarly broad. Her testimony about Cramer’s
reaction to Johns’s murder is no broader than the testimony of Cramer’s own

21a

Case: 18-40598

Document: 00515779413

Page: 22

Date Filed: 03/12/2021

expert. We find no error either under the Fifth Amendment or under Rule
12.2 and thus affirm.
F. Excluding Evidence of the Johns Family’s Suit
The district court denied Defendants’ request to introduce evidence
from the Johns family’s civil suit against a BOP warden. They argued that
details of the suit were relevant to rebut the Government’s evidence related
to the victim-impact aggravator. We agree with the district court.
The Federal Death Penalty Act permits the introduction of
aggravating and mitigating evidence unless “its probative value is
outweighed by the danger of creating unfair prejudice.” 18 U.S.C. § 3593(c).
We review the district court’s evidentiary rulings for abuse of discretion.
Snarr, 704 F.3d at 399.
The Johns family sued a BOP warden, alleging that the BOP was liable
for Johns’s wrongful death. In the warden’s answer urging the court to
dismiss the suit, he said that Johns was primarily responsible for his death
because he joined the SAC and defied the rules prohibiting drinking and
gambling. In Defendants’ trial, the Government argued that Johns was not
responsible for his murder and that Defendants murdered him to maintain
their reputations.
The district court did not err in excluding this evidence as irrelevant
and likely to confuse the jury. The individual warden’s response in a lawsuit
does not equate to the BOP’s own statement on Johns’s culpability, as the
BOP was not a party to the civil suit. The evidence is therefore not relevant
and the relationship between the two cases is so attenuated as to risk
confusing the jury. Defendants’ argument therefore fails.

22a

Case: 18-40598

Document: 00515779413

Page: 23

Date Filed: 03/12/2021

G. Excluding Evidence related to the Griffith Murder
During the penalty phase of trial, the Government presented evidence
of Fackrell’s involvement in the murder of Ronald Griffith. Fackrell
attempted to introduce evidence that the Government offered a plea deal to
his co-defendant in the Griffith murder. The district court denied Fackrell’s
request to introduce the evidence. Fackrell argues that the exclusion was in
error and was not harmless beyond a reasonable doubt. We disagree.
The district court’s decision to exclude information is reviewed for
abuse of discretion. Snarr, 704 F.3d at 399. If there was error, reversal is
required unless the Government can show it was harmless beyond a
reasonable doubt. United States v. Jones, 132 F.3d 232, 252 (5th Cir. 1998).
After Johns’s murder, Fackrell was charged with the deadly assault of
Ronald Griffith, a fellow inmate and alleged sex-offender. Fackrell allegedly
participated in this assault with another inmate and SAC member, Erik
Rekonen. In the prosecution for Griffith’s murder, the Government agreed
to a ten-year sentence for Rekonen but pursued the death penalty against
Fackrell. The Government and Rekonen’s attorney met about a potential
plea in 2017. The record reflects that the Government sought to make a deal
with Rekonen in exchange for his testimony against Fackrell.
The district court excluded the mention of Griffith’s murder during
the guilt phase of Johns’s murder trial but permitted its mention during the
sentencing phase. The Government presented Griffith’s murder as
aggravating evidence, and Fackrell argued that evidence of Rekonen’s plea
deal should have been permitted as mitigating evidence. Fackrell asserts that
Rekonen’s plea deal was relevant because it demonstrated that his equally
culpable co-defendant would not receive the death penalty. See 18 U.S.C. §
3592(a)(4) (“In determining whether a sentence of death is to be imposed on
a defendant, the finder of fact shall consider any mitigating factor, including

23a

Case: 18-40598

Document: 00515779413

Page: 24

Date Filed: 03/12/2021

. . . [whether] [a]nother defendant or defendants, equally culpable in the
crime, will not be punished by death.”). He also asserts that Rekonen’s lesser
sentence reflects the BOP’s acknowledgment that prison politics force
inmates to violently assault alleged sex-offenders.
Though excluding mitigating evidence may violate a capital
defendant’s right to due process, Green v. Georgia, 442 U.S. 95, 97 (1979), we
cannot conclude that the district court’s exclusion was in error. 18 U.S.C. §
3592(a)(4) allows defendants to put on mitigating evidence of their codefendant’s culpability—in trials for the related offense. Here, Fackrell can
point to nothing in the statute nor case law that commands district courts to
permit mitigating evidence about co-defendants from other trials. The statute
refers to other defendants “in the crime,” and we conclude that the crime
referenced in the statute is the crime for which Fackrell faced the death
penalty, Johns’s murder. In doing so, we follow our sister circuit. See United
States v. Gabrion, 719 F.3d 511, 524 (6th Cir. 2013) (“This factor does not
measure the defendant’s culpability itself, but instead considers—as a moral
data point—whether that same level of culpability, for another participant in
the same criminal event, was thought to warrant a sentence of death.”)
(emphasis added).
Evidence of Rekonen’s plea could also have been admitted as “catchall” mitigation evidence under 18 U.S.C. § 3592(a)(8). Any error in
excluding this evidence is harmless given that the jury already saw videos of
Griffith’s assault and heard evidence of Fackrell’s involvement. We cannot
say that evidence of Rekonen’s plea would have “diminish[ed] [his]
culpability or otherwise mitigate against a sentence of death.” Id.
Furthermore, jurors found several mitigating factors related to
Griffith’s murder even without the evidence of Rekonen’s plea deal. Six
jurors found it mitigating that officers placed Griffith near other inmates

24a

Case: 18-40598

Document: 00515779413

Page: 25

Date Filed: 03/12/2021

knowing that he may be assaulted. Another six jurors found that Fackrell and
other inmates had to play prison politics to stay safe. This further
demonstrates that any perceived error would be harmless.
We affirm the district court’s exclusion of evidence of Rekonen’s plea
deal related to Griffith’s murder.
H. Acquitted Conduct as Evidence of Future Dangerousness
Cramer challenges the Government’s use of his role in a 2012 assault
charge as evidence of future dangerousness. Cramer was ultimately acquitted
of the 2012 assault, and he argues that the Government violated his Fifth
Amendment protection against double jeopardy. We disagree.
Cramer did not object at trial. Review is for plain error. Avants, 367
F.3d at 443.
“[A]n acquittal in a criminal case does not preclude the Government
from relitigating an issue when it is presented in a subsequent action governed by a lower standard of proof.” Dowling v. United States, 493 U.S. 342,
349 (1990). “Extraneous offenses offered at the punishment phase of a capital trial need not be proven beyond a reasonable doubt.” Vega v. Johnson, 149
F.3d 354, 359 (5th Cir. 1998).
Under Dowling and Vega, the Government was permitted to introduce
evidence of Cramer’s conduct related to the 2012 assault for which he was
acquitted. At trial for the 2012 assault, the Government could not prove that
he committed the assault beyond a reasonable doubt. However, the Government was not required to prove the 2012 assault beyond a reasonable doubt
to mention it at the punishment phase of this trial. See id.
Thus, there was no error in the Government’s mention of Cramer’s
charge for the 2012 assault. We affirm.

25a

Case: 18-40598

Document: 00515779413

Page: 26

Date Filed: 03/12/2021

I. Categorical Approach and Fackrell’s Prior Convictions
The Government alleged four statutory aggravators in its notice of
intent to seek the death penalty against Fackrell, including the 18 U.S.C. §
3592(c)(2) aggravator for use of a firearm and the § 3592(c)(4) aggravator for
inflicting death or serious bodily injury. Fackrell has previous federal
convictions for brandishing a firearm during a crime of violence and
possession of a prohibited object. He also has a state law conviction for
aggravated assault.
The district court did not use the categorical approach in determining
that his previous convictions fit within § 3592(c)(2) and (c)(4). Fackrell
argues that the district court should have used the categorical approach to
compare the elements of his prior convictions with the elements of the
offenses described under §§ 3592(c)(2) and (c)(4). He argues that his
convictions do not fall within the ambit of §§ 3592(c)(2) and (c)(4), and thus
his sentence must be reversed. We disagree.
Since the district court’s decision to reject the categorical approach
was a legal conclusion, we review it de novo. United States v. Jackson, 549
F.3d 963, 969 (5th Cir 2008). The analysis is subject to harmless-error review
as well. See United States v. Torrez, 869 F.3d 291, 313 (4th Cir. 2017).
Our circuit has not yet addressed whether the categorical approach is
the appropriate analysis under the Federal Death Penalty Act. Both sides
present persuasive arguments, but we need not answer the question to
resolve this issue. Even if we assume that the categorical approach applies
and thus the § 3592(c)(2) and (c)(4) aggravators were invalid, the sentence
can be affirmed if it would have been imposed without the invalid
aggravators. Jones, 132 F.3d at 251−52.
The Government argues (and Fackrell concedes) that his prior
convictions were admissible at the selection phase as non-statutory

26a

Case: 18-40598

Document: 00515779413

Page: 27

Date Filed: 03/12/2021

aggravators. Fackrell argues that the jury necessarily would have put more
weight on statutory aggravators than non-statutory aggravators, such that
reversal is warranted for re-sentencing. Nothing in our precedent compels
such a result, so Fackrell’s argument fails.
J. Fackrell’s Hobbs Act Claim
Fackrell also challenges the characterization of his Hobbs Act robbery
conviction as a statutory aggravator under 18 U.S.C. § 3592(c). He argues
that the district court erred by permitting the Government to use his
conviction as a § 3592(c) aggravator after United States v. Davis, 139 S. Ct.
2319 (2019).
Fackrell preserved this argument at trial, and review is de novo. United
States v. Hebert, 131 F.3d 514, 525 (5th Cir. 1997).
The § 3592(c) aggravator includes convictions for violent crimes, and
Hobbs Act robbery is a violent crime. United States v. Buck, 847 F.3d 267, 275
(5th Cir. 2017). The Government listed Fackrell’s Hobbs Act conviction as
the basis for the aggravator given its characterization as a crime of violence.
Fackrell argues that this characterization is erroneous after Davis, where the
Supreme Court held that the residual clause in § 924(c)(3)(B) was
unconstitutionally vague. 139 S. Ct. 2319, 2323 (2019). He also argues that
his Hobbs Act conviction was not based on a use of force because it can be
committed by threatening harm to an intangible economic interest.
Fackrell’s first argument is foreclosed by our decision in Buck. Hobbs
Act robbery is a crime of violence in this circuit and therefore qualifies as an
aggravator under § 3592(c). See Buck, 847 F.3d at 275.
Fackrell’s second argument also fails. Hobbs Act extortion may be
accomplished without the use of force. See United States v. Nadaline, 471 F.2d
340, 344 (5th Cir. 1973). This says nothing of Hobbs Act robbery for which

27a

Case: 18-40598

Document: 00515779413

Page: 28

Date Filed: 03/12/2021

Fackrell was charged, and we find no error in listing Fackrell’s Hobbs Act
robbery conviction as an aggravator under § 3592(c).
K. Jury Instructions on Mitigating Evidence
Fackrell challenges the district court’s penalty-phase jury
instructions on mitigating evidence, arguing that the two-step instruction for
finding mitigating factors violates 18 U.S.C. § 3593(d). We disagree.
Fackrell preserved his objections to the verdict form. This Court
“review[s] a challenge to jury instructions for abuse of discretion, ‘affording
the trial court substantial latitude in describing the law to the jurors.’” United
States v. Ortiz-Mendez, 634 F.3d 837, 839 (5th Cir. 2011) (quoting United
States v. Orji-Nwosu, 549 F.3d 1005, 1008 (5th Cir. 2008)).
Section 3593(d) provides that “[a] finding with respect to a mitigating
factor may be made by 1 or more members of the jury, and any member of the
jury who finds the existence of a mitigating factor may consider such factor
established . . . .” The district court’s instruction told the jury that it could
“find that the defendant has proved by a preponderance of the evidence the
existence of [a mitigating] factor and that it is mitigating.”
The district court’s instruction requires jurors to find that a fact was
proven and then find that the fact was mitigating. Fackrell argues that this
instruction permitted the jury to disregard mitigating evidence because it
could find that a fact was proven but then conclude that the fact was not
mitigating.
Fackrell’s argument is undercut by 18 U.S.C. § 3592(a), which
requires jurors to consider “any mitigating factor.” 18 U.S.C. § 3592(a).
Whether jurors first evaluated whether Fackrell proved the existence of some
facts and then determined they were mitigating or answered both questions
at once, the court’s instructions were proper. See United States v. Mikhel, 889

28a

Case: 18-40598

Document: 00515779413

Page: 29

Date Filed: 03/12/2021

F.3d 1003, 1055 (9th Cir. 2018) (“[R]egardless of whether the jury found that
the proffered mitigating factors were factually unsupported or that they
simply did not justify a lesser sentence, the final result is the same.”).
We affirm the district court’s denial of Fackrell’s objection to the jury
instruction on mitigating factors.
L. Marshalling the Evidence in Jury Instructions
Defendants argue that the district court impermissibly “marshalled
the evidence” on the jury instructions for future dangerousness. We
disagree.
Defendants failed to object to the instructions on this basis at trial.
Review is for plain error. Avants, 367 F.3d at 443.
The district court’s oral and written jury instructions defined future
dangerousness and listed several pieces of evidence that the Government
offered as future dangerousness evidence. The instructions did not list any of
the defense’s evidence against future dangerousness.
Though once common, the practice of judges marshalling the
evidence “has fallen into widespread disfavor.” United States v. Mundy, 539
F.3d 154, 158 (2d Cir. 2008). Courts should refrain from commenting on the
evidence at trial and should avoid one-sided summaries or comments. See
Quericia v. United States, 289 U.S. 466, 470 (1933).
In United States v. Coonce, the Eighth Circuit rejected a defendant’s
claim that the district court had improperly summarized the evidence of
future dangerousness in favor of the government. 932 F.3d 623, 637 (8th Cir.
2019). The pattern jury instructions language used “as evidenced by” to
describe pertinent facts related to the aggravators, and the Eighth Circuit
cautioned district courts against removing that language from the instruction.
Id. at 638.

29a

Case: 18-40598

Document: 00515779413

Page: 30

Date Filed: 03/12/2021

Here, the pattern instructions also included “as evidenced by” and
summarized the evidence. Such language is meant to aid and focus the jurors’
analysis on particular pieces of evidence rather than presenting them an
open-ended question. See id. at 637.
We cannot conclude that the district court plainly erred by focusing
the jury’s analysis on particular pieces of evidence. In fact, the district court
listed Defendants’ own evidence of mitigating factors in its instructions as
well, further proof that the court did not err by giving a one-sided summary
of the evidence.
We affirm, finding no error in the district court’s oral and written jury
instructions.
M. Jury Question on Non-unanimity
Defendants challenge the district court’s supplemental jury
instructions. They argue that the district court refused to instruct the jurors
after they asked about the consequences of a non-unanimous verdict. We
disagree.
Supplemental jury instructions are reviewed for abuse of discretion in
light of the entire charge. United States v. Hale, 685 F.3d 522, 544–45 (5th
Cir. 2012).
Prior to voir dire, Defendants requested a preemptive instruction on
the consequence of a split verdict, but the court denied their requests under
Jones v. United States. In Jones, the Supreme Court held that the Eighth
Amendment does not require every jury to be told of the effect of nonunanimity. See 527 U.S. 373, 383 (1999).
Later during the sentencing jurors’ deliberations, they sent a note to
the court asking, “What is the process if we are not unanimous with our

30a

Case: 18-40598

Document: 00515779413

Page: 31

Date Filed: 03/12/2021

verdict?” The district court sent a note back to the jurors instructing them to
“[p]lease continue your deliberations.”
“When evaluating the adequacy of supplemental jury instructions, we
ask whether the court’s answer was reasonably responsive to the jury’s
question and whether the original and supplemental instructions as a whole
allowed the jury to understand the issue presented to it.” United States v.
Stevens, 38 F.3d 167, 170 (5th Cir. 1994).
Defendants argue that even if the district court’s initial refusal to
instruct on non-unanimity was correct under Jones, Jones does not control
where the jurors directly asked about non-unanimity. They argue that the
district court’s response should have been given in open court and should
have answered the jurors’ question.
We cannot conclude that the district court erred by responding to the
jurors’ question in writing. See United States v. Strauch, 987 F.2d 232, 242−43
(5th Cir. 1993). Nor can we conclude that the court abused its discretion by
not providing a non-unanimity instruction in response to the jurors’
question. Congress did not require such an instruction among the mandatory
instructions that the district court must give. See Jones, 527 U.S. at 383 (citing
18 U.S.C. § 3593(f)).
Even beyond Jones, we can find no error where the district court’s
instructions explained that each juror must consider the evidence
individually to render a verdict. The district court instructed the jurors that
the verdict must represent the judgment of each of them and that they each
must decide the case for themselves. The fact that many different groupings
of jurors found various mitigating factors for Defendants further
demonstrates that jurors acted individually.
We affirm the district court’s supplemental jury instruction to the
sentencing jury.

31a

Case: 18-40598

Document: 00515779413

Page: 32

Date Filed: 03/12/2021

N. Incomplete Record
Defendants challenge the sufficiency of the record on appeal, arguing
that missing components impair their ability to have a full appeal. We
disagree.
The record on appeal includes transcripts of proceedings. FED. R.
APP. P. 10(a). If the transcript of a hearing or trial is unavailable, Rule 10(c)
permits the appellant to prepare part of that record from their recollection.
FED. R. APP. P. 10(c). The district court did not permit Defendants to
recollect parts of the record they contend are missing, and they argue that
they do not have a substantial part of the record on appeal.
Where the defendant has new counsel on appeal, the court will reverse
if (1) a missing portion of the record is substantial and significant, and (2) the
trial court’s reconstruction is not a substantially verbatim account. See United
States v. Pace, 10 F.3d 1106, 1124–25 (5th Cir. 1993).
Defendants assert that the record is missing vital conferences,
including the conference about the testimony of Elizabeth Rose, the
Government’s final witness in the guilt phase of trial. Rose was in a holding
cell near Fackrell and Cramer’s cells during their trial. She testified that she
heard them making fun of the prosecutor’s opening argument, laughing
about stabbing Johns 74 times, and Fackrell saying that “[i]t didn’t feel like
that many [stabbings] when it was happening.”
Rose was represented by an Assistant Federal Public Defender for the
Eastern District of Texas, as was Cramer. She was facing a life sentence for
conspiracy to possess and intent to distribute methamphetamine. She
contacted her attorney and told him that she wanted him to tell the
Government about what she heard. Rose’s attorney petitioned to withdraw
from her case given the conflict of interest created by her desire to testify
against Cramer. Defendants’ counsel believes that the court discussed

32a

Case: 18-40598

Document: 00515779413

Page: 33

Date Filed: 03/12/2021

Rose’s testimony in an unrecorded conference in chambers and that the
missing record prejudices their defense. Counsel also believes that the parties
discussed the potential conflict of interest facing the Federal Public
Defender.
Defendants also identify the conference about the penalty-phase jury
charge as another important proceeding that was unrecorded. The district
court indicated that it wanted to meet with the parties to decide on the
penalty-phase instructions. No recording of the conference exists. Several of
counsel’s proposed mitigating instructions did not appear in the instructions,
and Defendants now argue that the court ruled on their proposed instructions
at the unrecorded conference.
Defendants arguments fail because the discussion of Rose’s testimony
was not a “hearing or trial” within the meaning of Rule 10. Nor was the jury
charge conference a “session of the court” pursuant to the Court Reporter’s
Act because it did not occur in open court. United States v. Jenkins, 442 F.2d
429, 438 (5th Cir. 1971). Neither the Federal Rules of Appellate Procedure
nor the Court Reporter’s Act compel reversal here. Furthermore,
Defendants have not demonstrated that these omissions are substantial or
significant. Defendants’ arguments fail.
O. Cumulative Reversal
Defendants’ final argument is that even if no individual error is
reversible, the cumulative effect of the errors warrants reversal.
An appellate court may reverse a conviction by aggregating otherwise
non–reversible errors that combine to deny the defendant’s right to a fair
trial. United States v. Delgado, 672 F.3d 320, 343−44 (5th Cir. 2012) (en banc).
Because we do not find that the district court made any errors,
cumulative reversal is unavailable.

33a

Case: 18-40598

Document: 00515779413

Page: 34

Date Filed: 03/12/2021

III. CONCLUSION
For the aforementioned reasons, we AFFIRM the sentences and
convictions of Ricky Fackrell and Christopher Cramer.

34a

Case 1:16-cr-00026-MAC-ZJH Document 749 Filed 01/30/20 Page 1 of 8 PageID #: 20560

UNITED STATES DISTRICT COURT
UNITED STATES OF AMERICA
versus
CHRISTOPHER EMORY CRAMER (1)
RICKY ALLEN FACKRELL (2)

EASTERN DISTRICT OF TEXAS
§
§
§
§
§
§

CASE NO. 1:16-CR-26

MEMORANDUM AND ORDER
Pending before the court is Defendants Christopher Emory Cramer (“Cramer”) and Ricky
Allen Fackrell’s (“Fackrell”) (collectively, “Defendants”) Joint Opposed Motion to Settle and
Approve the Statement of the Proceeding Not Recorded (#743) (“Motion for Statement”). The
Government filed a response in opposition (#745), and the Defendants filed a Joint Reply (#746).
Also pending before the court is Defendants’ Joint Motion to Complete the Record on Appeal
(#747) (“Motion to Complete”). Having considered the motions, the submissions of the parties,
the record, and the applicable law, the court is of the opinion that Defendants’ Motion for
Statement should be denied and their Motion to Complete should be granted in part and denied in
part.
I.

Background
On March 3, 2016, a United States Grand Jury sitting for the Eastern District of Texas

returned an indictment charging Defendants with murder in violation of 18 U.S.C. §§ 1111 and
2 and one additional count that was later dismissed. The Government filed notice of intent to seek
the death penalty against each Defendant. After 15 days of jury selection, trial began on April 30,
2018, and concluded on June 13, 2018. Defendants were convicted of Capital Murder and

35a

Case 1:16-cr-00026-MAC-ZJH Document 749 Filed 01/30/20 Page 2 of 8 PageID #: 20561

sentenced to death. Both filed notices of appeal, and counsel were appointed.1 The matter is
currently pending before the United States Court of Appeals for the Fifth Circuit as Case
No. 18-40598.
II.

Analysis
A.

Request for Statement

On December 30, 2019, Defendants filed their Motion for Statement and attached a
proposed statement that purportedly “represents the substance” of an in-chambers conference held
on May 7, 2018. Defendants state that they relied on “notes and recollections from defense
attorneys for Defendants, who were present during the chambers conference” to create the
statement. Defendants request the court to settle and approve the statement and to direct the
district clerk to include the statement with the record on appeal pursuant to Rule 10(c) of the
Federal Rules of Appellate Procedure.
Rule 10(c) of the Federal Rules of Appellate Procedure, entitled Statement of the Evidence
When the Proceedings Were Not Recorded or When a Transcript Is Unavailable, provides:
If the transcript of a hearing or trial is unavailable, the appellant may prepare a
statement of the evidence or proceedings from the best available means, including
the appellant’s recollection. The statement must be served on the appellee, who
may serve objections or proposed amendments within 14 days after being served.
The statement and any objections or proposed amendments must then be submitted
to the district court for settlement and approval. As settled and approved, the
statement must be included by the district clerk in the record on appeal.
FED. R. APP. P. 10(c) (emphasis added).

The court doubts that Rule 10(c) applies to

off-the-record conferences held in chambers.

See 28 U.S.C. 753(b) (requiring that “all

proceedings in criminal cases had in open court” be recorded); United States v. Jenkins, 442 F.2d

1

Cramer is represented on appeal by one of his trial attorneys: Douglas Barlow.

2

36a

Case 1:16-cr-00026-MAC-ZJH Document 749 Filed 01/30/20 Page 3 of 8 PageID #: 20562

429, 438 (5th Cir. 1971) (holding that a “charge conference in chambers was not in open court”
and thus, need not be recorded under the Court Reporter’s Act); see also United States v. Layne,
564 F. App’x 83, 84 (5th Cir. 2014) (stating that while the Fifth Circuit has not addressed
in-chambers conversations with a juror, any error in failing to record such a conversation was
neither clear nor obvious); 20 MOORE’S FEDERAL PRACTICE - CIVIL § 310.30 (2019) (“The term
‘unavailable’ is not defined, but the rule (and its predecessor Civil Rule 75(h)) have been
interpreted broadly to include: unintelligible reporter’s notes, the failure to record portions of a
trial, and destruction of un-transcribed reporter’s notes.”). In addition, Defendants do not assert
that they were denied an opportunity to return to the courtroom and have a record made or to
request that the court reporter come to chambers to record any conference. Moreover, the
Government states that it does not recall that anyone asked the court to place anything discussed
in the conference on the record.2 See Cox v. Gen. Elec. Co., 302 F.2d 389, 390 (6th Cir. 1962)
(“It is clear that it was the responsibility of appellant’s counsel to have a record made of any
off-the-record colloquies with the court that he wished to preserve.”); Cox v. United States, 284
F.2d 704, 710-711 (8th Cir. 1960) (“Of course, it was counsel’s responsibility to see that a record
was made at the time if he was then interested in preserving his objection. Counsel cannot
preserve an objection by colloquy off the record which he does not dignify by seeing that it is
stenographically recorded. There is no claim that counsel was not given the opportunity to have
such a record made here” (quoting Camps v. N.Y. City Transit Auth., 261 F.2d 320, 323 (2d Cir.
1958))), cert. denied, 365 U.S. 863 (1961). In fact, the official transcript from May 7, 2018,

2

The Government’s response was signed by Joseph Batte, one of the Assistant United States
Attorneys who prosecuted the case at trial.

3

37a

Case 1:16-cr-00026-MAC-ZJH Document 749 Filed 01/30/20 Page 4 of 8 PageID #: 20563

includes discussion of Elizabeth Rose—the subject of Defendants’ proposed statement—outside the
presence of the jury, during which trial counsel for Defendants put forth their objections, the
Government had a chance to respond, and the court made its rulings. (#595, 1270:13-1277:19).
In any event, nearly nineteen months elapsed from the date of the in-chambers conference
and Defendants’ Motion for Statement. At this late date, aside from recalling generally that
Elizabeth Rose was permitted to testify at trial, the court is unable to remember the specifics of
the conference with sufficient clarity to settle and approve Defendants’ proposed statement. See
Gen. Elec. Co., 302 F.2d at 390 (holding trial judge did not err in denying appellant’s motion to
amend the record to include certain alleged unrecorded, off-the-record conferences, where counsel
had the opportunity, but did not attempt to have the conferences stenographically recorded, and
the trial court had no recollection of the events); Cox, 284 F.2d at 711 (refusing to overturn the
trial court’s denial to amend the record to include a certain alleged sidebar request made during
trial when the appellant failed to claim that he was not given the opportunity to have the exchange
stenographically recorded and the trial judge had “no recollection of the language used in making
the request, nor that used by him in response thereto, and that he had no recollection of making
or indicating any ruling in respect of the alleged request made by appellant’s counsel, as set forth
in his affidavit in support of motion.”). Furthermore, the Government has indicated that it is not
in a position to serve objections or proposed amendments to Defendants’ proposed statements,
because it, too, does not recall the specifics of the conference. In its response to Defendants’
Motion for Statement, the Government states in part: “The undersigned was present during the
meeting, but cannot verify the accuracy of Cramer and Fackrell’s proposed statement.”
For the foregoing reasons, the court denies Defendants’ Motion for Statement.

4

38a

Case 1:16-cr-00026-MAC-ZJH Document 749 Filed 01/30/20 Page 5 of 8 PageID #: 20564

B.

Motion to Complete

On January 24, 2020, Defendants filed their Motion to Complete, making four requests:
(1) that the court grant their Motion for Statement, (2) that the court provide appellate counsel with
any notes that it may have from unrecorded proceedings and conferences, (3) that the court
provide appellate counsel with any undocketed written communications that the court sent to trial
counsel, and (4) that the court provide appellate counsel with any jury lists it may have.
1.

Second Motion for Statement

For the reasons stated above, Defendants’ repeated request that the court settle and approve
its proposed statement of the off-record, in-chambers conference held on May 7, 2018, is denied.
2.

Request for the Court’s Notes

Defendants request that the court share with them any notes or other records
memorializing, summarizing, or otherwise documenting sidebars, conferences, and other such
unrecorded proceedings in this case. The court does not regularly take such notes or keep such
records. Nor do Defendants cite any authority for requesting the same. In any event, the court
has no notes or other records documenting such events. This request is denied.
3.

Written Communication from the Court

Defendants state “it appears that there were email communications with trial counsel, the
government, United States Marshals, and Bureau of Prisons officials noted on [Electronic Case
File (“ECF”)], but which were not part of the record provided to the Fifth Circuit.” Defendants
include a list of docket entries that are designated with a “cc” notation, and request the court to
share with them copies of those emails as well as any others the court may have exchanged with
the parties about the case.

5

39a

Case 1:16-cr-00026-MAC-ZJH Document 749 Filed 01/30/20 Page 6 of 8 PageID #: 20565

With one exception—an order denying Cramer’s pro se request to terminate his trial
attorney—the items Defendants identify are sealed orders, sealed summonses, sealed writs of
habeas corpus, or sealed Statement of Reasons, filed by the court in this case. When a sealed
order is issued by the court, the Case Management/Electronic Case Files (“CM/ECF”) system will
not send the parties notice that such order has been entered. In order to facilitate the appropriate
parties’ access to a sealed entry by the court, the District Court Clerk’s Office sends a copy of the
sealed order to the lead attorney for each party who is responsible for distributing the order to all
other counsel of record for that party. See Local Rule CV-5(a)7(D); CR-49. Similarly, with
respect to Cramer’s pro se request, when a motion is filed pro se by a litigant who does not have
access to email, as in the case of a defendant in custody, the District Court Clerk’s Office mails
a courtesy copy of the relevant order to the individual. The “cc” notations on the docket sheet
reflect this procedure and indicate that the District Court Clerk’s Office sent a copy of a sealed
entry, without any additional substantive information, to the individuals specified. The “cc”
notations do not represent undocketed email communications from the court to trial counsel, the
Government, the United States Marshals Service, or the Bureau of Prisons. Thus, Defendants’
request for the same is denied.
The Office of the Clerk of the Fifth Circuit advised that the appellate court had granted
Defendants’ request for all sealed materials as to that specific Defendant (#730), and the District
Court Clerk’s Office has sent each Defendant’s counsel the same (#732). The Fifth Circuit also
granted Defendants permission to inspect and copy the nonpublic dockets (#735), and the District
Court Clerk’s Office provided a copy of the nonpublic docket sheet to Defendants’ counsel. If

6

40a

Case 1:16-cr-00026-MAC-ZJH Document 749 Filed 01/30/20 Page 7 of 8 PageID #: 20566

Defendants believe they are entitled to certain sealed entries by the court that they have not
previously received, the court directs Defendants to request such items with specificity.
4.

Jury Lists

Finally, Defendants request that the court provide them with any lists (including lists
reflecting race and gender) in its possession of (a) the seated jurors, (b) the panelists who were
peremptorily struck by each side, (c) the panelists who appeared for voir dire, and (d) the panelists
who were summoned. The court grants this request in part and will provide Defendants’ appellate
counsel with copies of: (i) a list of the seated jurors; (ii) a list of the panelists who appeared for
voir dire, which also reflects peremptory strikes made by the Government and Defendants; (iii)
a list of the panelists who were summoned to appear on April 2, 2018; and (iv) a list of the
panelists who were summoned to appear on April 3, 2018. These lists do not reflect the race or
gender or the panelists/jurors, but that information can be gleaned from the juror questionnaires,
which were provided by mail, under seal, to Defendants’ appellate counsel on July 2, 2019.
Defendants’ appellate counsel shall maintain juror anonymity and shall not distribute this
information to anyone who is not a member of the appellate team without further order of this
court. Defendants’ appellate counsel are ordered to destroy or return all copies of the jury lists
and juror questionnaires to this court at the conclusion of the pending appeal.
III.

Conclusion
Consistent with the forgoing, Defendants’ Motion for Statement (#743) is denied, and

Defendants’ Motion to Complete (#747) is granted in part and denied in part.

7

41a

Case 1:16-cr-00026-MAC-ZJH Document 749 Filed 01/30/20 Page 8 of 8 PageID #: 20567

SIGNED at Beaumont, Texas, this 30th day of January, 2020.

________________________________________
MARCIA A. CRONE
UNITED STATES DISTRICT JUDGE

8

42a

Case 1:16-cr-00026-MAC-ZJH Document 561 Filed 05/08/18 Page 1 of 7 PageID #: 4823

UNITED STATES DISTRICT COURT
UNITED STATES OF AMERICA
versus
CHRISTOPHER EMORY CRAMER (1)
RICKY ALLEN FACKRELL (2)

EASTERN DISTRICT OF TEXAS
§
§
§
§
§
§

CASE NO. 1:16-CR-26

MEMORANDUM AND ORDER
Pending before the court is Defendants Christopher Emory Cramer (“Cramer”) and Ricky
Allen Fackrell’s (“Fackrell”) (collectively, “Defendants”) Joint Defense Motion to Preclude
Improper Cross-Examination of Defense Experts and Rebuttal Testimony from Government
Witnesses on Future Dangerousness Non-Statutory Aggravator, or, in the Alternative, for
Discovery (#521). Defendants’ motion requests that the court prohibit the Government from
cross-examining their expert witnesses on “anecdotal” instances of violence allegedly committed
in the Bureau of Prisons (“BOP”) by persons other than Defendants. The Government filed a
Response (#541) arguing that Defendants’ motion attempts to restrict the Government’s ability to
effectively cross-examine the defense’s expert witnesses and from calling its own rebuttal expert
to testify. After reviewing the motion, the Government’s response, the submissions of the parties,
and the applicable law, the court is of the opinion that Defendants’ motion should be denied.
I.

Background
On June 2, 2016, a grand jury returned a two-count superseding indictment charging

Defendants, inmates of the United States Penitentiary in Beaumont, Texas, with: (1) the unlawful
killing of a fellow inmate, Leo Johns (“Johns”), with premeditation and malice aforethought, in
violation of 18 U.S.C. §§ 1111 and 2, and (2) conspiracy to kill Johns with premeditation and

43a

18-40598.3465

Case 1:16-cr-00026-MAC-ZJH Document 561 Filed 05/08/18 Page 2 of 7 PageID #: 4824

malice aforethought, in violation of 18 U.S.C. § 1117. See Doc. No. 47. The maximum penalty
if convicted of Count One is death. On April 30, 2018, the Government filed a Motion to Dismiss
Count Two of the Superseding Indictment (#523), which the court granted, leaving Count One as
the only remaining count. See Doc. 527. The maximum penalty if convicted of Count One is
death. Trial in this case began on April 30, 2018.
Defendants have given notice that their prison experts—Roy T. Gravette (“Gravette”) and
Mark Bezy (“Bezy”)—will give testimony “in support of a number of mitigating factors including
but not limited to the defendant’s appropriate prison adjustment at the ADX Supermax since their
transfer and the ability of the DOJ/BOP to adequately control the defendants should they receive
a sentence of life without the possibility of release.” The Government has named David Berkebile
(“Berkebile”) as a rebuttal expert witness and expects Berkebile, if called, to provide testimony
in response to that of Gravette and Bezy. Defendants allege that Bezy has testified on behalf of
other defendants in previous capital cases, and, “on numerous occasions,” the Government has
cross-examined Bezy about “specific acts of violence allegedly committed in BOP by persons who
are in no way connected to the individual defendant being sentenced” and that many of these
anecdotal events “occurred more than five years” ago—April 1, 2013. Moreover, Defendants
claim that “many of the characterizations of BOP violence used by [the Government] have been
inaccurate and misleading.” In view of these prior events, Defendants ask the court to preclude
the Government from engaging in improper anecdotal cross-examination of Defendants’ expert
witnesses and to restrict the Government’s expert witnesses from offering similar testimony. In
the alternative, Defendants ask that the court limit any anecdotal testimony to events that occurred

2

44a

18-40598.3466

Case 1:16-cr-00026-MAC-ZJH Document 561 Filed 05/08/18 Page 3 of 7 PageID #: 4825

within the past five years and to order the Government to disclose any alleged incidents and any
supporting documents at least three days prior to the witness’s testimony.
The Government responds that, during its case in chief, it will not introduce evidence of
instances of violence by inmates other than Cramer and Fackrell to affirmatively establish each
defendant’s future dangerousness. The Government argues, however, that cross-examination of
Gravette and Bezy is necessary and appropriate to test the scope of their knowledge and to
challenge the bases of their opinions that defendants can be safely housed and do not pose a future
danger in an institutional setting. The Government further maintains that evidence of violence at
BOP facilities is appropriate “to specifically rebut claims that, because of certain security measures
or because of statistical analyses relating to the conduct of other inmates, BOP can safely house
Cramer and Fackrell in the future.”
II.

Analysis
The admission or exclusion of expert witness testimony is a matter that is left to the

discretion of the district court. Kumho Tire Co. v. Carmichael, 526 U.S. 137, 152 (1999);
Hodges v. Mack Trucks, Inc., 474 F.3d 188, 194 (5th Cir. 2006); see Nano-Proprietary, Inc. v.
Cannon, Inc., 537 F.3d 394, 399 (5th Cir. 2008); Stolt Achievement, Ltd. v. Dredge B.E.
Lindholm, 447 F.3d 360, 366 (5th Cir. 2006); United States v. Hicks, 389 F.3d 514, 524 (5th Cir.
2004), cert. denied, 546 U.S. 1089 (2006). Likewise, the scope and extent of cross-examination
are within the sound discretion of the trial court. United States v. Ramirez, 622 F.2d 898, 899
(5th Cir. 1980); see United States v. De Los Santos-Martinez, 55 F. App’x 716, 2002 WL
31933182, *1 (5th Cir. Dec. 20, 2002). “[T]he trial court’s role as a gatekeeper is not intended
to serve as a replacement for the adversary system: Vigorous cross-examination, presentation of

3

45a

18-40598.3467

Case 1:16-cr-00026-MAC-ZJH Document 561 Filed 05/08/18 Page 4 of 7 PageID #: 4826

contrary evidence, and careful instruction on the burden of proof are the traditional and
appropriate means of attacking shaky but admissible evidence.” Primrose Operating Co. v. Nat’l
Am. Ins. Co., 382 F.3d 546, 562 (5th Cir. 2004) (quoting United States v. 14.38 Acres of Land,
80 F.3d 1074, 1078 (5th Cir. 1996)); accord United States v. Seale, 600 F.3d 473, 491 (5th Cir.),
cert. denied, 562 U.S. 868 (2010).
The Federal Death Penalty Act (“FDPA”) provides:
The government may present any information relevant to an aggravating factor for
which notice has been provided under subsection (a). Information is admissible
regardless of its admissibility under the rules governing admission of evidence at
criminal trials except that information may be excluded if its probative value is
outweighed by the danger of creating unfair prejudice, confusing the issues, or
misleading the jury. The government and the defendant shall be permitted to rebut
any information received at the hearing, and shall be given fair opportunity to
present argument as to the adequacy of the information to establish the existence
of any aggravating or mitigating factor, and as to the appropriateness in the case
of imposing a sentence of death.
United States v. Jones, 132 F.3d 232, 241 (5th Cir. 1998) (quoting 18 U.S.C. § 3593(c)), aff’d
sub nom. Jones v. United States, 527 U.S. 373 (1999). Accordingly, “the defendant and
government may introduce any relevant information during the sentencing hearing limited by the
caveat that such information be relevant, reliable, and its probative value must outweigh the danger
of unfair prejudice.” Id. Although the punishment phase is not governed by the Federal Rules
of Evidence, the district court will prevent an “evidentiary free-for-all” by excluding unfairly
prejudicial information under the standard enunciated in § 3593(c). Id. at 242; accord United
States v. Fields, 483 F.3d 313, 338 (5th Cir. 2007), cert. denied, 128 S. Ct. 1065 (2008); United
States v. Smith, 630 F. Supp. 2d 713, 716 (E.D. La. 2007).

4

46a

18-40598.3468

Case 1:16-cr-00026-MAC-ZJH Document 561 Filed 05/08/18 Page 5 of 7 PageID #: 4827

“[T]he admission of more rather than less evidence during the penalty phase increases
reliability.” United States v. Lee, 374 F.3d 637, 648 (8th Cir. 2004), cert. denied, 545 U.S. 1141
(2005). Furthermore, “[c]ross-examination is the principal means by which the believability of
a witness and the truth of his testimony are tested.” Davis v. Alaska, 415 U.S. 308, 315 (1974);
see Alford v. United States, 282 U.S. 687, 692 (1931) (“It is the essence of a fair trial that
reasonable latitude be given the crossexaminer.”); Albarran v. State, 96 So.3d 131, 173 (Ala.
2011) (holding in a capital case that “[w]ide latitude is permitted in cross-examination to show bias
or motive and the effect on a witness’s credibility”). Therefore, the court will allow the
Government to cross-examine the defense’s experts concerning the ability of the BOP to safely
house violent inmates, including Cramer and Fackrell, with specific instances of violence in BOP
institutions.
Defendants rely heavily on United States v. Sampson, 335 F. Supp. 2d 166 (D. Mass.
2004), to support their argument that specific actions by other inmates should not be admitted,
arguing “if the [G]overnment is allowed to present evidence regarding BOP experience with other
inmates,” then “[t]he jury might be misled into believing that BOP might have a similar experience
with these defendants.” Their reliance is misplaced. In Sampson, the evidence at issue was
testimony from a defense expert. Id. at 226-27. The court allowed the defense expert to testify
as to the general success that BOP had experienced in controlling violent and dangerous inmates,
but excluded testimony regarding BOP’s successful control of specific inmates. Id. Here, the
Government avers that it will not introduce evidence of violent incidents by inmates other than
Cramer and Fackrell in its case-in-chief. As the Government observes, this evidence “will be
brought out only on cross-examination of (or rebuttal to) the defense experts who testify that

5

47a

18-40598.3469

Case 1:16-cr-00026-MAC-ZJH Document 561 Filed 05/08/18 Page 6 of 7 PageID #: 4828

Cramer and/or Fackrell are not a future danger because of BOP’s conditions of confinement.”
In essence, Defendants wish to proffer evidence from their experts about BOP security measures
that have been successfully used with other violent inmates, but want to preclude the Government
from challenging such testimony by inquiring about the BOP’s experiences with similar inmates
or presenting evidence regarding situations in which the security measures have not proven so
successful. In United States v. Lujan, the district court denied a defendant’s requests to exclude
such evidence, stating:
Defendant desires to use the presentation of evidence as a single-edged sword; that
is . . . to have his expert testify about his experience in the BOP prisons in which
various security measures have been successfully used with other inmates [without
allowing the Government to] challenge the experts’ experiences with other similar
situations in which the security measures have not been so successful.
Order at 4, United States v. Lujan, No. CR 05-0924, (D.N.M. Sept. 9, 2011) (No. 1316)
Order at 12-13.

This reasoning was adopted by another district judge in United States v.

McCluskey, No. CR 10-2734 (D.N.M. Apr. 1, 2013) (No. 1017) (denying the defendant’s
motion to prohibit cross-examination and rebuttal evidence showing specific acts of violence
or escape by other prisoners and denying the motion requesting that such evidence be limited
to the preceding five years).

The court rejects such restrictions on the Government’s

presentation of its case.
The court is also unpersuaded by Defendants’ plea that specific incident evidence should
be temporally limited. Rather than imposing an arbitrary time limit on such evidence, the court
will follow the FDPA and weigh the probative value of prior incidents against the danger of
creating unfair prejudice, confusing the issues, and misleading the jury. 18 U.S.C. § 3593(c).
The court notes, however, that, as they become increasingly remote in time, the probative value
of such events will decrease in light of the evolving standards and practices of correctional

6
48a

18-40598.3470

Case 1:16-cr-00026-MAC-ZJH Document 561 Filed 05/08/18 Page 7 of 7 PageID #: 4829

facilities over the years. Finally, the Government need not disclose such specific instances of
violence or supporting documentation to Defendants in advance of cross-examination or rebuttal
testimony. Defendants cite no authority for their position, nor have they shown that the requested
information would be favorable to their case, and the court declines to require the Government to
preview its cross-examination and rebuttal testimony prior to trial.1 Moreover, as the Government
points out, the defense appears to be well aware of many of the specific isntances of BOP violence
the Government may use in cross-examination, as evidenced by this and prior motions. The court
cautions, however, the Government must ensure that it presents only accurate accounts and
testimony concerning previous events.
III.

Conclusion
Defendants’ Joint Defense Motion to Preclude Improper Cross-Examination of Defense

Experts and Rebuttal Testimony from Government Witnesses on Future Dangerousness
Non-Statutory
Aggravator, or, in the Alternative, for Discovery (#521) is DENIED.
.
SIGNED at Beaumont, Texas, this 7th day of September, 2004.
SIGNED at Beaumont, Texas, this 8th day of May, 2018.

________________________________________
MARCIA A. CRONE
UNITED STATES DISTRICT JUDGE

1

See United States v. Caro, 597 F.3d 608, 619 (4th Cir. 2010) (holding that the defendant was not
entitled to discovery of BOP records because the defense could “only speculate as to what the requested
information might reveal, [and could not] satisfy Brady’s requirement of showing that the requested
evidence would be “favorable to [the] accused”) (quoting Brady v. Maryland, 373 U.S. 83, 87 (1963))),
cert. denied, 565 U.S. 1110 (2012).

7

49a

18-40598.3471

Case 1:16-cr-00026-MAC-ZJH Document 647 Filed 06/12/18 Page 233 of 314 PageID #:
Selection
Phase, Volume 5
8329
1300
1 A.

Yes.

2 Q.

And, so, we've been able to stop all the violent

3 incidents that have occurred at the BOP, correct?
4 A.

No.

5 Q.

But in this instance they've been able to stop --

6 what happened with Ishmael Petty will never happen again,
7 correct?
8 A.

Yes.

9 Q.

But other things that BOP has done to change

10 policies to try and prevent violence from happening,
11 those haven't necessarily worked; but these changes are
12 going to work.

That's your testimony.

13 A.

Yes.

14 Q.

I thought you said on direct examination that in

15 24 years you didn't think anybody had gotten out of their
16 cell at ADX.
17 A.

I'm not aware of anyone.

18 Q.

Okay.

Well, let me play a video for you and see

19 if that changes your mind.
20

MS. JIMENEZ:

21 identification as 66A.

We've marked that as -- for
This is a video from ADX from

22 2013 involving Ishmael Petty that we heard testimony
23 about.
24

If you would go ahead and play that,

25 Ms. Adams.
Christina L. Bickham, RMR-CRR

Tonya B. Jackson, RPR-CRR
50a 409/654-7000
18-40598.10233

Case 1:16-cr-00026-MAC-ZJH Document 647 Filed 06/12/18 Page 234 of 314 PageID #:
Selection
Phase, Volume 5
8330
1301
1

(Video presentation to the jury.)

2

MR. MORROW:

3

Judge, I'm confused.

Ms. Jimenez, may I stop you?
I may have missed it.

4 But now we're going to offer somebody else's extraneous
5 offense video?

I can't imagine how that would be more

6 prejudicial than it is probative, and we would object to
7 it.
8

MS. JIMENEZ:

Well, the witness testified that

9 nobody has been able to get out of their cell at ADX.
10 He's also testified that this type of incident won't
11 happen again.

I think I'm entitled to show him the

12 video, ask him if that changes his opinion.
13

MR. MORROW:

If she wants to ask him about a

14 specific instance, I understand that, judge; but this is
15 just an excuse on their part to try to show somebody
16 else's conduct that has nothing to do with our case.
17

THE COURT:

Overruled.

I think under the

18 circumstances, with him saying that it's never happened,
19 this would be a fair -20

MR. MORROW:

21 judge.

That's all.

He said he wasn't aware of it,

Now she's pointed it out, and now

22 he's aware.
23

THE COURT:

Okay, Mr. Morrow.

24

MR. MORROW:

25

MS. JIMENEZ:

Thank you, judge.
Why don't we back it up a little

Christina L. Bickham, RMR-CRR

Tonya B. Jackson, RPR-CRR
51a 409/654-7000
18-40598.10234

Case 1:16-cr-00026-MAC-ZJH Document 680 Filed 06/14/18 Page 4 of 6 PageID #: 9959
6-12-2018, Selection Phase Volume 12

2741
1

(Open court, defendants present, jury not

2 present.)
3

THE COURT:

This is a note from the jury that

4 asks, "What is the process if we are not unanimous with
5 our verdict?"
6

And I plan to say, "Please continue your

7 deliberations."
8

MR. BARLOW:

Your Honor, in keeping with the

9 motion that we filed requesting that the jury be informed
10 as to the effect of failure to reach a verdict in the
11 case, we would renew that request that the -12

THE COURT:

That's denied.

There is an order

13 that I've already prepared that said it is not required
14 to do that.

It is not an Eighth Amendment problem.

15 not going to do that.

I'm

I want them to continue their

16 deliberations in hopes of reaching a unanimous verdict.
17 I mean, at some point, of course, if they are -- they are
18 not saying they are hopelessly deadlocked.

They are not

19 saying anything like that.
20

MR. BARLOW:

I'd like to finish what I was

21 putting on the record.
22

THE COURT:

Okay.

23

MR. BARLOW:

That we renew our request that

24 the court inform the jury of what the law is regarding
25 the effect of the failure to reach a verdict in the case.
Christina L. Bickham, RMR-CRR

Tonya B. Jackson, RPR-CRR
52a 409/654-7000
18-40598.11674

Case 1:16-cr-00026-MAC-ZJH Document 680 Filed 06/14/18 Page 5 of 6 PageID #: 9960
6-12-2018, Selection Phase Volume 12

2742
1

MR. MORROW:

And Mr. Fackrell would join in

2 that request, your Honor.
3

THE COURT:

Request is denied for the reasons

4 I've already set forth in the previous order that I've
5 written on this subject.
6

I don't have a docket number on it.

It's -- I

7 guess we don't have a docket number, but it has to do
8 with -- the motion was Motion for Allowance to Discuss
9 the Effect of the Failure to Reach a Unanimous Verdict.
10 It was Motion 480.
11

So, this is the response to that.

And the Supreme Court says that the Eighth

12 Amendment does not require that jurors be instructed of
13 the consequences, and the court does not intend to do
14 that.

So, that is --

15

MR. BARLOW:

And, your Honor, we would point

16 out for the -17

THE COURT:

So, I direct you to the complete

18 opinion.
19

MR. BARLOW:

-- point out that the only

20 distinction now in relation to the court's earlier ruling
21 is that now the jurors have specifically asked to know
22 the answer to that question.
23

THE COURT:

24 this point.

Well, they are not going to at

They are going to try to continue their

25 deliberations in hopes of reaching a unanimous verdict.
Christina L. Bickham, RMR-CRR

Tonya B. Jackson, RPR-CRR
53a 409/654-7000
18-40598.11675

Case 1:16-cr-00026-MAC-ZJH Document 680 Filed 06/14/18 Page 6 of 6 PageID #: 9961
6-12-2018, Selection Phase Volume 12

2743
1 At some point if they say they are hopelessly deadlocked,
2 of course we will deal with that when that approaches,
3 when that comes about.
4

Okay.

5

(Proceedings adjourned, 4:13 p.m.)

6
7
8

CERTIFICATION
I HEREBY CERTIFY THAT ON THIS DATE, JUNE 12,

9 2015, THE FOREGOING IS A CORRECT TRANSCRIPT FROM THE
10 RECORD OF PROCEEDINGS IN THE ABOVE-ENTITLED MATTER.
11
12
13
14

/s/
TONYA B. JACKSON, RPR-CRR
/s/
CHRISTINA L. BICKHAM, RMR-CRR

15
16
17
18
19
20
21
22
23
24
25
Christina L. Bickham, RMR-CRR

Tonya B. Jackson, RPR-CRR
54a 409/654-7000
18-40598.11676

Case: 18-40598

Document: 00515863945

55a

Page: 1

Date Filed: 05/17/2021

Case: 18-40598

Document: 00515863945

56a

Page: 2

Date Filed: 05/17/2021

Federal Death Penalty Act of 1994
§ 3591. Sentence of death
(a) A defendant who has been found guilty of-(1) an offense described in section 794 or section 2381; or
(2) any other offense for which a sentence of death is provided,
if the defendant, as determined beyond a reasonable doubt
at the hearing under section 3593-(A) intentionally killed the victim;
(B) intentionally inflicted serious bodily injury that resulted in the death of the victim;
(C) intentionally participated in an act, contemplating that
the life of a person would be taken or intending that lethal force would be used in connection with a person,
other than one of the participants in the offense, and
the victim died as a direct result of the act; or
(D) intentionally and specifically engaged in an act of violence, knowing that the act created a grave risk of death
to a person, other than one of the participants in the
offense, such that participation in the act constituted a
reckless disregard for human life and the victim died as
a direct result of the act,
shall be sentenced to death if, after consideration of the factors set
forth in section 3592 in the course of a hearing held pursuant
to section 3593, it is determined that imposition of a sentence of
death is justified, except that no person may be sentenced to death
who was less than 18 years of age at the time of the offense.
(b) A defendant who has been found guilty of-(1) an offense referred to in section 408(c)(1) of the Controlled
Substances Act (21 U.S.C. 848(c)(1)), committed as part of
a continuing criminal enterprise offense under the condi-

57a

tions described in subsection (b) of that section which involved not less than twice the quantity of controlled substance described in subsection (b)(2)(A) or twice the gross
receipts described in subsection (b)(2)(B); or
(2) an offense referred to in section 408(c)(1) of the Controlled
Substances Act (21 U.S.C. 848(c)(1)), committed as part of
a continuing criminal enterprise offense under that section,
where the defendant is a principal administrator, organizer, or leader of such an enterprise, and the defendant, in
order to obstruct the investigation or prosecution of the enterprise or an offense involved in the enterprise, attempts
to kill or knowingly directs, advises, authorizes, or assists
another to attempt to kill any public officer, juror, witness,
or members of the family or household of such a person,
shall be sentenced to death if, after consideration of the factors set
forth in section 3592 in the course of a hearing held pursuant
to section 3593, it is determined that imposition of a sentence of
death is justified, except that no person may be sentenced to death
who was less than 18 years of age at the time of the offense.
§ 3592. Mitigating and aggravating factors to be considered
in determining whether a sentence of death is justified
(a) Mitigating factors.--In determining whether a sentence of
death is to be imposed on a defendant, the finder of fact shall consider any mitigating factor, including the following:
(1) Impaired capacity.--The defendant’s capacity to appreciate the wrongfulness of the defendant’s conduct or to conform conduct to the requirements of law was significantly
impaired, regardless of whether the capacity was so impaired as to constitute a defense to the charge.
(2) Duress.--The defendant was under unusual and substantial duress, regardless of whether the duress was of such a
degree as to constitute a defense to the charge.
(3) Minor participation.--The defendant is punishable as a
principal in the offense, which was committed by another,

58a

but the defendant’s participation was relatively minor, regardless of whether the participation was so minor as to
constitute a defense to the charge.
(4) Equally culpable defendants.--Another defendant or defendants, equally culpable in the crime, will not be punished by death.
(5) No prior criminal record.--The defendant did not have a
significant prior history of other criminal conduct.
(6) Disturbance.--The defendant committed the offense under severe mental or emotional disturbance.
(7) Victim’s consent.--The victim consented to the criminal
conduct that resulted in the victim’s death.
(8) Other factors.--Other factors in the defendant’s background, record, or character or any other circumstance of
the offense that mitigate against imposition of the death
sentence.
(b) Aggravating factors for espionage and treason.--In determining whether a sentence of death is justified for an offense described in section 3591(a)(1), the jury, or if there is no jury, the
court, shall consider each of the following aggravating factors for
which notice has been given and determine which, if any, exist:
(1) Prior espionage or treason offense.--The defendant has
previously been convicted of another offense involving espionage or treason for which a sentence of either life imprisonment or death was authorized by law.
(2) Grave risk to national security.--In the commission of
the offense the defendant knowingly created a grave risk of
substantial danger to the national security.
(3) Grave risk of death.--In the commission of the offense the
defendant knowingly created a grave risk of death to another person.

59a

The jury, or if there is no jury, the court, may consider whether
any other aggravating factor for which notice has been given exists.
(c) Aggravating factors for homicide.--In determining
whether a sentence of death is justified for an offense described
in section 3591(a)(2), the jury, or if there is no jury, the court, shall
consider each of the following aggravating factors for which notice
has been given and determine which, if any, exist:
(1) Death during commission of another crime.--The
death, or injury resulting in death, occurred during the
commission or attempted commission of, or during the immediate flight from the commission of, an offense under section 32 (destruction of aircraft or aircraft facilities), section 33 (destruction of motor vehicles or motor vehicle facilities), section 37 (violence at international airports), section 351 (violence against Members of Congress,
Cabinet officers, or Supreme Court Justices), an offense under section 751 (prisoners in custody of institution or officer), section 794 (gathering or delivering defense information to aid foreign government), section 844(d) (transportation of explosives in interstate commerce for certain
purposes), section 844(f) (destruction of Government property by explosives), section 1118 (prisoners serving life
term), section 1201 (kidnapping), section 844(i) (destruction of property affecting interstate commerce by explosives), section 1116 (killing or attempted killing of diplomats), section 1203 (hostage taking), section 1992 (wrecking trains), section 2245 (offenses resulting in death), section 2280 (maritime violence), section 2281 (maritime platform violence), section 2332 (terrorist acts abroad against
United States nationals), section 2332a (use of weapons of
mass destruction), or section 2381 (treason) of this title,
or section 46502 of title 49, United States Code (aircraft piracy).
(2) Previous conviction of violent felony involving firearm.--For any offense, other than an offense for which a
sentence of death is sought on the basis of section 924(c),
the defendant has previously been convicted of a Federal or

60a

State offense punishable by a term of imprisonment of more
than 1 year, involving the use or attempted or threatened
use of a firearm (as defined in section 921) against another
person.
(3) Previous conviction of offense for which a sentence
of death or life imprisonment was authorized.--The
defendant has previously been convicted of another Federal
or State offense resulting in the death of a person, for which
a sentence of life imprisonment or a sentence of death was
authorized by statute.
(4) Previous conviction of other serious offenses.--The
defendant has previously been convicted of 2 or more Federal or State offenses, punishable by a term of imprisonment of more than 1 year, committed on different occasions,
involving the infliction of, or attempted infliction of, serious
bodily injury or death upon another person.
(5) Grave risk of death to additional persons.--The defendant, in the commission of the offense, or in escaping
apprehension for the violation of the offense, knowingly created a grave risk of death to 1 or more persons in addition
to the victim of the offense.
(6) Heinous, cruel, or depraved manner of committing
offense.--The defendant committed the offense in an especially heinous, cruel, or depraved manner in that it involved
torture or serious physical abuse to the victim.
(7) Procurement of offense by payment.--The defendant
procured the commission of the offense by payment, or
promise of payment, of anything of pecuniary value.
(8) Pecuniary gain.--The defendant committed the offense as
consideration for the receipt, or in the expectation of the
receipt, of anything of pecuniary value.
(9) Substantial planning and premeditation.--The defendant committed the offense after substantial planning and
premeditation to cause the death of a person or commit an
act of terrorism.

61a

(10) Conviction for two felony drug offenses.--The defendant has previously been convicted of 2 or more State or Federal offenses punishable by a term of imprisonment of more
than one year, committed on different occasions, involving
the distribution of a controlled substance.
(11) Vulnerability of victim.--The victim was particularly
vulnerable due to old age, youth, or infirmity.
(12) Conviction for serious Federal drug offenses.--The
defendant had previously been convicted of violating title II
or III of the Comprehensive Drug Abuse Prevention and
Control Act of 1970 for which a sentence of 5 or more years
may be imposed or had previously been convicted of engaging in a continuing criminal enterprise.
(13) Continuing criminal enterprise involving drug
sales to minors.--The defendant committed the offense in
the course of engaging in a continuing criminal enterprise
in violation of section 408(c) of the Controlled Substances
Act (21 U.S.C. 848(c)), and that violation involved the distribution of drugs to persons under the age of 21 in violation
of section 418 of that Act (21 U.S.C. 859).
(14) High public officials.--The defendant committed the offense against-(A) the President of the United States, the President-elect,
the Vice President, the Vice President-elect, the Vice
President-designate, or, if there is no Vice President,
the officer next in order of succession to the office of the
President of the United States, or any person who is acting as President under the Constitution and laws of the
United States;
(B) a chief of state, head of government, or the political
equivalent, of a foreign nation;
(C) a foreign official listed in section 1116(b)(3)(A), if the
official is in the United States on official business; or

62a

(D) a Federal public servant who is a judge, a law enforcement officer, or an employee of a United States penal or
correctional institution-(i) while he or she is engaged in the performance of his
or her official duties;
(ii) because of the performance of his or her official duties; or
(iii) because of his or her status as a public servant.
For purposes of this subparagraph, a “law enforcement officer” is a public servant authorized by law
or by a Government agency or Congress to conduct
or engage in the prevention, investigation, or prosecution or adjudication of an offense, and includes
those engaged in corrections, parole, or probation
functions.
(15) Prior conviction of sexual assault or child molestation.--In the case of an offense under chapter 109A (sexual
abuse) or chapter 110 (sexual abuse of children), the defendant has previously been convicted of a crime of sexual
assault or crime of child molestation.
(16) Multiple killings or attempted killings.--The defendant intentionally killed or attempted to kill more than one
person in a single criminal episode.
The jury, or if there is no jury, the court, may consider whether
any other aggravating factor for which notice has been given exists.
(d) Aggravating factors for drug offense death penalty.--In
determining whether a sentence of death is justified for an offense
described in section 3591(b), the jury, or if there is no jury, the
court, shall consider each of the following aggravating factors for
which notice has been given and determine which, if any, exist:
(1) Previous conviction of offense for which a sentence
of death or life imprisonment was authorized.--The
defendant has previously been convicted of another Federal

63a

or State offense resulting in the death of a person, for which
a sentence of life imprisonment or death was authorized by
statute.
(2) Previous conviction of other serious offenses.--The
defendant has previously been convicted of two or more
Federal or State offenses, each punishable by a term of imprisonment of more than one year, committed on different
occasions, involving the importation, manufacture, or distribution of a controlled substance (as defined in section
102 of the Controlled Substances Act (21 U.S.C. 802)) or the
infliction of, or attempted infliction of, serious bodily injury
or death upon another person.
(3) Previous serious drug felony conviction.--The defendant has previously been convicted of another Federal or
State offense involving the manufacture, distribution, importation, or possession of a controlled substance (as defined in section 102 of the Controlled Substances Act (21
U.S.C. 802)) for which a sentence of five or more years of
imprisonment was authorized by statute.
(4) Use of firearm.--In committing the offense, or in furtherance of a continuing criminal enterprise of which the offense was a part, the defendant used a firearm or knowingly directed, advised, authorized, or assisted another to
use a firearm to threaten, intimidate, assault, or injure a
person.
(5) Distribution to persons under 21.--The offense, or a continuing criminal enterprise of which the offense was a part,
involved conduct proscribed by section 418 of the Controlled
Substances Act (21 U.S.C. 859) which was committed directly by the defendant.
(6) Distribution near schools.--The offense, or a continuing
criminal enterprise of which the offense was a part, involved conduct proscribed by section 419 of the Controlled
Substances Act (21 U.S.C. 860) which was committed directly by the defendant.

64a

(7) Using minors in trafficking.--The offense, or a continuing criminal enterprise of which the offense was a part, involved conduct proscribed by section 420 of the Controlled
Substances Act (21 U.S.C. 861) which was committed directly by the defendant.
(8) Lethal adulterant.--The offense involved the importation,
manufacture, or distribution of a controlled substance (as
defined in section 102 of the Controlled Substances Act (21
U.S.C. 802)), mixed with a potentially lethal adulterant,
and the defendant was aware of the presence of the adulterant.
The jury, or if there is no jury, the court, may consider whether
any other aggravating factor for which notice has been given exists.
§ 3593. Special hearing to determine whether a sentence of
death is justified
(a) Notice by the government.--If, in a case involving an offense
described in section 3591, the attorney for the government believes
that the circumstances of the offense are such that a sentence of
death is justified under this chapter, the attorney shall, a reasonable time before the trial or before acceptance by the court of a plea
of guilty, sign and file with the court, and serve on the defendant,
a notice-(1) stating that the government believes that the circumstances of the offense are such that, if the defendant is convicted, a sentence of death is justified under this chapter
and that the government will seek the sentence of death;
and
(2) setting forth the aggravating factor or factors that the government, if the defendant is convicted, proposes to prove as
justifying a sentence of death.
The factors for which notice is provided under this subsection may
include factors concerning the effect of the offense on the victim
and the victim’s family, and may include oral testimony, a victim

65a

impact statement that identifies the victim of the offense and the
extent and scope of the injury and loss suffered by the victim and
the victim’s family, and any other relevant information. The court
may permit the attorney for the government to amend the notice
upon a showing of good cause.
(b) Hearing before a court or jury.--If the attorney for the government has filed a notice as required under subsection (a) and the
defendant is found guilty of or pleads guilty to an offense described
in section 3591, the judge who presided at the trial or before whom
the guilty plea was entered, or another judge if that judge is unavailable, shall conduct a separate sentencing hearing to determine
the punishment to be imposed. The hearing shall be conducted-(1) before the jury that determined the defendant’s guilt;
(2) before a jury impaneled for the purpose of the hearing if-(A) the defendant was convicted upon a plea of guilty;
(B) the defendant was convicted after a trial before the
court sitting without a jury;
(C) the jury that determined the defendant’s guilt was discharged for good cause; or
(D) after initial imposition of a sentence under this section,
reconsideration of the sentence under this section is
necessary; or
(3) before the court alone, upon the motion of the defendant
and with the approval of the attorney for the government.
A jury impaneled pursuant to paragraph (2) shall consist of 12
members, unless, at any time before the conclusion of the hearing,
the parties stipulate, with the approval of the court, that it shall
consist of a lesser number.
(c) Proof of mitigating and aggravating factors.--Notwithstanding rule 32 of the Federal Rules of Criminal Procedure, when
a defendant is found guilty or pleads guilty to an offense under section 3591, no presentence report shall be prepared. At the sentencing hearing, information may be presented as to any matter rele-

66a

vant to the sentence, including any mitigating or aggravating factor permitted or required to be considered under section 3592. Information presented may include the trial transcript and exhibits
if the hearing is held before a jury or judge not present during the
trial, or at the trial judge’s discretion. The defendant may present
any information relevant to a mitigating factor. The government
may present any information relevant to an aggravating factor for
which notice has been provided under subsection (a). Information
is admissible regardless of its admissibility under the rules governing admission of evidence at criminal trials except that information may be excluded if its probative value is outweighed by the
danger of creating unfair prejudice, confusing the issues, or misleading the jury. For the purposes of the preceding sentence, the
fact that a victim, as defined in section 3510, attended or observed
the trial shall not be construed to pose a danger of creating unfair
prejudice, confusing the issues, or misleading the jury. The government and the defendant shall be permitted to rebut any information received at the hearing, and shall be given fair opportunity
to present argument as to the adequacy of the information to establish the existence of any aggravating or mitigating factor, and
as to the appropriateness in the case of imposing a sentence of
death. The government shall open the argument. The defendant
shall be permitted to reply. The government shall then be permitted to reply in rebuttal. The burden of establishing the existence
of any aggravating factor is on the government, and is not satisfied
unless the existence of such a factor is established beyond a reasonable doubt. The burden of establishing the existence of any mitigating factor is on the defendant, and is not satisfied unless the
existence of such a factor is established by a preponderance of the
information.
(d) Return of special findings.--The jury, or if there is no jury,
the court, shall consider all the information received during the
hearing. It shall return special findings identifying any aggravating factor or factors set forth in section 3592 found to exist and any
other aggravating factor for which notice has been provided under
subsection (a) found to exist. A finding with respect to a mitigating
factor may be made by 1 or more members of the jury, and any
member of the jury who finds the existence of a mitigating factor
may consider such factor established for purposes of this section

67a

regardless of the number of jurors who concur that the factor has
been established. A finding with respect to any aggravating factor
must be unanimous. If no aggravating factor set forth in section
3592 is found to exist, the court shall impose a sentence other than
death authorized by law.
(e) Return of a finding concerning a sentence of death.--If,
in the case of-(1) an offense described in section 3591(a)(1), an aggravating
factor required to be considered under section 3592(b) is
found to exist;
(2) an offense described in section 3591(a)(2), an aggravating
factor required to be considered under section 3592(c) is
found to exist; or
(3) an offense described in section 3591(b), an aggravating factor required to be considered under section 3592(d) is found
to exist,
the jury, or if there is no jury, the court, shall consider whether all
the aggravating factor or factors found to exist sufficiently outweigh all the mitigating factor or factors found to exist to justify a
sentence of death, or, in the absence of a mitigating factor, whether
the aggravating factor or factors alone are sufficient to justify a
sentence of death. Based upon this consideration, the jury by unanimous vote, or if there is no jury, the court, shall recommend
whether the defendant should be sentenced to death, to life imprisonment without possibility of release or some other lesser sentence.
(f) Special precaution to ensure against discrimination.--In
a hearing held before a jury, the court, prior to the return of a finding under subsection (e), shall instruct the jury that, in considering
whether a sentence of death is justified, it shall not consider the
race, color, religious beliefs, national origin, or sex of the defendant
or of any victim and that the jury is not to recommend a sentence
of death unless it has concluded that it would recommend a sentence of death for the crime in question no matter what the race,
color, religious beliefs, national origin, or sex of the defendant or of

68a

any victim may be. The jury, upon return of a finding under subsection (e), shall also return to the court a certificate, signed by
each juror, that consideration of the race, color, religious beliefs,
national origin, or sex of the defendant or any victim was not involved in reaching his or her individual decision and that the individual juror would have made the same recommendation regarding a sentence for the crime in question no matter what the race,
color, religious beliefs, national origin, or sex of the defendant or
any victim may be.
§ 3594. Imposition of a sentence of death
Upon a recommendation under section 3593(e) that the defendant
should be sentenced to death or life imprisonment without possibility of release, the court shall sentence the defendant accordingly. Otherwise, the court shall impose any lesser sentence that
is authorized by law. Notwithstanding any other law, if the maximum term of imprisonment for the offense is life imprisonment,
the court may impose a sentence of life imprisonment without possibility of release.
§ 3595. Review of a sentence of death
(a) Appeal.--In a case in which a sentence of death is imposed, the
sentence shall be subject to review by the court of appeals upon
appeal by the defendant. Notice of appeal must be filed within the
time specified for the filing of a notice of appeal. An appeal under
this section may be consolidated with an appeal of the judgment of
conviction and shall have priority over all other cases.
(b) Review.--The court of appeals shall review the entire record
in the case, including-(1) the evidence submitted during the trial;
(2) the information submitted during the sentencing hearing;
(3) the procedures employed in the sentencing hearing; and
(4) the special findings returned under section 3593(d).

69a

(c) Decision and disposition.-(1) The court of appeals shall address all substantive and procedural issues raised on the appeal of a sentence of death,
and shall consider whether the sentence of death was imposed under the influence of passion, prejudice, or any
other arbitrary factor and whether the evidence supports
the special finding of the existence of an aggravating factor
required to be considered under section 3592.
(2) Whenever the court of appeals finds that-(A) the sentence of death was imposed under the influence
of passion, prejudice, or any other arbitrary factor;
(B) the admissible evidence and information adduced does
not support the special finding of the existence of the
required aggravating factor; or
(C) the proceedings involved any other legal error requiring reversal of the sentence that was properly preserved
for appeal under the rules of criminal procedure,
the court shall remand the case for reconsideration under section
3593 or imposition of a sentence other than death. The court of appeals shall not reverse or vacate a sentence of death on account of
any error which can be harmless, including any erroneous special
finding of an aggravating factor, where the Government establishes beyond a reasonable doubt that the error was harmless.
(3) The court of appeals shall state in writing the reasons for
its disposition of an appeal of a sentence of death under this
section.

70a

Federal Rules of Appellate Procedure Rule 10
Rule 10. The Record on Appeal
(a) Composition of the Record on Appeal. The following items
constitute the record on appeal:
(1) the original papers and exhibits filed in the district court;
(2) the transcript of proceedings, if any; and
(3) a certified copy of the docket entries prepared by the district
clerk.
(b) The Transcript of Proceedings.
(1) Appellant’s Duty to Order. Within 14 days after filing
the notice of appeal or entry of an order disposing of the last
timely remaining motion of a type specified in Rule
4(a)(4)(A), whichever is later, the appellant must do either
of the following:
(A) order from the reporter a transcript of such parts of the
proceedings not already on file as the appellant considers necessary, subject to a local rule of the court of appeals and with the following qualifications:
(i) the order must be in writing;
(ii) if the cost of the transcript is to be paid by the
United States under the Criminal Justice Act, the
order must so state; and
(iii) the appellant must, within the same period, file a
copy of the order with the district clerk; or
(B) file a certificate stating that no transcript will be ordered.
(2) Unsupported Finding or Conclusion. If the appellant
intends to urge on appeal that a finding or conclusion is unsupported by the evidence or is contrary to the evidence,
the appellant must include in the record a transcript of all
evidence relevant to that finding or conclusion.

71a

(3) Partial Transcript. Unless the entire transcript is ordered:
(A) the appellant must--within the 14 days provided in
Rule 10(b)(1)--file a statement of the issues that the appellant intends to present on the appeal and must serve
on the appellee a copy of both the order or certificate
and the statement;
(B) if the appellee considers it necessary to have a transcript of other parts of the proceedings, the appellee
must, within 14 days after the service of the order or
certificate and the statement of the issues, file and
serve on the appellant a designation of additional parts
to be ordered; and
(C) unless within 14 days after service of that designation
the appellant has ordered all such parts, and has so notified the appellee, the appellee may within the following 14 days either order the parts or move in the district
court for an order requiring the appellant to do so.
(4) Payment. At the time of ordering, a party must make satisfactory arrangements with the reporter for paying the
cost of the transcript.
(c) Statement of the Evidence When the Proceedings Were
Not Recorded or When a Transcript Is Unavailable. If the
transcript of a hearing or trial is unavailable, the appellant may
prepare a statement of the evidence or proceedings from the best
available means, including the appellant’s recollection. The statement must be served on the appellee, who may serve objections or
proposed amendments within 14 days after being served. The
statement and any objections or proposed amendments must then
be submitted to the district court for settlement and approval. As
settled and approved, the statement must be included by the district clerk in the record on appeal.
(d) Agreed Statement as the Record on Appeal. In place of
the record on appeal as defined in Rule 10(a), the parties may prepare, sign, and submit to the district court a statement of the case
showing how the issues presented by the appeal arose and were

72a

decided in the district court. The statement must set forth only
those facts averred and proved or sought to be proved that are essential to the court’s resolution of the issues. If the statement is
truthful, it--together with any additions that the district court may
consider necessary to a full presentation of the issues on appeal-must be approved by the district court and must then be certified
to the court of appeals as the record on appeal. The district clerk
must then send it to the circuit clerk within the time provided by
Rule 11. A copy of the agreed statement may be filed in place of the
appendix required by Rule 30.
(e) Correction or Modification of the Record.
(1) If any difference arises about whether the record truly discloses what occurred in the district court, the difference
must be submitted to and settled by that court and the record conformed accordingly.
(2) If anything material to either party is omitted from or misstated in the record by error or accident, the omission or
misstatement may be corrected and a supplemental record
may be certified and forwarded:
(A) on stipulation of the parties;
(B) by the district court before or after the record has been
forwarded; or
(C) by the court of appeals.
(3) All other questions as to the form and content of the record
must be presented to the court of appeals.

73a

Federal Rules of Criminal Procedure 43
Rule 43. Defendant’s Presence
(a) When Required. Unless this rule, Rule 5, or Rule 10 provides
otherwise, the defendant must be present at:
(1) the initial appearance, the initial arraignment, and the
plea;
(2) every trial stage, including jury impanelment and the return of the verdict; and
(3) sentencing.
(b) When Not Required. A defendant need not be present under
any of the following circumstances:
(1) Organizational Defendant. The defendant is an organization represented by counsel who is present.
(2) Misdemeanor Offense. The offense is punishable by fine
or by imprisonment for not more than one year, or both, and
with the defendant’s written consent, the court permits arraignment, plea, trial, and sentencing to occur by video teleconferencing or in the defendant’s absence.
(3) Conference or Hearing on a Legal Question. The proceeding involves only a conference or hearing on a question
of law.
(4) Sentence Correction. The proceeding involves the correction or reduction of sentence under Rule 35 or 18 U.S.C.
§ 3582(c).
(c) Waiving Continued Presence.
(1) In General. A defendant who was initially present at trial,
or who had pleaded guilty or nolo contendere, waives the
right to be present under the following circumstances:
(A) when the defendant is voluntarily absent after the trial
has begun, regardless of whether the court informed the
defendant of an obligation to remain during trial;

74a

(B) in a noncapital case, when the defendant is voluntarily
absent during sentencing; or
(C) when the court warns the defendant that it will remove
the defendant from the courtroom for disruptive behavior, but the defendant persists in conduct that justifies
removal from the courtroom.
(2) Waiver’s Effect. If the defendant waives the right to be
present, the trial may proceed to completion, including the
verdict’s return and sentencing, during the defendant’s absence.

75a

State Procedural Rules Similar or Nearly Identical to
Federal Rule of Appellate Procedure 10(c)
Alaska R. App. P. 210(b)(8); Ala. R. App. P. 10(d); Ariz. R. Civ. App.
P. 11(d); Ariz. R. Crim. P. 31.8(e); Ark. R. App. P.-Civ. 6(c); Cal.
App. R. 8.137; Colo. R. App. P. 10; Del. Sup. Ct. R. 9(g); D.C. Ct.
App. R. 10(c); Fla. R. App. P. 9.200(b)(4); Haw. R. App. P. 10(c); Ill.
Sup. Ct. R. 323(c); Ind. R. App. P. 29; Iowa R. App. P. 6.806; Kan.
Sup. Ct. R. 3.04; Me. R. App. P. 5(d); Md. R. App. P. 8(c); Mich. Ct.
R. 7.210(B)(2); Minn. R. Civ. App. P. 110.03; Miss. R. App. P. 10(c);
Mont. R. App. P. 8(7); Nev. R. App. P. 9(d); N.J. Ct. R. 2:5-3(f); N.M.
R. App. P. 12-211(H); N.Y. C.P.L.R. 5525(d); N.D. R. App. P. 10(g);
Ohio R. App. P. 9(C); Okla. R. Crim. P. 2.2(C); Pa. R. App. P. 1923;
R.I. Sup. Ct. R. art. 1, R. 10(d); S.D. Codified Laws § 15-26A-54;
Tenn. R. App. P. 24(c); Utah R. App. P. 11(g); W. Va. R. Civ. P.
80(e); Wyo. R. App. P. 3.03.

76a

Case 1:16-cr-00026-MAC-ZJH Document 743 Filed 12/30/19 Page 1 of 6 PageID #: 20494

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TEXAS
BEAUMONT DIVISION
UNITED STATES OF AMERICA,
versus
CHRISTOPHER EMORY CRAMER (1)
and
RICKY ALLEN FACKRELL (2)

§
§
§
§
§
§
§
§
§

CRIMINAL ACTION NO.
1:16-CR-26
(Judge Marcia Crone)

CRAMER’S AND FACKRELL’S JOINT OPPOSED MOTION TO
SETTLE AND APPROVE THE STATEMENT OF THE PROCEEDING NOT
RECORDED AND ORDER IT INCLUDED IN THE APPELLATE RECORD
Defendants Christopher Emory Cramer and Ricky Allen Fackrell move the
Court, pursuant to Rule 10(c) of the Federal Rules of Appellate Procedure, for
settlement and approval of the attached statement of district court proceeding not
recorded, see Attachment 1, and for an order directing the district clerk to include the
statement in the record on appeal. Cramer and Fackrell also move for a hearing to
resolve any objections or contested changes to the statement.
A transcript of the chambers conference held on May 7, 2018, is unavailable
because the court reporter did not record this proceeding. Because the conference was
not recorded, appellate counsel have prepared a statement of the chambers
conference from the best available means. See Fed. R. App. P. 10(c). 1 The statement
1

Rule 10(c) provides that:
(c) Statement of the Evidence When the Proceedings Were Not
Recorded or When a Transcript Is Unavailable. If the transcript of a

77a

18-40598.23652

Case 1:16-cr-00026-MAC-ZJH Document 743 Filed 12/30/19 Page 2 of 6 PageID #: 20495

was prepared using notes and recollections from defense attorneys for Cramer and
Fackrell, who were present during the chambers conference on May 7, 2018. One of
those attorneys took extensive extemporaneous notes of the conference. Appellate
counsel consulted with trial attorneys for Cramer and Fackrell in preparing the
statement. This statement represents the substance of the conference.
Appellate counsel for Cramer and Fackrell served the statement of the May 7,
2018, unrecorded chambers conference on Government counsel on November 26,
2019. On December 2, 2019, Government counsel stated that they oppose any such
statements being included in the appellate record. See Attach. 2. Accordingly, the
statement of the May 7, 2018, chambers conference is submitted to this Court for
settlement and approval. See Fed. R. App. P. 10(c).
Cramer and Fackrell ask this Court to settle and approve the statement of the
unrecorded May 7, 2018, chambers conference. Cramer and Fackrell also request that
the district clerk be instructed to include the statement in the record on appeal so
that the Fifth Circuit Court of Appeals has a full, fair, and complete record to review.

hearing or trial is unavailable, the appellant may prepare a statement
of the evidence or proceedings from the best available means, including
the appellant’s recollection. The statement must be served on the
appellee, who may serve objections or proposed amendments within 14
days after being served. The statement and any objections or proposed
amendments must then be submitted to the district court for
settlement and approval. As settled and approved, the statement must
be included by the district clerk in the record on appeal.
FED. R. APP. P. 10(c).

78a

18-40598.23653

Case 1:16-cr-00026-MAC-ZJH Document 743 Filed 12/30/19 Page 3 of 6 PageID #: 20496

Appellate counsel advise the Court that counsel are attempting to prepare
statements for numerous other proceedings held during Cramer’s and Fackrell’s trial,
which were not recorded.
For these reasons, Cramer and Fackrell move the Court for settlement and
approval of the attached statement of the unrecorded May 7, 2018, chambers
conference, and for an order directing the district clerk to include it in the appellate
record. Cramer and Fackrell also move for a hearing to resolve any objections or
contested changes to the statement.

79a

18-40598.23654

Case 1:16-cr-00026-MAC-ZJH Document 743 Filed 12/30/19 Page 4 of 6 PageID #: 20497

Respectfully submitted,
/s/ DONNA F. COLTHARP
1 Camino Santa Maria
San Antonio, Texas 78228
210-436-3320
dcoltharp@stmarytx.edu
Texas Bar No. 24001909
MAUREEN SCOTT FRANCO
Federal Public Defender
JUDY FULMER MADEWELL
Deputy Federal Public Defender
Western District of Texas
727 East César E. Chávez Blvd., B–207
San Antonio, Texas 78206–1205
(210) 472-6700
(210) 472-4454 (Fax)
Judy_Madewell@fd.org
Texas Bar No. 00790727
NICOLE WIGNALL DEBORDE
Hochglaube & DeBorde, P.C.
3515 Fannin Street
Houston, Texas 77004
Phone: 713-526-6300
Fax: 713-808-9444
nicole@houstoncriminaldefense.com
Attorneys for Ricky Fackrell
/s/ Douglas M. Barlow
DOUGLAS MILTON BARLOW
Barlow Law Firm
485 Milam
Beaumont, Texas 77701
409-838-4259
409-832-5611 (fax)
barlowfedlaw@gmail.com
Texas Bar No. 01753700

80a

18-40598.23655

Case 1:16-cr-00026-MAC-ZJH Document 743 Filed 12/30/19 Page 5 of 6 PageID #: 20498

ANTHONY SEYMOUR HAUGHTON
Capital Resource Counsel Project
c/o Federal Public Defender
Southern District of Texas
440 Louisiana Street, Suite 1350
Houston, Texas 77002
832-287-9548
anthony_haughton@fd.org
Attorneys for Christopher Cramer

81a

18-40598.23656

Case 1:16-cr-00026-MAC-ZJH Document 743 Filed 12/30/19 Page 6 of 6 PageID #: 20499

CERTIFICATE OF CONFERENCE
I certify that I conferred with Assistant United States Attorney, Traci Lynne
Kenner, concerning this motion, and she stated that the United States is opposed to
it.
/s/ Donna F. Coltharp
Attorney for Ricky Fackrell

CERTIFICATE OF SERVICE
I certify that on December 30, 2019, I electronically filed this “Joint Opposed
Motion to Settle and Approve the Statement of the Proceeding Not Recorded and
Order It Included in the Appellate Record,” with the Clerk of Court using the CM/ECF
system, which will send electronic notification of such filing to: Joseph Robert Batte,
Jr., Assistant United States Attorney, via electronic mail.

/s/ Donna F. Coltharp
Attorney for Ricky Fackrell

82a

18-40598.23657

Case 1:16-cr-00026-MAC-ZJH Document 743-1 Filed 12/30/19 Page 1 of 3 PageID #:
20500
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TEXAS
BEAUMONT DIVISION
UNITED STATES OF AMERICA,
versus
CHRISTOPHER EMORY CRAMER (1)
and
RICKY ALLEN FACKRELL (2)

§
§
§
§
§
§
§
§
§

CRIMINAL ACTION NO.
1:16-CR-26
(Judge Marcia Crone)

STATEMENT OF DISTRICT COURT PROCEEDING NOT RECORDED
May 7, 2018 Chambers Conference with Judge Marcia Crone; John Craft,
Joseph Batte, and Sonia Jimenez appearing for the Government; Douglas
Barlow, Patrick Black, and John McElroy appearing for Cramer; Gerald
Bourque, Robert Morrow, Amy Martin, and Mark Donatelli appearing for
Fackrell; Reynaldo Morin appearing for Elizabeth Rose; and law clerks.
The conference begins with Assistant United States Attorney (AUSA) Batte
informing Judge Crone that Cramer’s defense team had filed a motion to exclude the
Government’s witness, Elizabeth Rose, or to withdraw as counsel from Cramer’s
case. 1 In response to the Judge’s question about when the motion was filed, the
Government says that it was just that morning.
AUSA Craft describes “the pizza lunch and statements that were made,” 2
referring to statements that Rose allegedly heard Cramer and Fackrell make while

1

The motion can be found at ECF No. 551.

Statements in this exchange, which are set off in quotation marks, are verbatim. Statements with
no quotation marks are not. All statements come from notes taken at the meeting.
2

83a

18-40598.23658

Case 1:16-cr-00026-MAC-ZJH Document 743-1 Filed 12/30/19 Page 2 of 3 PageID #:
20501
in a holding facility at the federal courthouse. AUSA Batte adds that the Government
learned about Rose’s claims on Wednesday (May 2, 2018).
(The Judge reads Craft’s memo and the defense’s motion.)
Batte says that Rose’s attorney, Morin, told him that Rose has an attorneyclient privilege that is causing the problem with her testifying. Batte says that the
Government does not know what statements would be privileged and that the defense
should be required to proffer the privileged information that Rose has and the
Government could use.
Batte describes Rose having entered a plea agreement and later having
withdrawn it. 3 Batte says that Morin told him that a misunderstanding was
discovered after the presentence investigation report was delivered. Rose was in court
last week to withdraw her guilty plea, and she was allowed to do so.
Cramer’s attorney, Patrick Black, the Federal Public Defender for the Eastern
District of Texas, informs the Judge that a lawyer in his office, John McElroy, had
been Rose’s lawyer. 4 The Judge says, “Well, McElroy is not really on [Cramer’s] case,”
to which Black says, “yes. Yes, he is.” Black advises the Judge that the same issue
regarding a potential witness whom his office represented is pending in the SnarrGarcia case. 5 Black tells Judge Crone that the post-conviction attorneys in Snarr
maintained that Black “should have withdrawn from representing Snarr because of

3

See United States v. Rose, No. 1:17-cr-17 (E.D. Tex.), ECF Nos. 68, 83, 102, 103.

See Mot. 3, ECF No. 551. On May 3, 2018, Assistant Federal Public Defender John McElroy had
withdrawn from Rose’s representation, and Criminal Justice Act attorney Reynaldo Padilla Morin
was appointed to represent her. See Dkt. Entry for May 3, 2018.
4

5

United States v. Snarr et al., No. 1:09-cr-15 (E.D. Tex.).

84a

18-40598.23659

Case 1:16-cr-00026-MAC-ZJH Document 743-1 Filed 12/30/19 Page 3 of 3 PageID #:
20502
the conflict.” Black says that he never spoke to Rose, but McElroy did represent her.
And, according to Black, there are confidential drug amounts involved in Rose’s
offense that the Government does not know about. The Judge says, “She has a right
to testify. I’m not going to let you withdraw. Let’s get this on the record of what you
all know.” Morin says that he does not know if Rose will waive her attorney-client
privilege. Batte says that the privileged information is inadmissible anyways.
This exchange follows:
Judge Crone: Can we get the plea entered?
Batte says that it hasn’t taken place yet.
McElroy: “Yes, the deal is signed and ready to go.”
Judge Crone: “Why doesn’t she just do it right now?”
Morin reported that Rose was prepared to go ahead with the plea at that time.
Judge Crone: “I’ll do the plea.”
Judge Crone: “I don’t feel comfortable right now. You should have taken the plea. You
should go talk to your client.”
Black: “It’s better for the record if she enters the plea first. One count in the pending
indictment is conspiracy.”
Craft: “Let’s get a magistrate right away.”
Craft then informs Judge Crone that they have an agreement under Federal Rule of
Criminal Procedure 11(c)(1)(C).

85a

18-40598.23660

Case 1:16-cr-00026-MAC-ZJH Document 743-2 Filed 12/30/19 Page 1 of 1 PageID #:
20503
From:
To:
Cc:
Subject:
Date:

Kenner, Traci (USATXE)
Katie Wang
Judy Madewell; dcoltharp@stmarytx.edu; Nicole Hochglaube; Batte, Joe (USATXE)
RE: Fackrell - Statement of 05-07-18 Conference
Monday, December 2, 2019 8:39:29 AM

Good morning, Katie,
As an initial matter, we oppose any “statements” regarding unrecorded
conferences being made part of the record.
I was not part of the trial team, so I cannot comment on the accuracy of the
attachment, particularly the alleged quotations. I’m copying Joe Batte. He was
present and may have some thoughts.
Best,
Traci
From: Katie Wang
Sent: Tuesday, November 26, 2019 5:17 PM
To: Kenner, Traci (USATXE)
Cc: Judy Madewell ; dcoltharp@stmarytx.edu; Nicole Hochglaube
Subject: Fackrell - Statement of 05-07-18 Conference
Hi Traci,
We are preparing statements of unrecorded conferences during the trial. Attached is the one of the
May 7, 2018 conference. Please let us know if you have objections or proposed changes.
Thank you, and happy Thanksgiving,
Katie
Katie Y. Wang
Research and Writing Specialist
Office of the Federal Public Defender
Western District of Texas
727 East Cesar E. Chavez Boulevard, Suite B-207
San Antonio, Texas 78206-1278
(210) 472-6700
(210) 472-4454 (fax)
CONFIDENTIALITY NOTICE: This electronic mail transmission may contain confidential or privileged information that
is legally protected from disclosure. It is intended only for the person or entity to whom it is addressed. If you have
received this transmission in error, please delete the message and any attachments from your system without
reading them and notify the sender immediately by telephone or by e-mail of the inadvertent transmission. The
sender does not intend to waive any privilege that may attach to this communication.

86a

18-40598.23661

Case 1:16-cr-00026-MAC-ZJH Document 743-3 Filed 12/30/19 Page 1 of 1 PageID #:
20504
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TEXAS
BEAUMONT DIVISION
UNITED STATES OF AMERICA,
versus
CHRISTOPHER EMORY CRAMER (1)
and
RICKY ALLEN FACKRELL (2)

§ CRIMINAL ACTION NO.
§ 1:16-CR-26
§ (Judge Marcia Crone)
§
§
§ Order on Joint Opposed Motion to
§ Settle and Approve the Statement of the
§ Proceeding Not Recorded and Order It
§ Included in the Appellate Record

ORDER
Having considered Christopher Emory Cramer’s and Ricky Allen Fackrell’s
“Joint Opposed Motion to Settle and Approve the Statement of the Proceeding Not
Recorded and Order It Included in the Appellate Record,” the Court finds that the
Motion should be GRANTED.
It is therefore ORDERED that the prepared statement of the unrecorded May
7, 2018, chambers conference is settled and approved.
It is further ORDERED that the district clerk include the statement in the
record on appeal.
SIGNED at

, Texas, this the

day of January, 2020.

MARCIA A. CRONE
UNITED STATES DISTRICT JUDGE

87a

18-40598.23662

Case 1:16-cr-00026-MAC-ZJH Document 743-4 Filed 12/30/19 Page 1 of 1 PageID #:
20505
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TEXAS
BEAUMONT DIVISION
UNITED STATES OF AMERICA,
versus
CHRISTOPHER EMORY CRAMER (1)
and
RICKY ALLEN FACKRELL (2)

§ CRIMINAL ACTION NO.
§ 1:16-CR-26
§ (Judge Marcia Crone)
§
§
§ Order on Joint Opposed Motion to
§ Settle and Approve the Statement of the
§ Proceeding Not Recorded and Order It
§ Included in the Appellate Record

ORDER
Having considered Christopher Emory Cramer’s and Ricky Allen Fackrell’s
“Joint Opposed Motion to Settle and Approve the Statement of the Proceeding Not
Recorded and Order It Included in the Appellate Record,” the Court finds that the
Motion should be GRANTED.
It is therefore ORDERED that the prepared statement of the unrecorded May
7, 2018, chambers conference is settled and approved.
It is further ORDERED that the district clerk include the statement in the
record on appeal.

88a

18-40598.23663

Case 1:16-cr-00026-MAC-ZJH Document 747 Filed 01/24/20 Page 1 of 10 PageID #: 20524

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TEXAS
BEAUMONT DIVISION
UNITED STATES OF AMERICA,
versus
CHRISTOPHER EMORY CRAMER (1)
and
RICKY ALLEN FACKRELL (2)

§
§
§
§
§
§
§
§
§

CRIMINAL ACTION NO.
1:16-CR-26
(Judge Marcia Crone)

JOINT MOTION TO COMPLETE THE RECORD ON APPEAL AND
TO REQUEST THE COURT’S ASSISTANCE IN DOING SO
Despite their diligent efforts, appellate counsel for Christopher Cramer and
Ricky Fackrell are still missing a substantial amount of material that should be part
of the record available to counsel and the United States Court of Appeals for the Fifth
Circuit in this federal death-penalty appeal. Without it, counsel cannot identify and
present all viable appellate issues and thus cannot proceed with preparing an opening
brief and appendix. Accordingly, Cramer and Fackrell, by their counsel, hereby move
for the following, pursuant to Federal Rule of Appellate Procedure (FRAP) 10:
1. that the court settle the statements of district court
proceedings not transcribed, see Appendix A;
2. that the court provide to appellate counsel any notes
from
additional
unrecorded
proceedings
and
conferences, which it may have, to shed light on the
subject matter of these unrecorded proceedings and
conferences, see Appendix B;
3. that the court provide to appellate counsel any
undocketed written communications—both electronic

89a

18-40598.23682

Case 1:16-cr-00026-MAC-ZJH Document 747 Filed 01/24/20 Page 2 of 10 PageID #: 20525

and non-electronic—between trial counsel and the
Court or its staff, see Appendix C; and
4. that the Court provide any jury lists to appellate
counsel.
I.
By superseding indictment,1 Cramer and Fackrell were charged with murder,
and conspiracy to murder, Leo Johns, a fellow inmate at the United States
Penitentiary at Beaumont, Texas. After a joint jury trial in this Court, they were
convicted of murder and sentenced to death. Both filed notices of appeal, counsel were
appointed, and the Electronic Record on Appeal (EROA) was filed with the Fifth
Circuit.
Since their appointment, Cramer’s and Fackrell’s appellate counsel have
worked diligently to assemble a complete record of all the proceedings, submissions,
and rulings in this Court, for use in their appeals. In reviewing the EROA, appellate
counsel for both Cramer and Fackrell discovered that some exhibits, the sealed and
ex parte pleadings, and the jury questionnaires were omitted from the record
submitted to the Fifth Circuit. Counsel subsequently obtained the sealed and ex parte
pleadings, and the jury questionnaires. See ECF Nos. 735, 739, 740. Counsel also
recently received missing exhibits from the court. See ECF Nos. 742, 744.
Furthermore, counsel discovered that while many of the proceedings were
recorded, there were numerous unrecorded proceedings.2 Also, the written

United States v. Christopher Cramer and Ricky Fackrell, 1:16-cr-00026, ECF No. 47.
On December 30, 2019, we filed a motion to settle a statement concerning one of the unrecorded
proceedings. See ECF No. 743. The Government responded on January 9, 2010, and we filed our reply
on January 16, 2020. See ECF Nos. 745, 746. We are currently awaiting the Court’s decision.
1
2

90a

18-40598.23683

Case 1:16-cr-00026-MAC-ZJH Document 747 Filed 01/24/20 Page 3 of 10 PageID #: 20526

communications between the court and trial counsel and the jury lists were excluded
from the record materials. As discussed below, these items should be made available
to Cramer’s and Fackrell’s appellate counsel, so that counsel can consider them in
identifying and briefing appellate claims, and so that the Fifth Circuit has a complete
record available to it in reviewing this death-penalty case. Counsel therefore seek the
Court’s assistance.
II.
In this federal capital case, a complete record for appeal is especially critical,
and is mandated not just by FRAP 10, but also by the Court Reporters Act, the
Constitution, the Federal Death Penalty Act, and the ABA Guidelines. Title 28 U.S.C.
§ 753(b), the Court Reporters Act, requires that all proceedings in criminal court be
recorded.3 See also Stansbury v. United States, 219 F.2d 165, 169 n.6 (5th Cir. 1955).
(The Court recognized that “[w]hile conferences outside of the jury are necessary and
desirable, we doubt that they are proper unless reported…. We suggest to trial judges
that the better practice would be to call the reporter…to record these conferences
between court and counsel.” This was the purpose of the Court Reporters Act, which
was enacted to “prevent disputes and questions of veracity all too common under the
old system.”). Where such proceedings are not recorded, federal law further requires
judicial intervention to help assemble a complete record, at the request of a party,
when a “difference arises about whether the record truly discloses what occurred in

Trial counsel recognized this as well and, accordingly, filed motions asking the Court to direct
the Court reporter to record proceedings in this case. See United States v. Christopher Cramer and
Ricky Fackrell, 1:16-cr-00026, ECF Nos. 117, 143. The Court granted both defendants’ motions. See
id., ECF Nos. 162, 171.
3

91a

18-40598.23684

Case 1:16-cr-00026-MAC-ZJH Document 747 Filed 01/24/20 Page 4 of 10 PageID #: 20527

the district court,” including when “anything material to either party is omitted from
or misstated in the record by error or accident.” Fed. R. App. P. 10(e). Perhaps this is
because, as the Fifth Circuit has recognized, “[t]he requirements of the [Court
Reporters] Act are mandatory and it is the duty of the court, not the attorney, to see
that its provisions are complied with.” United States v. Garner, 581 F.2d 481, 488 (5th
Cir. 1978). In other words, FRAP 10 provides an avenue to ensure compliance with
the Court Reporters Act. Because the proceedings at issue were not recorded, and
because the communications at issue involve the Court, Cramer and Fackrell require
the Court’s assistance so that they may present a complete and accurate record on
appeal.
As the Supreme Court has recognized, a complete and accurate record,
essential in any appeal, is required by the Constitution in a capital case. Thus, in
Dobbs v. Zant, 506 U.S. 357, 358 (1993), the Court reversed the judgment because the
appellate court failed to consider the full sentencing transcript, stating: “We have
emphasized before the importance of reviewing capital sentences on a complete
record.” Such review is a critical “‘safeguard against arbitrariness and caprice,’”
influences that the Eighth Amendment forbids in capital cases. Id. (quoting Gregg v.
Georgia, 428 U.S. 153, 198 (1976)); see also Griffin v. Illinois, 351 U.S. 12, 17–18
(1956) (denying indigent defendant adequate record for appeal violates due process).
In appeals under the Federal Death Penalty Act (FDPA), Congress has also
specifically required the Court of Appeals to “review the entire record.” 18 U.S.C.
§ 3595(b). That includes all of the “evidence submitted during the trial,” all of the

92a

18-40598.23685

Case 1:16-cr-00026-MAC-ZJH Document 747 Filed 01/24/20 Page 5 of 10 PageID #: 20528

“information submitted during the sentencing hearing,” and all of the “procedures
employed during the sentencing hearing.” Id. This statutorily mandated review
would, of course, be impossible without a complete record.
Finally, nationwide ethical guidelines for capital cases likewise reflect this
imperative. See ABA Guidelines for the Appointment and Performance of Counsel in
Death Penalty Cases, Guidelines 10.7(b)(2), 10.8 (cmt.) (rev. 2003) (“[C]ounsel at all
stages of the case must determine independently whether the existing official record
may incompletely reflect the proceedings” and “supplement it as appropriate.”).
III.
Cramer’s and Fackrell’s appellate counsel are still missing the following
categories of material that must be part of the record on appeal because they consist
of communications between the court and counsel, or because they will document
what occurred in the case.
A. Statement of District Court Proceedings Not Transcribed
Federal Rule of Appellate Procedure 10(c) provides a mechanism by which an
appellant can attempt to reconstruct a record. The rule states:
Statement of the Evidence When the
Proceedings Were Not Recorded or When a
Transcript is Unavailable. If the transcript of a
hearing or trial is unavailable, the appellant may
prepare a statement of the evidence or proceedings
from the best available means, including the
appellant’s recollection. The statement must be
served on the appellee, who may serve objections or
proposed amendments within 10 days after being
served. The statement and any objections or
proposed amendments must then be submitted to
the district court for settlement and approval. As

93a

18-40598.23686

Case 1:16-cr-00026-MAC-ZJH Document 747 Filed 01/24/20 Page 6 of 10 PageID #: 20529

settled and approved, the statement must be
included by the district clerk in the record on appeal.
In accordance with Rule 10(c), appellate counsel prepared statements of
unrecorded proceedings that occurred on three separate dates: December 14, 2017;
April 17, 2018; and June 8, 2018. See Appendix A. Like the first statement submitted
to the court, see ECF No. 743, appellate counsel consulted with trial attorneys for
Cramer and Fackrell, and resource counsel, in preparing these statements. The
government, as previously indicated, opposes the reconstruction of any unrecorded
proceedings.
Cramer and Fackrell now move for the Court to settle and approve the
statements of district court proceedings not transcribed, and for an order directing
the district clerk to include the statements in the record on appeal. Cramer and
Fackrell also move for a hearing to resolve any objections or contested changes the
Government has to the statements, and for an opportunity to be heard should the
Court, too, disagree with the statements in any respect.
B. Unrecorded conferences and other such proceedings
After reviewing the available record, appellate counsel also discovered that the
Court and the attorneys held numerous additional unrecorded sidebars and
unrecorded conferences in the courtroom, in chambers, and by telephone, covering
disputed legal issues and other substantive matters potentially relevant to Cramer’s
and Fackrell’s appeals. Appellate counsel have consulted with trial counsel and have
not been able to construct any detailed statement concerning these additional
proceedings.

94a

18-40598.23687

Case 1:16-cr-00026-MAC-ZJH Document 747 Filed 01/24/20 Page 7 of 10 PageID #: 20530

For this reason, appellate counsel respectfully request that the Court also
share with them any notes or other records memorializing, summarizing, or
otherwise documenting these, or any other, sidebars, conferences, and other such
unrecorded proceedings in this case. In an effort to aid the Court in this endeavor,
appellate counsel have produced, in Appendix B, the dates on which counsel believe
such unrecorded proceedings took place and, where available, counsel have also
included the subject matter of those unrecorded proceedings.
C. Written communications from the Court
From appellate counsel’s review, it appears that there were email
communications with trial counsel, the government, United States Marshals, and
Bureau of Prisons officials noted on ECF, but which were not part of the record
provided to the Fifth Circuit. A list of those communications, gleaned from ECF
references, are included in Appendix C. Appellate counsel have consulted with trial
counsel but have been unable to locate copies of these communications. Counsel
respectfully ask that the Court share with them copies of those emails as well as any
others the court may have exchanged with the parties about the case.
D. Jury Lists
Finally, appellate counsel also request that the Court provide them with any
lists (including lists reflecting race and gender), which it or its staff possess of (a) the
seated jurors, (b) the jurors who were peremptorily struck by each side, (c) the jurors
who appeared for voir dire, and (d) the jurors who were summoned. No such lists

95a

18-40598.23688

Case 1:16-cr-00026-MAC-ZJH Document 747 Filed 01/24/20 Page 8 of 10 PageID #: 20531

appear in the available record, yet they will undoubtedly be relevant to identifying
and briefing appellate issues.4
IV.
For these reasons, the Court should grant the relief requested in this motion,
all of which falls within the terms of Federal Rule of Appellate Procedure 10. The
requested relief is also constitutionally and statutorily required for Cramer and
Fackrell, and the Fifth Circuit, to have a complete and accurate record of what
occurred in this Court.

Respectfully submitted,
/s/ DONNA F. COLTHARP
1 Camino Santa Maria
San Antonio, Texas 78228
210-436-3320
dcoltharp@stmarytx.edu
Texas Bar No. 24001909
MAUREEN SCOTT FRANCO
Federal Public Defender
JUDY FULMER MADEWELL
Deputy Federal Public Defender
Western District of Texas
727 East César E. Chávez Blvd., B–207
San Antonio, Texas 78206–1205
(210) 472-6700
(210) 472-4454 (Fax)
Judy_Madewell@fd.org
Texas Bar No. 00790727

Of course, counsel assume that juror anonymity would be maintained for any such lists and that they
would be provided under seal and subject to any appropriate protective order.
4

96a

18-40598.23689

Case 1:16-cr-00026-MAC-ZJH Document 747 Filed 01/24/20 Page 9 of 10 PageID #: 20532

NICOLE WIGNALL DEBORDE
Hochglaube & DeBorde, P.C.
3515 Fannin Street
Houston, Texas 77004
Phone: 713-526-6300
Fax: 713-808-9444
nicole@houstoncriminaldefense.com
Attorneys for Ricky Fackrell

/s/ Douglas M. Barlow
DOUGLAS MILTON BARLOW
Barlow Law Firm
485 Milam
Beaumont, Texas 77701
409-838-4259
409-832-5611 (fax)
barlowfedlaw@gmail.com
Texas Bar No. 01753700
ANTHONY SEYMOUR HAUGHTON
Capital Resource Counsel Project
c/o Federal Public Defender
Southern District of Texas
440 Louisiana Street, Suite 1350
Houston, Texas 77002
832-287-9548
anthony_haughton@fd.org
Attorneys for Christopher Cramer

97a

18-40598.23690

Case 1:16-cr-00026-MAC-ZJH Document 747 Filed 01/24/20 Page 10 of 10 PageID #:
20533

CERTIFICATE OF SERVICE
I certify that on January 24, 2020, I electronically filed Cramer’s and Fackrell’s
“Joint Motion to Complete the Record on Appeal and to Request the Court’s
Assistance in Doing So” with the Clerk of Court using the CM/ECF system, which
will send electronic notification of such filing to: Joseph Robert Batte, Jr., Assistant
United States Attorney, via electronic mail.

/s/ Donna F. Coltharp
Attorney for Ricky Fackrell

98a

18-40598.23691

Case 1:16-cr-00026-MAC-ZJH Document 747-1 Filed 01/24/20 Page 1 of 1 PageID #:
20534

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TEXAS
BEAUMONT DIVISION
UNITED STATES OF AMERICA,
versus
CHRISTOPHER EMORY CRAMER (1)
and
RICKY ALLEN FACKRELL (2)

§ CRIMINAL ACTION NO.
§ 1:16-CR-26
§ (Judge Marcia Crone)
§
§
§ Order on Joint Motion to Complete the
§ Record on Appeal and to Request
§ the Court’s Assistance in Doing So
§

ORDER
Having considered Christopher Emory Cramer’s and Ricky Allen Fackrell’s
“Joint Motion to Complete the Record on Appeal and to Request the Court’s
Assistance in Doing So,” the Court finds that the Motion should be GRANTED in all
respects.

99a

18-40598.23692

Case 1:16-cr-00026-MAC-ZJH Document 747-2 Filed 01/24/20 Page 1 of 10 PageID #:
20535

APPENDIX A

100a

18-40598.23693

Case 1:16-cr-00026-MAC-ZJH Document 747-2 Filed 01/24/20 Page 2 of 10 PageID #:
20536

STATEMENT OF DISTRICT COURT PROCEEDINGS NOT TRANSCRIBED
A. December 14, 2017 status conference with Judge Marcia A. Crone,
lawyers for both defendants, lawyers for the government, and the
judge’s law clerk.
JUDGE: Okay, what’s up?
MORROW: Everything is set up at ADX to have Fackrell’s brain scanned. It
should occur on or about January 8. It will be performed by Mindset.
Black brings up the motion they filed to take pictures of the physical evidence.
However, the FBI will not allow pictures to be taken without a court order.
GOVERNMENT: I’ll give you my pictures.
BLACK: We want our photos.
JUDGE: Okay. I’ll sign an order allowing the photos.
BLACK: We heard through the grapevine this case will not be deauthorized.
GOVERNMENT: Yes, that’s correct.
BLACK: When did you find this out?
GOVERNMENT: I’ve been in and out of the office and just got the letter.
GOVERNMENT: I’ve been in Utah and Arizona working on this case
BOURQUE: What was the date of the letter?
GOVERNMENT: I don’t recall 1.
JUDGE: I got word a week ago, but I was sort of expecting it.
JUDGE: What’s with this law enforcement motion about what they are going
to wear.

1

It turned out that the letter was dated November 30, 2017.

101a

18-40598.23694

Case 1:16-cr-00026-MAC-ZJH Document 747-2 Filed 01/24/20 Page 3 of 10 PageID #:
20537
Parties and court have discussion about suits, what the marshals will be wearing,
and whether BOP employees will be in the courtroom. Judge says she wants BOP
personnel in suits and ties and court security personnel will be in regular outfits.
Government says BOP personnel will not be in the courtroom unless they are ready
to testify.
JUDGE: I want people in church clothes, pants, shirt and jackets.
Rhonda, the marshal, says observers will have jackets on.
JUDGE: I want to make it clear there’ll be no “sea of blue”
GOVERNMENT: Law enforcement witnesses won’t be in the courtroom.
JUDGE: If guards show up, I want them in street clothes.
Judge’s law clerk says the defense wants the security personnel to be “unobstrusive.”
JUDGE: Security will stand against the wall.
JUDGE: What about prisoner witnesses in wit sec?
GOVERNMENT: We have a number of those wit sec witnesses.
JUDGE: We will bring in the prisoner witnesses before the jury comes in and
secure them.
JUDGE: What clothes will be provided to prisoners?
GOVERNMENT: Cooperators will be in prison clothes.
JUDGE: Okay, shackled feet, free hands.
MARSHAL: Defendants can wear suits.
BOURQUE: We’ll bring clothes to Marshals.
JUDGE: Court will be in session four days per week, except for jury selection,
five days per week.

102a

18-40598.23695

Case 1:16-cr-00026-MAC-ZJH Document 747-2 Filed 01/24/20 Page 4 of 10 PageID #:
20538
Robert Morrow expresses concerns about deadline for inmate witnesses and filing
writs. It is quickly approaching and asks to extend to January 15th. Concern includes
recent discovery and continuing discovery “all the time.” Judge expresses concern
about time it takes to get witnesses moved, not delays in disclosure, requests Marshal
come back.
JUDGE: We can’t wait until January 15th because it takes too long to get
people here. If you disclose names after the existing deadline you do so at your
own peril.
BLACK: We’re getting more discovery coming all the time. How many pages
are we going to get? We got email with discovery at 4:00 p.m. yesterday.
MARSHAL: Two full weeks is enough but we would like more notice to get
witnesses moved.
JUDGE: Let us know as soon as you can.
BOURQUE: We are not intentionally delaying the request but we’re just
getting discovery now.
JUDGE: I know that.
JUDGE: I wish Jeff Sessions would have changed his mind.
BLACK: Everybody in this room is in agreement how this case should be
resolved. That’s what’s frustrating all of us.
JUDGE: How long will this trial last?
GOVERNMENT: Four weeks.
JUDGE: Does that include deliberations?
GOVERNMENT: Probably mid-May.
BLACK: May 1st to May 15th.
JUDGE: Anything else? Aren’t there motions on witnesses?

103a

18-40598.23696

Case 1:16-cr-00026-MAC-ZJH Document 747-2 Filed 01/24/20 Page 5 of 10 PageID #:
20539
BLACK: Yes. Describes witness reimbursement issues. Adds that government
just gave latest discovery including SIS information.
GOVERNMENT: SIS just gave me the stuff. I requested this years ago. This
includes “internal SIS files” but there is some new stuff written by the clients.
BOURQUE: We got a three-year old letter just last night and it describes
everything.
JUDGE: I don’t know what you’re talking about. There will be a suppression
motion on January 30th.
MORROW: When Ricky Fackrell gets back to Beaumont, we may need help
making arrangements to see him. We’ve had many problems in the past.
JUDGE: I thought we had that worked out.
BLACK: Tina at BOP is great but her recommendations are not always
followed.
JUDGE: Will the defendants be housed at separate institutions? I want to be
sure that they get their mail.
BLACK: We had an excellent tour at ADX last week. I was extremely
impressed with the professionalism demonstrated by the staff.
JUDGE: I’d like to go. Other motions?
Back and forth between Black and Government over standing and authentication of
copies of alleged kites written by Fackrell and/or Cramer.
MORROW: Judge, when we are here on the 30th, I need to make a record on
many of the motions that you’ve already denied.
JUDGE: Which ones?
MORROW: Well a lot of them. Obviously all the ones you denied. For example,
the Motion to Abate the Trial and the Motion for Severance.
JUDGE: Okay. Whatever. I will not reconsider those motions.

104a

18-40598.23697

Case 1:16-cr-00026-MAC-ZJH Document 747-2 Filed 01/24/20 Page 6 of 10 PageID #:
20540
JUDGE: Can’t I decide the “writings” motion without a hearing?
BLACK: You’ve given us a hearing in previous cases.
GOVERNMENT: The defendant has no standing.
BLACK: On my client’s letter, I do.
GOVERNMENT: The letter was abandoned.
BLACK: We want a hearing.
MORROW: It’s not admissible on other grounds.
BLACK: They don’t have any originals.
JUDGE: I don’t think he has a reasonable expectation to privacy, at least it’s
doubtful.
BLACK: We think it is inadmissible.
JUDGE: Okay. There are two issues. Where are the originals?
GOVERNMENT: I wish I knew.
BOURQUE: The Government’s own Bureau of Prisons destroyed them.
GOVERNMENT: I sense a certain loss of collegiality in this proceeding like I
haven’t seen before in this case.
JUDGE: Where are the originals?
GOVERNMENT: We don’t have any originals. Only copies from BOP.
JUDGE: Tell BOP to try and track them down. But their track record on
finding documents is not good.
GOVERNMENT: I have concerns about the expert deadlines coming up.
MORROW: We will send a letter to the Government by the end of the week
with our expert information.

105a

18-40598.23698

Case 1:16-cr-00026-MAC-ZJH Document 747-2 Filed 01/24/20 Page 7 of 10 PageID #:
20541

Judge describes inconvenience that may occur due to new wallpaper being installed
in her office during trial.
MARSHAL: How many prisoner witnesses will be writted to trial?
JUDGE: Each side should call the Marshal’s separately and give the Marshal
the number.
Discussion of recent judicial appointment.
End of conference at approximately 10:45a.m. Bourque approaches Judge with
Government present and hands the recent written presentation to DOJ and the letter
received two days ago sent by a prisoner to OIG describing the set-up in the Griffiths
case. Bourque explains what the documents are to Judge and Judge’s law clerk.
B. April 17th, 2018 conference with Judge Crone and all counsel. The
conference discussed the jurors who were struck.
Chambers conference took place at approximately 3:40pm. Judge Crone noted
that all the Black venire persons had been struck and asked, “Do we have a problem?”
There was no immediate response. Government then responded that it was not
striking jurors because they were Black. Pat Black pointed out that he planned to call
mitigation witnesses who were Black. Government otherwise remained silent except
to say, “We don’t think there is a problem.”

C. June 7th, 2018 conference with Judge Crone, all counsel, and the
Judge’s law clerks present. They discussed Fackrell’s refusal to come
to Court from Beaumont, and Cramer’s refusal to go into the
courtroom without Fackrell’s approval.
Chambers conference took place between approximately 9:10a.m. and 9:30a.m.
Prior to the chambers conference, there had been discussion with the Chief Marshal,

106a

18-40598.23699

Case 1:16-cr-00026-MAC-ZJH Document 747-2 Filed 01/24/20 Page 8 of 10 PageID #:
20542
Chris, who indicated that Fackrell and Cramer were not coming to Court. Fackrell
had refused to leave Beaumont and Cramer was in the courthouse but refusing to
leave his cell unless Fackrell agreed to allow Cramer to go into Court by himself.
There were attempts to get Fackrell on the phone, and Robert Morrow spoke with
him briefly. Once in chambers, Marshal Chris advised the Court that Cramer was in
the courthouse but refusing to come to Court and that Fackrell had refused to leave
Beaumont.
Pat Black told the Court that Cramer wanted to come into Court without
Fackrell. However, Cramer was concerned about prison politics, and Fackrell and
Cramer had to stand together. Cramer wanted to talk to Fackrell and get his
permission. Pat Black added that he could not discuss the stuff about prison politics
in his conversation with Cramer on the record because it was covered by the attorneyclient privilege and would cause Cramer problems if this information were in
transcript.
Robert Morrow explained to all that this was a result of developments in court
the previous day involving the two Beaumont Bureau of Prisons psychologists who
were going to testify to conversations they had with Fackrell around the time that he
and Cramer were considering going pro se and ending the case. There was some
exchange about the Court’s comments the day before, which were included in the
transcript from that day, about what was going to be admissible. 2 The chambers
exchange concerned prior discussions about redacting some of the statements and

2

See Penalty Phase Transcript, Volume 9, June 6, 2018, PP. 2042-2068

107a

18-40598.23700

Case 1:16-cr-00026-MAC-ZJH Document 747-2 Filed 01/24/20 Page 9 of 10 PageID #:
20543
allowing others. Judge Crone said, “well you presented Dr. Clemmer from ADX so I
think it’s proper.” Judge Crone said, “It troubled me” that there was some information
in there about things that might not be admissible. Robert Morrow said that Fackrell
just needed time away today and would likely return on Monday.
Pat Black said Bureau of Prisons was trying to get a call set up, and that
Cramer wanted to attend very badly but was prohibited from doing so because of
prison politics. Judge Crone said, “I’m so sick of prison politics. We can’t deal with
that or delay the trial.”
There was discussion about the requirements under Rule 43 regarding the
defendants’ absence and an opinion from the Fifth Circuit as well as to what
instructions needed to be given. The parties then rehearsed what was going to
happen, once back on the record, with the Rule 43 proceedings.
The Court then raised the topic of all the mitigation factors that had been
submitted by team Cramer. The Judge said there were duplicates, and that she did
not like the mitigator that said that the Cramer family had been “forced” to eat food
out of the garbage. The Judge did not think that the word forced needed to be in there
because it was not clear they were forced.
Next, there was a discussion about what to do about the Dr. Hayes issue from
the day before, June 6, 2018. The transcript from that day included a long description
of the problems with Dr. Hayes’ reference to alleged involvement in gang activity by
Ricky Fackrell. Parties went through the transcript and Joe Batte said, “I need to fix

108a

18-40598.23701

Case 1:16-cr-00026-MAC-ZJH Document 747-2 Filed 01/24/20 Page 10 of 10 PageID #:
20544
it” and the Judge said she was embarrassed by what she had said since, apparently
Batte and the Court were wrong about the lack of a reference to gang activity.
Robert Morrow was adamant that the issue was not whether Ricky was
involved in gang activity so much but that Dr. Hayes was having difficulty keeping
the defendants straight and this related to their severance motion. The Judge replied,
“I don’t want to hear anything about that.” Morrow continued to protest and said
that he was going to have to make his record on this confusion issue, and that the
gang activity issue was totally separate. He was adamant that the expert was
confused between Fackrell and Cramer. Judge Crone said she did not think the expert
was confused. Morrow maintained he would have to make his record on the issue.

109a

18-40598.23702

Case 1:16-cr-00026-MAC-ZJH Document 747-3 Filed 01/24/20 Page 1 of 4 PageID #:
20545

Appendix B

110a

18-40598.23703

Case 1:16-cr-00026-MAC-ZJH Document 747-3 Filed 01/24/20 Page 2 of 4 PageID #:
20546

Unrecorded Proceedings
Date
March 10, 2015

Proceeding
Chambers Conference

Record Reference
ECF 20

Additional Details, Where Available
Budget

March 17, 2016

Chambers Conference

ECF 702

Scheduling Order

July or August 2016

Chambers Conference

November 15, 2016
December 14, 2016
March 6, 2017
November 14, 2017
December 11, 2017
February 14, 2018
March 27, 2018

Chambers Conference
Status Conference
Status Conference
Telephone Conference
Telephone Conference
Chambers Conference
Chambers Conference

April 11, 2018

Chambers Conference

Discussion concerning government’s
unopposed motion for a protective order,
see DE 60, filed under seal on July 19,
2016

Voir Dire Transcript,
Day 3, P. 81

Continuance and Jury Selection
Conference requested by Robert Morrow
regarding security personnel coming
into court with defendants; victim
impact testimony
Cramer and Fackrell reading jury
questionnaires
Juror sent a note about “boredom”
One juror knew Doug Barlow and a
Marshal recognized another juror

111a

18-40598.23704

Case 1:16-cr-00026-MAC-ZJH Document 747-3 Filed 01/24/20 Page 3 of 4 PageID #:
20547

Date
April 30, 2018
April 30, 2018

Proceeding
Chambers Conference,
9:15 a.m.
Chambers Conference,
1:30 p.m.

Record Reference

Additional Details, Where Available
Discussion of two jurors with dyslexia

Chambers Conference

Discussion about Cramer swearing
within earshot of a marshal; Cramer
sending kites with informants’ names;
and whether defense could use priors
older than 10 years
Witness cross-examinations

May 2, 2018
May 2, 2018

Chambers Conference
Chambers Conference

Reference to “cleaning up the record”
Cramer expert reports
Discussion related to Utah witnesses

May 7, 2018

Chambers Conference

May 1, 2018

May 8, 2018

Chambers Conference

May 14, 2018

Chambers Conference

May 15, 2018

Chambers Conference

May 16, 2018

Off-the-Record
Conference

Guilt Phase
Transcript, Day 3, P.
872
Guilt Phase
Transcript, Day 5,
PP. 1390, 1394,
1396-1397
Guilt Phase
Transcripts, Day 6,
P. 1411
Penalty Phase
Transcript, Day 1, P.
287
Penalty Phase
Transcript, Day 2, P.
430

112a

Lesser-Included Offenses
Closing arguments
Jury charge
Court asked to speak with Pat Black,
counsel for Cramer, in chambers
Cramer’s and Fackrell’s outbursts .

Cramer and Fackrell advised the judge
they wanted to rest, quit, not present

18-40598.23705

Case 1:16-cr-00026-MAC-ZJH Document 747-3 Filed 01/24/20 Page 4 of 4 PageID #:
20548

Date

Proceeding

May 29, 2018

Chambers Conference

May 31, 2018

Chambers Conference

June 4, 2018

Chambers Conference

June 7, 2018

Chambers Conference

June 8, 2018

Chambers Conference

June 11, 2018

Chambers Conference

Record Reference

Penalty Phase
Transcript, Day 7, P.
1564
Penalty Phase
Transcript, Day 10,
PP. 2462 and 2464

113a

Additional Details, Where Available
any mitigation evidence, and ask for a
death sentence
Lunchtime car accident involving a
juror; preceded a second discussion on
the record
Erik Rekonen’s assertion of Fifth
Amendment right against selfincrimination if called to testify
Court asked to speak with Fackrell’s
counsel in chambers
Discussion on defendants’ presence at
trial
Penalty phase jury charge

18-40598.23706

Case 1:16-cr-00026-MAC-ZJH Document 747-4 Filed 01/24/20 Page 1 of 9 PageID #:
20549

Appendix C

114a

18-40598.23707

Case 1:16-cr-00026-MAC-ZJH Document 747-4 Filed 01/24/20 Page 2 of 9 PageID #:
20550

ECF References to Written Communications Between Court and Parties
Date
March 10, 2015

ECF
13

March 10, 2015

14

April 24, 2015

16

June 3, 2016

50

June 3, 2016

51

June 24, 2016

58

June 24, 2016

59

August 18, 2016

70

December 7, 2016

75

October 25, 2017

98

Description
*SEALED* SEALED ORDER granting sealed motions as to
Christopher Emory Cramer. cc: Black, Barlow
3/11/15Signed by Judge Marcia A. Crone on 3/10/15. (mrp, )
[1:14-mj-00203-KFG] (Entered: 03/11/2015)
*SEALED* SEALED ORDER granting sealed motions as to
Ricky Allen Fackrell. cc: Morrow, Bourque 3/11/15 Signed
by Judge Marcia A. Crone on 3/10/15. (mrp, ) [1:14-mj00203-KFG] (Entered: 03/11/2015)
*SEALED* ORDER granting 15 Motion for Buccal Swab
Collection as to Christopher Emory Cramer (1), Ricky Allen
Fackrell (2). Signed by Magistrate Judge Keith F. Giblin on
4/24/2015. (cc: AUSA on 4/24/2015 to forward copies to
defense counsel) (saw, ) [1:14-mj-00203-KFG] (Entered:
04/24/2015)
E-GOV SEALED Summons on superseding indictment
issued and handed to USM for service as to Christopher
Emory Cramer (bjc, ) cc: USA, Black, Barlow (Entered:
06/03/2016)
E-GOV SEALED Summons on superseding indictment
issued and handed to USM for service as to Ricky Allen
Fackrell (bjc, ) cc: USA, Morrow, Bourque (Entered:
06/03/2016)
*SEALED* SEALED ORDER re Budget as to Christopher
Emory Cramer. cc: Black, Barlow 6/24/16 Signed by Judge
Marcia A. Crone on 6/23/16. (mrp, ) (Entered: 06/24/2016)
*SEALED* SEALED ORDER re Budget as to Ricky Allen
Fackrell. cc: Morrow, Bourque 6/24/16 Signed by Judge
Marcia A. Crone on 6/23/16. (mrp, ) (Entered: 06/24/2016)
*SEALED* ORDER granting 60 Sealed Motion for
protective order as to Christopher Emory Cramer (1), Ricky
Allen Fackrell (2). Signed by Judge Marcia A. Crone on
8/18/2016. (bjc, ) cc: USA, Black, Morrow (Entered:
08/19/2016)
*SEALED* SEALED ORDER granting Sealed Motion 74 as
to Christopher Emory Cramer. cc: Black, Barlow 12/7/16
Signed by Judge Marcia A. Crone on 12/7/16. (mrp, )
(Entered: 12/07/2016)
*SEALED* SEALED ORDER re Capital Trial Budget
Attorney and Service Provider Fees as to Ricky Allen
Fackrell. cc: Bourque, Morrow 10/25/17 Signed by Judge

115a

18-40598.23708

Case 1:16-cr-00026-MAC-ZJH Document 747-4 Filed 01/24/20 Page 3 of 9 PageID #:
20551

Date

ECF

October 25, 2017

99

December 7, 2017

249

December 7, 2017

250

December 7, 2017

251

December 18,
2017

264

January 25, 2018

330

February 1, 2018

345

February 1, 2018

346

February 7, 2018

359

February 7, 2018

360

Description
Carl E Stewart Chief Circuit Judge U. S. Court of Appeals
for the Fifth Circuit on 10/23/17. (mrp,) (Entered:
10/25/2017)
*SEALED* SEALED ORDER re Capital Trial Budget
Expert Fees as to Ricky Allen Fackrell. Signed by Judge
Carl E Stewart Chief Circuit Judge U. S. Court of Appeals
for the Fifth Circuit on 10/23/17. cc: Bourque, Morrow
10/25/17 (mrp, ) (Entered: 10/25/2017)
*SEALED* SEALED ORDER as to Christopher Emory
Cramer. cc: Black, Barlow 12/8/17 Signed by District Judge
Marcia A. Crone on 12/7/17. (mrp, ) (Entered: 12/08/2017)
*SEALED* ORDER granting 242 Sealed Motion as to
Christopher Emory Cramer (1). cc: Black, Barlow 12/8/17
Signed by District Judge Marcia A. Crone on 12/7/17. (mrp,
) (Entered: 12/08/2017)
*SEALED* SEALED EX PARTE ORDER REGARDING
EXPERTS as to Christopher Emory Cramer, Ricky Allen
Fackrell. cc: Black, Barlow, Morrow, Bourque 12/8/17
Signed by District Judge Marcia A. Crone on 12/7/17. (mrp,
) (Entered: 12/08/2017)
*SEALED* SEALED EX-PARTE ORDER re: Capital Trial
Budget as to Christopher Emory Cramer, Ricky Allen
Fackrell. Signed by Chief Judge Carl E. Stewart for the 5th
Circuit Court of Appeals on 12/13/17. cc: Black, Morrow
12/18/2017 (tkd, ) (Entered: 12/18/2017)
*SEALED* SEALED Capital Trial Budget ORDER as to
Ricky Allen Fackrell. Signed by District Judge Marcia A.
Crone on 1/25/18. cc: Morrow 1/16/18 (tkd, ) (Entered:
01/26/2018)
*SEALED* SEALED ORDER on Proposed Trial Budget for
the Defense Team as to Ricky Allen Fackrell. cc: Morrow,
Bourque 2/2/18 Signed by District Judge Marcia A. Crone
on 2/1/118. (mrp, ) (Entered: 02/01/2018)
*SEALED* SEALED ORDER for Approval of Proposed
Expert Trial Budget as to Ricky Allen Fackrell. cc: Morrow,
Bourque 2/2/18 Signed by District Judge Marcia A. Crone
on 2/1/18. (mrp, ) (Entered: 02/01/2018)
*SEALED* SEALED ORDER on Supplemental Trial
Budget Expert Fees as to Ricky Allen Fackrell. cc: Morrow,
Bourque 2/12/18 Signed by Chief Circuit Judge Carl E.
Stewart on 2/7/18. (mrp, ) (Entered: 02/12/2018)
*SEALED* SEALED ORDER on Supplemental Capital
Trial Budget Attorney and Service Provider Fees as to

116a

18-40598.23709

Case 1:16-cr-00026-MAC-ZJH Document 747-4 Filed 01/24/20 Page 4 of 9 PageID #:
20552

Date

ECF

February 14, 2018 371

February 14, 2018 373

February 20, 2018 372

February 20, 2018 374

February 20, 2018 376

March 14, 2018

397

March 16, 2018

408

March 16, 2018

410

March 16, 2018

411

Description
Ricky Allen Fackrell. cc: Morrow, Bourque 2/12/18 Signed
by Chief Circuit Judge Carl E. Stewart on 2/7/18. (mrp, )
(Entered: 02/12/2018)
*SEALED* SEALED ORDER granting 361 Sealed Ex parte
Petition for Writ of Habeas Corpus ad Testificandum as to
Christopher Emory Cramer. Signed by District Judge
Marcia A. Crone on 2/14/18. cc: USM, BOP, Warden
Florence Admax, FPD 2/20/18 (tkd, ) (Entered: 02/20/2018)
*SEALED* SEALED ORDER granting 362 Sealed Ex Parte
Petition for Writ of Habeas Corpus ad Testificandum as to
Christopher Emory Cramer. Signed by District Judge
Marcia A. Crone on 2/14/18. cc: USM, BOP, Warden
Springfield MCFP, FPD 2/20/2018 (tkd, ) (Entered:
02/20/2018)
*SEALED* Sealed WRIT of Habeas Corpus ad
Testificandum issued as to Christopher Emory Cramer. cc:
USM, BOP, Warden Florence Admax, FPD 2/20/18 (tkd, )
(Entered: 02/20/2018)
*SEALED* Sealed Ex Parte Writ of Habeas Corpus ad
Testificandum issued as to Christopher Emory Cramer. cc:
USM, BOP, Warden Springfield MCFP, FPD 2/20/18 (tkd, )
(Entered: 02/20/2018)
*SEALED* SEALED ORDER granting 367 Sealed Ex Parte
Motion to Amend Allocation of Expert Funds and to
Designate Additional Expert as to Christopher Emory
Cramer. Signed by District Judge Marcia A. Crone on
2/20/18. cc: Barlow 2/21/18 (tkd, ) (Entered: 02/21/2018)
*SEALED* Sealed WRIT of Habeas Corpus ad
Testificandum as to Christopher Emory Cramer. cc: FPD,
USM (tkd, ) (Entered: 03/14/2018)
*SEALED* SEALED ORDER granting 298 Sealed
Amended Ex Parte Application for WHCAT for Richard
Glenn Blount III as to Christopher Emory Cramer. Signed
by District Judge Marcia A. Crone on 3/16/18. cc: FPD (tkd,
) (Entered: 03/16/2018)
*SEALED* SEALED ORDER granting 399 Ex Parte
Application for Writ of Habeas Corpus Ad Testificandum for
Garmon Coats as to Ricky Allen Fackrell. Signed by District
Judge Marcia A. Crone on 3/16/18. cc: Bourque (tkd, )
(Entered: 03/16/2018)
*SEALED* SEALED ORDER granting 400 Ex Parte
Application for Writ of Habeas Corpus Ad Testificandum for
Michael Hegyi as to Ricky Allen Fackrell. Signed by District

117a

18-40598.23710

Case 1:16-cr-00026-MAC-ZJH Document 747-4 Filed 01/24/20 Page 5 of 9 PageID #:
20553

Date

ECF

March 16, 2018

412

March 16, 2018

413

March 16, 2018

414

March 16, 2018

415

March 16, 2018

416

March 16, 2018

417

March 16, 2018

418

March 19, 2018

429

Description
Judge Marcia A. Crone on 3/16/18. cc: Bourque (tkd, )
(Entered: 03/16/2018)
*SEALED* SEALED ORDER granting 401 Ex Parte
Application for Writ of Habeas Corpus Ad Testificandum for
Aaron McCaa as to Ricky Allen Fackrell. Signed by District
Judge Marcia A. Crone on 3/16/18. cc: Bourque (tkd, )
(Entered: 03/16/2018)
*SEALED* SEALED ORDER granting 402 Ex Parte
Application for Writ of Habeas Corpus Ad Testificandum for
Britt Vaughn Moon as to Ricky Allen Fackrell. Signed by
District Judge Marcia A. Crone on 3/16/18. cc: Bourque
(tkd, ) (Entered: 03/16/2018)
*SEALED* SEALED ORDER granting 403 Ex Parte
Application for Writ of Habeas Corpus Ad Testificandum for
Michael Shawn Radecky as to Ricky Allen Fackrell. Signed
by District Judge Marcia A. Crone on 3/16/18. cc: Bourque
(tkd, ) (Entered: 03/16/2018)
*SEALED* SEALED ORDER granting 404 Ex Parte
Application for Writ of Habeas Corpus Ad Testificandum for
Lukner Rene as to Ricky Allen Fackrell. Signed by District
Judge Marcia A. Crone on 3/16/18. cc: Bourque (tkd, )
(Entered: 03/16/2018)
*SEALED* SEALED ORDER granting 405 Ex Parte
Application for Writ of Habeas Corpus Ad Testificandum for
Duane Roberts as to Ricky Allen Fackrell. Signed by
District Judge Marcia A. Crone on 3/16/18. cc: Bourque
(tkd, ) (Entered: 03/16/2018)
*SEALED* SEALED ORDER granting 406 Ex Parte
Application for Writ of Habeas Corpus Ad Testificandum for
Glen Lee Sympson as to Ricky Allen Fackrell. Signed by
District Judge Marcia A. Crone on 3/16/18. cc: Bourque
(tkd, ) (Entered: 03/16/2018)
*SEALED* SEALED ORDER granting 407 Ex Parte
Application for Writ of Habeas Corpus Ad Testificandum for
James Phillip Tafoya as to Ricky Allen Fackrell. Signed by
District Judge Marcia A. Crone on 3/16/18. cc: Bourque
(tkd, ) (Entered: 03/16/2018)
*SEALED* SEALED ORDER granting 428 Sealed Ex Parte
Petition for Writ of Habeas Corpus Ad Testificandum for
Jason Lynn Scoggan as to Christopher Emory Cramer,
Ricky Allen Fackrell. Signed by District Judge Marcia A.
Crone on 3/19/18. cc: USA 3/20/18 (tkd, ) (Entered:
03/20/2018)

118a

18-40598.23711

Case 1:16-cr-00026-MAC-ZJH Document 747-4 Filed 01/24/20 Page 6 of 9 PageID #:
20554

Date
March 21, 2018

ECF
435

March 21, 2018

436

March 23, 2018

449

March 23, 2018

450

March 26, 2018

457

March 27, 2018

458

March 27, 2018

459

March 27, 2018

460

April 2, 2018

475

Description
*SEALED* SEALED ORDER granting 433 Sealed Ex Parte
Petition for Writ of Habeas Corpus ad Testificandum for
Jason Bendt as to Ricky Allen Fackrell. Signed by District
Judge Marcia A. Crone on 3/21/18. cc: Bourque 3/22/18 (tkd,
) (Entered: 03/22/2018)
*SEALED* SEALED ORDER granting 434 Sealed Ex Parte
Application for Writ of Habeas Corpus ad Testificandum for
Mark Christopher Poe as to Ricky Allen Fackrell. Signed by
District Judge Marcia A. Crone on 3/21/18. cc: Bourque
3/22/18 (tkd, ) (Entered: 03/22/2018)
*SEALED* SEALED ORDER granting 441 Sealed Ex Parte
Motion for Preapproval of Travel Expenses for Jury
Consultant as to Christopher Emory Cramer. Signed by
District Judge Marcia A. Crone on 3/23/18. cc: Barlow (tkd,
) (Entered: 03/23/2018)
*SEALED* SEALED ORDER granting 442 Sealed Ex Parte
Motion for Approval of Additional Trial Attorney's Fees as
to Christopher Emory Cramer. Signed by District Judge
Marcia A. Crone on 3/23/18. cc: Barlow (tkd, ) (Entered:
03/23/2018)
*SEALED* SEALED Capital Trial Budget ORDER re:
Supplemental Attorney Fees as to Christopher Emory
Cramer. Signed by Carl E. Stewart, Chief Judge for the
Fifth Circuit Court of Appeals on 3/26/18. cc: Barlow 3/27/18
(tkd, ) (Entered: 03/27/2018)
*SEALED* SEALED ORDER granting 453 Sealed Ex Parte
Application for Issuance of Witness Subpoenas as to
Christopher Emory Cramer. Signed by District Judge
Marcia A. Crone on 3/27/18. cc: FPD 3/28/18 (tkd, )
(Entered: 03/28/2018)
*SEALED* SEALED ORDER granting 454 Ex Parte
Application for Issuance of Witness Subpoenas as to Ricky
Allen Fackrell. Signed by District Judge Marcia A. Crone on
3/27/18. cc: Bourque 3/28/18 (tkd, ) (Entered: 03/28/2018)
*SEALED* SEALED Ex Parte ORDER granting 451 Ex
Parte Application for Writ of Habeas Corpus ad
Testificandum for Myron Edward Schanck as to Ricky Allen
Fackrell. Signed by District Judge Marcia A. Crone on
3/27/18. cc: Bourque 3/28/18 (tkd, ) (Entered: 03/28/2018)
*SEALED* SEALED Amended Ex Parte ORDER granting
453 Ex Parte Application for Issuance of Witness
Subpoenas as to Christopher Emory Cramer. Signed by

119a

18-40598.23712

Case 1:16-cr-00026-MAC-ZJH Document 747-4 Filed 01/24/20 Page 7 of 9 PageID #:
20555

Date

ECF

April 26, 2018

516

May 1, 2018

535

May 2, 2018

544

May 4, 2018

548

May 11, 2018

587

May 11, 2018

588

May 15, 2018

599

May 18, 2018

612

Description
District Judge Marcia A. Crone on 4/2/18. cc: FPD (tkd, )
(Entered: 04/02/2018)
*SEALED* SEALED Second Amended EX PARTE ORDER
granting 453 Ex Parte Application for Issuance of Witness
Subpoenas as to Christopher Emory Cramer. Signed by
District Judge Marcia A. Crone on 4/26/18. cc: FPD 4/27/18
(tkd, ) (Entered: 04/27/2018)
*SEALED* SEALED Ex Parte ORDER granting 530
SEALED Ex Parte APPLICATION for Court Order to
Require the Production of Certified Social Security Medical
Records for Merrill Fackrell Jr, Defendant Ricky Fackrell's
Father as to Ricky Allen Fackrell. Signed by District Judge
Marcia A. Crone on 5/1/18. cc: Morrow 5/2/18 (tkd, )
(Entered: 05/02/2018)
*SEALED* SEALED Ex Parte ORDER granting 534 Sealed
First Amended Ex Parte Application for Issuance of
Witness Subpoenas as to Ricky Allen Fackrell. Signed by
District Judge Marcia A. Crone on 5/2/18. cc: Morrow 5/3/18
(tkd, ) (Entered: 05/03/2018)
*SEALED* SEALED Ex Parte ORDER granting 542 Sealed
Application for Approval of Trial Budget for the Defense
Team as to Ricky Allen Fackrell. Signed by District Judge
Marcia A. Crone on 5/4/18. cc: Morrow 5/4/2018 (tkd, )
(Entered: 05/04/2018)
*SEALED* SEALED Third Amended Ex Parte ORDER
granting 453 Ex Parte Application for Issuance of Witness
Subpoenas as to Christopher Emory Cramer. Signed by
District Judge Marcia A. Crone on 5/11/18. cc via email:
FPD Black 5/14/2018 (tkd, ) (Entered: 05/14/2018)
*SEALED* SEALED Ex Parte ORDER granting 473 Sealed
Application for indigent witness subpoenas and indigent
witness expenses for Connie Dunham as to Ricky Allen
Fackrell. Signed by District Judge Marcia A. Crone on
5/11/18. cc via email: Morrow 5/14/2018 (tkd, ) (Entered:
05/14/2018)
*SEALED* SEALED Ex Parte ORDER granting 586
Second Ex Parte Application for indigent witness subpoenas
and indigent witness expenses for witness Connie Dunham
as to Ricky Allen Fackrell. Signed by District Judge Marcia
A. Crone on 5/15/18. cc via email: Morrow 5/16/18 (tkd, )
(Entered: 05/16/2018)
*SEALED* SEALED Supplemental Capital Trial Budget
ORDER re Attorney and Service Provider Fees as to Ricky

120a

18-40598.23713

Case 1:16-cr-00026-MAC-ZJH Document 747-4 Filed 01/24/20 Page 8 of 9 PageID #:
20556

Date

ECF

May 21, 2018

609

May 21, 2018

611

May 25, 2018

613

June 7, 2019

639

June 12, 2018

645

June 13, 2018

672

June 13, 2018

674

June 14, 2018

682

Description
Allen Fackrell. Signed by Chief Circuit Judge for the Fifth
Circuit Court of Appeals Carl E. Edwards on 5/18/18. cc via
email: Morrow 5/22/18 (tkd, ) (Entered: 05/22/2018)
*SEALED* SEALED Ex Parte ORDER granting 606 Third
Ex Parte Motion for Approval of Additional Trial Attorney's
Fees as to Christopher Emory Cramer. Signed by District
Judge Marcia A. Crone on 5/21/18. cc via email: Barlow
(tkd, ) (Main Document 609 replaced on 5/22/2018) (tkd, ).
(Entered: 05/21/2018)
*SEALED* SEALED Ex Parte ORDER granting 608 Ex
Parte Motion for Issuance of Witness Subpoena and
Indigent Witness Expense for Merrill Fackrell III as to
Ricky Allen Fackrell. Signed by District Judge Marcia A.
Crone on 5/21/18. cc via email: Morrow 5/22/18 (tkd, )
Modified on 5/22/2018 (tkd, ). (Entered: 05/22/2018)
*SEALED* SEALED EX PARTE ORDER as to Ricky Allen
Fackrell. The Ex Parte Motion for Fackrell Family Flight
Arrangements #601 is denied as moot. emailed Morrow
5/25/18 Signed by District Judge Marcia A. Crone on
5/22/18. (mrp, ) (Entered: 05/25/2018)
*SEALED* SEALED Ex Parte ORDER granting 634 Ex
Parte Motion to Withdraw Motion and denying 629 Ex
Parte Motion re Proposed Trial Budget for the Defense
Pathologist in a Death Penalty Case as to Ricky Allen
Fackrell. Signed by District Judge Marcia A. Crone on
6/7/18. cc via email: Bourque 6/8/2018 (tkd, ) (Entered:
06/08/2018)
*SEALED* SEALED ORDER for Approval of Additional
Trial Attorney's Fees as to Christopher Emory Cramer. cc:
emailed D Barlow 6/12/18 Signed by District Judge Marcia
A. Crone on 6/12/18. (mrp, ) (Entered: 06/12/2018)
SEALED Statement of Reasons re 671 Judgment as to
Christopher Emory Cramer. cc: all counsel of record 6/13/18
(mrp, ) (Entered: 06/13/2018)
SEALED Statement of Reasons re 673 Judgment as to
Ricky Allen Fackrell. cc: all counsel of record 6/13/18 (mrp, )
(Entered: 06/13/2018)
*SEALED* SEALED ORDER granting Motion for
Authority for Payment for the Fact Investigation as to
Christopher Emory Cramer, Ricky Allen Fackrell.
cc:Bourque; Morrow 6/15/18 Signed by District Judge
Marcia A. Crone on 6/14/18. (mrp, ) (Entered: 06/14/2018)

121a

18-40598.23714

Case 1:16-cr-00026-MAC-ZJH Document 747-4 Filed 01/24/20 Page 9 of 9 PageID #:
20557

Date
September 26,
2018

ECF
715

Description
ORDER denying as moot 705 Pro se Letter Motion to
terminate Mr. Barlow as attorney for Christopher Emory
Cramer (1). Signed by Magistrate Judge Zack Hawthorn on
9/26/18. cc: Cramer (tkd, ) (Entered: 09/26/2018)

122a

18-40598.23715

Case 1:16-cr-00026-MAC-ZJH Document 521 Filed 04/27/18 Page 1 of 14 PageID #: 4608

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
BEAUMONT DIVISION
UNITED STATES OF AMERICA
vs.
CHRISTOPHER EMORY CRAMER
and
RICKY FACKRELL

§
§
§
§
§
§
§

Criminal Number 1:16-CR-26(1)
(Judge Crone)

JOINT DEFENSE MOTION TO PRECLUDE IMPROPER CROSSEXAMINATION OF DEFENSE EXPERTS AND REBUTTAL TESTIMONY
FROM GOVERNMENT WITNESSES ON FUTURE DANGEROUSNESS NONSTATUTORY AGGRAVATOR, OR, IN THE ALTERNATIVE, FOR DISCOVERY

NOW COME Defendants, RICKY ALLEN FACKRELL and CHRISTOPHER CRAMER,
by counsel, and respectfully request this Court enter an Order precluding certain improper
anecdotal cross-examination of defendants’ experts related to the non-statutory aggravator future
danger and the defense proposed mitigators, and requests that government witnesses be precluded
from offering such testimony in rebuttal. In the alternative, if the Court determines that some form
of anecdotal cross-examination and rebuttal testimony is permissible, counsel requests this Court
limit the incidents to the past five years and further order that any such alleged anecdotes and
supporting documents be disclosed to defense counsel forthwith.
I. Good Cause
On April 6, 2018, the Government notified counsel for defendants that it intends to call
David Berkebile, a former BOP Warden to rebut testimony presented by defendants’ penalty phase
BOP experts. Accordingly, the defense was unable to file this motion prior that date, and in
accordance with the deadline for pre-trial and trial motions set by this Court in the current

123a

18-40598.3305

Case 1:16-cr-00026-MAC-ZJH Document 521 Filed 04/27/18 Page 2 of 14 PageID #: 4609

Scheduling Order.
II. Introduction
Mr. Fackrell intends to call former warden Mark Bezy to support proposed mitigating
factors. For example, Mr. Bezy will testify that given Mr. Fackrell’s placement in the ADX
Control Unit and his appropriate prison adjustment, the Bureau of Prisons (BOP) can adequately
control him. Mr. Cramer’s defense expert, Tim Gravette, will provide similar testimony of behalf
of Mr. Cramer.
Mr. Bezy has testified in other capital cases and expressed similar opinions as to the
individual defendants facing life without parole in BOP. On numerous occasions, government
attorneys have cross-examined Mr. Bezy and/or other similar defense experts about specific acts
of violence allegedly committed in BOP by persons who are in no way connected to the individual
defendant being sentenced. Most of the alleged anecdotes previously used by government
attorneys have occurred more than five years prior to the sentencing proceeding. In some cases
government attorneys have asked defense future danger experts about such irrelevant episodes as:
•

The 1997 murders of inmates at USP Lewisburg for which members of the
Aryan Brotherhood were convicted.

•

The murders of correctional officers as USP Marion occurring in 1981.

•

Alleged prison connections of prisoners to the murder of Judge John Wood in
Texas in 1979.

In the course of using such anecdotal information in the cross-examination of defense
danger experts, the government attorneys have never attempted to show any connection between
the defendant facing sentencing and the BOP prisoner who allegedly committed the acts of
violence. In none of these cases has the government attempted to show, based on the background
of the prisoners involved in these past incidents, that the incidents were in any way relevant or

124a

18-40598.3306

Case 1:16-cr-00026-MAC-ZJH Document 521 Filed 04/27/18 Page 3 of 14 PageID #: 4610

predictive as to whether the individual capital defendant on trial was likely to commit future acts
of violence.
At the same time, many of the characterizations of BOP violence used by government
Attorneys have been inaccurate and misleading. For example, in the capital trial in U.S. v. Azibo
Aquart, Case No. 6 CRL 160(JBE) in the District of Connecticut, in the government’s crossexamination of Mr. Bezy, the following exchange took place at pages 5398:
Q:

And in fact there was another murder at Supermax in 2008, Gary Douglas
Watland killed somebody.

A:

That was at USP. It wasn’t the ADX.

In fact, Mr. Bezy was correct. The homicide allegedly committed by Gary Watland, who
has pleaded guilty in return for a life sentence in the District of Colorado, actually occurred at a
USP across the road from the ADX Supermax. However, the government attorney was attempting
to undermine Mr. Bezy’s testimony with inaccurate information by suggesting that the murder had
occurred at the ADX Supermax, a facility where Mr. Bezy contended that the defendant could be
safely housed.
In another anecdotal cross-examination of Mr. Bezy in the same case, the government once
again used inaccurate information to attempt to undercut Mr. Bezy’s testimony. At page 5398, in
describing a homicide that actually did occur at the ADX in 2005, the following exchange took
place:
Q:

Is that the 2005 murder of Manuel Torrez?

A:

Correct.

Q:

And he was beaten to death in the yard at Supermax, correct?

A:

Correct.

Q:

By Richard Santiago and Sylvestre Rivera?

125a

18-40598.3307

Case 1:16-cr-00026-MAC-ZJH Document 521 Filed 04/27/18 Page 4 of 14 PageID #: 4611

A:

Yes.

Q:

And Santiago was at Supermax because he killed a prison guard in Fresno,
right?

A:

I’m not aware of what he did.

In fact, Richard Santiago, who was facing capital murder charges in the District of Colorado, has
never killed a prison guard anywhere.
Furthermore, Capital Case Section Attorney Bruce Hegyi attempted to cross-examine Mr.
Bezy with unsubstantiated and inaccurate anecdotal information in United States v. CandelarioSantana, 09-427, DPR 2013. He began by asking Mr. Bezy if he was aware of an incident in a
California state facility where a “spear” was fashioned out of a rolled-up newspaper. When Mr.
Bezy responded with a question regarding the facility, Mr. Hegyi change the topic to question Mr.
Bezy about an incident at the BOP Supermax facility involving an incident with a rolled-up
newspaper. Having elicited from Mr. Bezy that he was aware of the incident but not its particulars,
Mr. Hegyi persisted.
Q.

Okay. And that person then when he was supposed to be cuffed up, and the
guard came to the slot, and he actually jammed that spear through and tried
to kill the officer, didn’t he?

A.

I am not aware of the whole situation. I’ve heard the situation. I’m not sure
of the particulars.

Q.

That’s what you heard, right?

A.

Not that he jammed it. He lunged at the staff with it.

Q.

Right, trying to kill him?

A.

Well, I don’t remember that.

Q.

And this took place not too long after the situation in California where the
inmates there rolled up a similar spear out of newspaper, hardened it, and
they threw it through not one but two prison guards?

126a

18-40598.3308

Case 1:16-cr-00026-MAC-ZJH Document 521 Filed 04/27/18 Page 5 of 14 PageID #: 4612

Defense counsel objected, but the damage had been done. At side bar, Mr. Hegyi continued
to claim that two prison guards had been killed in the incident he, and only he, described before
the jury. A recess was called to allow him to ask Mr. Bezy if he was aware of the case. When the
cross resumed, the topic was dropped, but of course the damage had been done. Mr. Bezy later
learned that the incident occurred 30 years ago and that Mr. Hegyi’s claim that two officers were
killed was erroneous. And if Mr. Hegyi was accurate, the Supermax incident with the rolled
newspaper is ancient history as well, but without having the underlying data, there was no way for
defense counsel to know this.
Inaccurate or outdated anecdotal information has been used by government attorneys to
cross-examine defense future danger experts in the following cases:
• U.S. v. Timothy O'Reilly, CR No. 05-80025, Eastern District of Michigan, the
government attorney, while cross examining the defense expert on future
danger, was caught overstating the rate of serious assault in BOP facilities by
400%.
• U.S. v Darryl Lamont Johnson, No. C 6998, Northern District of Illinois,
Eastern Division, where the government presented a former assistant warden
from ADX who falsely testified that defendants, such as Mr. Johnson, could not
be directly assigned to the ADX-Florence control unit based on offenses
committed in the community.
• U.S. v. Jessie Con-Ui, CR No. 3:13-cr-00123, Middle District of Pennsylvania,
former ADX complex Warden John Oliver falsely testified that Ted Kaczynski
killed a federal judge. 1
• U.S. v. Mark Snarr and Edgar Garcia, No. 1:09-cr-15, Eastern District of Texas,
where the government in cross-examining Mark Bezy, without notice, injected
the designation to ADX of death-sentenced prisoner Joseph Ebron. The
government inaccurately suggested that such designation was a BOP mistake
in its attempt to undermine Mr. Bezy’s testimony, when, in fact, numerous
1

The Government has notified the defense that it intends to call former ADX Warden David
Berkebile as a rebuttal witness. This witness has testified for the Government at least twice in
capital prosecutions and has described in that testimony numerous anecdotal incidents of violence
occurring at the ADX Supermax. The Defendants are filing a separate motion for discovery based
on Mr. Berkebile’s prior testimony.

127a

18-40598.3309

Case 1:16-cr-00026-MAC-ZJH Document 521 Filed 04/27/18 Page 6 of 14 PageID #: 4613

death-sentenced prisoners, like Shannon Agofsky, Kaboni Savage and
Dzhokhar Tsarnaev have been sent to ADX pursuant to BOP policy and law.
See Trial Transcript, Vol. 6, P. 1182-3.
Because these exchanges have often occurred late in penalty phase proceedings, in many
cases, it was only in post-conviction proceedings that the falsity or misleading nature of
information used by government attorneys was discovered. Therefore, based on what has become
a pattern of government cross-examination of defense future danger experts, Mr. Fackrell and Mr.
Cramer request the Court enter an order:
1.

Prohibiting cross-examination of defense experts, and prohibiting the
admission of such evidence through government witnesses, through the use
of alleged anecdotal evidence of other BOP prisoners which is in no way
connected to Mr. Fackrell or Mr. Cramer.

2.

Alternatively, in the event the Court determines such cross-examination
through the use of anecdotes is permissible, and that such evidence is
admissible in the government’s rebuttal case, the defendants request this
Court limit such incidents to those occurring after April 1, 2013.

3.

Additionally, in the event the Court determines that such anecdotal crossexamination is permissible and that the government may introduce
anecdotal evidence through its experts, the defendants request this Court
order the government to disclose any alleged incidents of violence and any
supporting documents at least three (3) days prior to the witness’s testimony
so that counsel may adequately investigate the accuracy and relevance of
the incident.
III. Argument and Authorities

A. Admitting Information Regarding Specific Acts of Violence Committed by Other
Prisoners and the Details of the Incidents Would Violate the Defendants’
Constitutional Rights and 18 U.S.C. §3593(c).
Admission of information regarding specific acts of violence by other prisoners would
violate the defendants’ constitutional rights under the Eighth Amendment’s Cruel and Unusual
Punishment Clause and the Fifth Amendment’s Due Process Clause to an individualized
sentencing proceeding. Additionally, such information should be excluded as irrelevant and likely

128a

18-40598.3310

Case 1:16-cr-00026-MAC-ZJH Document 521 Filed 04/27/18 Page 7 of 14 PageID #: 4614

to cause unfair prejudice, confuse the issues and mislead the jury under 18 U.S.C. §3593(c).
The threshold determination for admission of information at a penalty phase of an FDPA
trial is that the information is “relevant to sentencing.” United States v. Lujan, 603 F.3d 850, 854
(10th Cir. 2010); 18 U.S.C. §3593(c). Evidence is relevant if it “has any tendency to make the
existence of any fact that is of consequence to the determination of the action more probable or
less probable than it would be without the evidence.” Fed. R. Evid. 401; see also Lujan, 603 F.3d
at 854 (“Although §3593(c) fails to define ‘relevant,’ we have interpreted it as ‘the same standard
used throughout the federal courts under Federal Rule of Evidence 401.’”). The purpose of the
“selection phase” of the sentencing hearing is for an individualized determination of all relevant
evidence once the jury has determined that the defendant is eligible for the death penalty. See
Tuilaepa v. California, 512 U.S. 967, 972 (1994). This includes determining a defendant’s
likelihood of future dangerousness. See Jurek v. Texas, 428 U.S. 262, 275 (1976).
Section 3593(c) further provides in part that “information [at the penalty phase] may be
excluded if its probative value is outweighed by the danger of creating unfair prejudice, confusing
the issues, or misleading the jury.” Section 3593(c) grants this Court greater discretion to exclude
unfairly prejudicial or confusing information than the analogous Federal Rules of Evidence
provide during the trial phase.
“[T]he evidentiary standard found in § 3593(c) of the FDPA upholds the constitutional
required balance between the needs for heightened reliability and individualized sentencing by
enabling the judge, as gatekeeper, to bar unreliable or unfair sentencing information.” United
States v. Taylor, 302 F.Supp.2d 901, 905 (N.D. Ind. 2003) (citing 18 U.S.C. §3593(c). The Second
Circuit has noted:
the requirement of a fundamentally fair trial is certainly met [by §3593(c) ], given
that the balancing test set forth in the FDPA is, in fact, more stringent than its
counterpart in the [Federal Rules of Evidence], which allows the exclusion of

129a

18-40598.3311

Case 1:16-cr-00026-MAC-ZJH Document 521 Filed 04/27/18 Page 8 of 14 PageID #: 4615

relevant evidence “if its probative value is substantially outweighed by the danger
of unfair prejudice, confusion of the issues, or misleading the jury.” Fed.R.Evid.
403.... Thus, the presumption of admissibility of relevant evidence is actually
narrower under the FDPA than under the FRE.
United States v. Pepin, 514 F.3d 193, 204 (2d Cir. 2008) (quoting United States v. Fell, 360 F.3d
135, 145 (2d Cir. 2004)). The Court further pointed out:
[U]nder the FDPA [s]tandard, judges continue their role as evidentiary gatekeepers
and, pursuant to the balancing test set forth in §3593(c), retain the discretion to
exclude any type of unreliable or prejudicial evidence that might render a trial
fundamentally unfair. Id. (quoting Fell, supra).
As held by United States v. Johnson, 239 F.Supp.2d 924, 946 (N.D. Iowa 2003), the FDPA
“expressly supplants only the rules of evidence, not constitutional standards .... [The trial court]
retains the authority under the statute to impose upon the parties any standards of admissibility or
fairness dictated by the Fifth and Sixth Amendments.”
“‘Unfair prejudice’ refers to an ‘undue tendency to suggest decision on an improper basis,
commonly, though not necessarily, an emotional one’ or ‘evidence designed to elicit a response
from the jurors that is not justified by the evidence.’” United States v. Ellis, 147 F.3d 1131, 1135
(9th Cir. 1998) (quoting 2 Jack B. Weinstein & Margaret A. Berger, Weinstein’s Federal Evidence,
§ 403.04[1][b]); accord Old Chief v. United States, 519 U.S. 172, 180 (1997); see also Lujan, 603
F.3d at 858 (stating that “§ 3593(c) provides a district court greater discretion to exclude evidence
than [Federal Rule of Evidence] 403 does.”); United States v. Taylor, 635 F.Supp.2d 1236, 1242
(D.N.M. 2009) (noting that, “...the FDPA provides even greater protection against prejudicial
information than the [FRE], because the FDPA permits a judge to exclude information whose
probative value is outweighed by the danger of unfair prejudice, rather than the “substantially
outweighed” standard set forth in Rule 403.”).

130a

18-40598.3312

Case 1:16-cr-00026-MAC-ZJH Document 521 Filed 04/27/18 Page 9 of 14 PageID #: 4616

B. Evidence Regarding Unrelated Incidents Is Not Relevant to a Jury’s Determination
of Whether the Defendants are Likely to Commit Future Acts of Violence, and its
Admission would be Unfairly Prejudicial, Mislead the Jury and Confuse the Issues.
The issue that the jury must decide is whether the BOP can adequately control these
defendants in the context of serving a life sentence without possibility of release in BOP. Specific
actions by other inmates are not relevant to the jury’s determination of this issue.
In United States v. Sampson, the court “permitted only general testimony about the ability
of the BOP to control inmates, including gross statistics regarding assaults and other misconduct,
but did not permit testimony regarding specific other prisoners.” 335 F.Supp.2d 166, 227 (D. Mass.
2004). It is generally recognized that acts by persons unrelated to the defendant and the charged
offenses are not probative of any issue in the case. United States v. Al-Moayad, 545 F.3d 139 (2d
Cir. 2008), the Second Circuit reversed the defendants’ convictions for providing material support
to terrorist organizations. Among other errors, the Court criticized the admission of lengthy
testimony regarding a Tel Aviv bus bombing that the defendants were not charged with being
involved. Id. at 159-61.
Although the Court’s main discussion focused on the substantial unfairness of the
testimony, it also noted that the witness’s “highly emotionally charged account of the bombing
was also not ‘legally and morally relevant to the conduct constituting the offenses’ with which the
defendants were charged.” Id. at 161 n.18 (quoting United States v. Velazquez, 246 F.3d 204, 211
(2d Cir. 2001)); see also United States v. Nelson- Rodriguez, 319 F.3d 12, 35 (1st Cir. 2003) (trial
court properly excluded impeachment evidence that government witness-informant had been
involved in murders unrelated to the drug conspiracy with which defendants were charged).
Similarly, testimony regarding what inmates with no connection with these defendants may have
done in BOP is not legally relevant to the issue of whether BOP can adequately control Mr.

131a

18-40598.3313

Case 1:16-cr-00026-MAC-ZJH Document 521 Filed 04/27/18 Page 10 of 14 PageID #: 4617

Fackrell and Mr. Cramer.
Because any information regarding specific incidents of other inmates’ violent conduct in
prison has no probative value in connection with these defendants’ alleged propensity to violence,
its admission would be unfairly prejudicial. Admitting evidence of the alleged wide-ranging
violent activities of BOP inmates is akin to the improper “wide-ranging inquiry into the generic
criminality and violent dispositions of gangs and their members.” United States v. Street, 548 F.3d
618, 632 (8th Cir. 2008). In Street, the Eighth Circuit reversed the defendant’s conviction for
aiding and abetting murder in furtherance of drug trafficking based in part on the improper
admission of testimony about violent propensities of gangs with whom the defendant had no
connection, concluding that the testimony “about outlaw motorcycle gangs and El Forasteros was
excessive, unduly prejudicial, and in great part completely irrelevant to the charged offenses.” Id.
at 633.
Information about BOP’s experiences with other prisoners would also be misleading. As
the Sampson court described: Each person in the custody of the BOP is unique, and the court
found that the probative value of information about the BOP's ability or inability to control a
particular other prisoner was outweighed by the danger of misleading the jury into thinking that
the BOP would have a similar experience with Sampson.
The same danger is present here, if the government is allowed to present evidence regarding
BOP experience with other inmates. The jury might be misled into believing that BOP might have
a similar experience with these defendants.
In addition, the information would be unfairly prejudicial. “‘Unfair prejudice’ refers to an
‘undue tendency to suggest decision on an improper basis, commonly, though not necessarily, an
emotional one’ or ‘evidence designed to elicit a response from the jurors that is not justified by the

132a

18-40598.3314

Case 1:16-cr-00026-MAC-ZJH Document 521 Filed 04/27/18 Page 11 of 14 PageID #: 4618

evidence.’” Ellis, 147 F.3d at 1135. The jury might be led to make a decision regarding potential
future dangerousness based not on the defendants’ own actions but on the actions of unrelated
persons. See Al-Moayad, supra; Street, supra. The jurors might be led to determine that these
defendants are likely to be a danger in prison based not on their own conduct but on the potential
institutional failures of the BOP. “[I]nvoking a jury’s general fear of crime to encourage the
application of the death penalty in a particular case is unfairly inflammatory.” Weaver v. Bowersox,
438 F.3d 832, 841 (8th Cir. 2006), cert. dismissed sub nom., Roper v. Weaver, 550 U.S. 598 (2007);
see also Bates v. Bell, 402 F.3d 635, 642 (6th Cir. 2005) (improper to argue that a death sentence
was warranted to protect other inmates and guards).
C. If the Court Allows Cross-Examination Regarding Specific Incidents Regarding
Unrelated Inmates, the Court Must Order the Government to Disclose all Incidents on
Which It intends to Rely, Including Complete Histories of the Inmates and Incidents.
If the Court intends to allow cross-examination concerning specific prior incidents in the
BOP, the defense asks the Court to immediately order the government to fully disclose all
information concerning incidents on which it intends to rely, including the names of those
involved, information concerning the incidents, and BOP’s response to the incidents. Such
information is readily available to the government. See United States v. Burnside, 824 F.Supp.
1215, 1254 (N.D. Ill. 1993). It is anticipated that the government may present rebuttal evidence
regarding other incidents involving other prisoners in BOP custody. If the defense does not have
the requested information, it will be unable to properly rebut the government’s case regarding
BOP’s ability to control these defendants and future dangerousness and unable to subject the
government’s rebuttal testimony to meaningful adversarial testing.
The importance of accurate information and discovery on these issues is demonstrated by
United States v. Johnson, No. 02 C 6998 (N.D. Ill.), in which Judge Hibbler granted habeas relief

133a

18-40598.3315

Case 1:16-cr-00026-MAC-ZJH Document 521 Filed 04/27/18 Page 12 of 14 PageID #: 4619

and reversed the petitioner’s sentence of death based on counsel’s failure to investigate the law
and facts necessary to rebut the government’s rebuttal evidence. The government, in support of its
future dangerousness aggravator, called as a witness a former BOP warden who presented
misleading and incomplete testimony regarding BOP’s placement policies “that may have left the
jury with the mistaken impression that neither the BOP nor the Court had the authority to impose
certain restrictions on an inmate immediately upon sentencing.” United States v. Johnson,
Memorandum Opinion and Order, Exhibit A at 5.
The Court agreed with the petitioner’s claim that he “was prejudiced by his trial counsel’s
failure to investigate the law and facts necessary to subject the Government’s case on future
dangerousness to meaningful adversarial testing.” Id. at 4. As Judge Hibbler cogently pointed out,
the future dangerousness aggravator and the government’s ability to protect against a defendant’s
future dangerousness “is an especially important factor in death penalty cases generally[.]” Id. at
5. Judge Hibbler noted that the government recognized the importance of the aggravator, and that
empirical research supports the conclusion that future dangerousness is a highly significant issue
for juries deciding whether to sentence a defendant to death. Id. at 6 (citing studies). He also
referred to a similar case in which the jurors had received correct information about the ability of
the BOP to impose restrictive conditions and had not sentenced the defendant to death despite
finding that he would be a future danger. Id. at 7.
The defense recognizes that discovery of the required material may lead to “mini-trials” as
to the accuracy and circumstances if these anecdotes which is another reason why the court should
exclude or limit such testimony in the first place.
CONCLUSION
For the foregoing reasons, the defendants request the Court to either issue an order

134a

18-40598.3316

Case 1:16-cr-00026-MAC-ZJH Document 521 Filed 04/27/18 Page 13 of 14 PageID #: 4620

precluding the government from cross-examining defense experts regarding specific incidents of
violence by other BOP inmates and/or eliciting such testimony from government witnesses; or, in
the alternative, order immediate disclosure of any such incidents on which the government intends
to rely, including complete information regarding the inmates involved, their histories, and any
response by BOP.

Respectfully submitted,
/s/ Robert Morrow
ROBERT
MORROW
TBL#14542600
24 Waterway Ave., Suite 660
The Woodlands, TX 77380
Tel.: 281-379-6901
Fax: 832-813-0321
Email: ramorrow15@gmail.com
/s/ Gerald E. Bourque
GERALD E. BOURQUE
TBL#02716500
24 Waterway Ave., Suite 660
The Woodlands, TX 77380
Tel: 713-862-7766
Email: gerald@geraldebourque.com
Fax: 832-813-0321
Attorneys for Defendant Ricky Fackrell
/s/ Patrick Black
PATRICK BLACK
Attorney for Defendant
110 N. College Ave., Ste. 1122
Tyler, TX 75702
(903) 531-9233
/s/ Douglas Barlow
DOUGLAS BARLOW
Attorney for Defendant

135a

18-40598.3317

Case 1:16-cr-00026-MAC-ZJH Document 521 Filed 04/27/18 Page 14 of 14 PageID #: 4621

485 Milam
Beaumont, TX 77701
(979) 485-5901
Attorneys for Defendant Christopher Cramer

CERTIFICATE OF CONFERENCE
Counsel for the Defendants have not conferred with attorneys for the Government directly
on the matters raised in this motion, because trial has begun, but assume the Government is
opposed to the matters herein, given the nature of the requests.

_/s/ Robert A. Morrow, III
ROBERT A. MORROW, III
Attorney for Defendant Ricky Fackrell

CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the foregoing Motion for Disclosure of
Information and Documents Related to the Testimony of DOJ/BOP Rebuttal Expert Witness
David Berkebile was sent via CM/ECF on April 27, 2018 to:
John Craft
Assistant United States Attorney
350 Magnolia Street
Beaumont, Texas 77701

_/s/ Robert A. Morrow, III
ROBERT A. MORROW, III
Attorney for Defendant Ricky Fackrell

136a

18-40598.3318

Case 1:16-cr-00026-MAC-ZJH Document 521-1 Filed 04/27/18 Page 1 of 8 PageID #: 4622
Case: 1:02-cv-06998 Document#: 112 Filed: 12/13/10 Page 1 of 8 PagelD #:1426

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
UN!TED STATES OF AMERICA,

Plaintiff-Respondent,

)
)
)

)
)
)

V.

DARRYL LAMONT JOHNSON,

Defendant-Movant.

No. 02 C 6998
The Honorable William J. Hibbler

)
)
)
)
)

MEMORANDUM OPINION AND ORDER
In 1997, a jury convicted Darryl Lamont Johnson for ordering the murder ofa person assisting in
a federal criminal investigation and ordering the murder of that person and another in furtherance of a
continuing criminal enterprise, among 41 other counts. The jury later concluded that death was the
appropriate sentence. The Seventh Circuit denied Johnson's appeal and the Supreme Court denied his
petition for a writ of certiorari. United States v. Johnson, 223 F.3d 665 (7th Cir. 2000); Johnson v.

United States, 534 U.S. 829, 122 S. Ct. 71, 151 L.Ed.2d 37(2001 ).
Johnson then sought to set aside his sentence pursuant to 28 U.S.C. § 2255. In his petition,

Johnson raised a number of claims, including a claim of ineffective assistance of counsel, a claim that
the Government withheld exculpatory evidence in violation of Brady v. Maryland, 3 73 U.S. 83. 83 S.
Ct. 1194, 10 L.Ed.2d 215 ( 1963 ), and a claim that his sentence was based on materially incomplete,
false and/or inaccurate information in violation of the Eighth Amendment, see Johnson v. Mississippi,
486 U.S. 578, 584-86, 108 S. Ct. 1981, 1986-87, 100 L.Ed.2d 575 (1988). The Court denied Johnson's

1

Exhi bit A

137a

18-40598.3319

Case 1:16-cr-00026-MAC-ZJH Document 521-1 Filed 04/27/18 Page 2 of 8 PageID #: 4623
Case: 1:02-cv-06998 Document#: 112 Filed: 12/13/10 Page 2 of 8 PagelD #:1427

§ 2255 motion, holding that he procedurally defaulted all three of the aforementioned claims because he
failed to raise those claims in his direct appeal.

A few years after the initial ruling on Johnson's§ 2255 motion, the Supreme Court announced
its decision in Massaro v. United States. 538 U.S. 500,509, 123 S.Ct. 1690, 155 L.Ed.2d 714 (2003).
In Massaro, the Supreme Court held that a petitioner may bring an ineffective assistance of counsel
claim in a collateral proceeding whether or not the petitioner could have raised the claim on direct

appeal. Id. Consequently, the Court vacated the portion ofits ruling concerning Johnson's ineffective
1

assistance of counsel claim. Following discovery, the parties provided the Court with supplemental
briefing on the merits of that claim. In addition, Johnson moves the Court to once again address his

Brady and Johnson claims based on what he believes to be changes in relevant law and facts. For the
following reasons, the Court grants Johnson's§ 2255 motion based on his ineffective assistance of
counsel c1aim. The Court therefore vacates his death sentence and awards him a new sentencing

hearing. In additio~ Johnson's motion for consideration of his other claims is therefore moot.
I. Background
Johnson's ineffective assistance claim centers on trial counsel' s efforts to convince the jury to
impose a sentence of life imprisonment rather than one of death. At Johnson's sentencing, counsel
presented evidence about the custodial options for housing him. In particular, Johnson presented
evidence to suggest that if he were placed permanently in the control unit in ADX-Florence, where
inmates are confined to their cells 23 hours per day and not allowed contact with other inmates, he

1

Another judge in this district initially ruled on Johnson's§ 2255 motion and the motion
to reconsider pursuant to Massaro. The executive committee has since reassigned the case.

2

138a

18-40598.3320

Case
., 1:16-cr-00026-MAC-ZJH Document 521-1 Filed 04/27/18 Page 3 of 8 PageID #: 4624
Case: 1:02-cv-06998 Document #: 112 Filed: 12/13/10 Page 3 of 8 PagelD #:1428

would have no opportunity to carry out a continuing criminal enterprise and his dangerousness to
society would be mitigated.
In rebuttal, the Government called an expert, a Bureau of Prisons (BOP) warden, who had
formerly served as Assistant Warden at ADX-Florence. That witness testified generally about what
BOP placement was likely in Johnson's case. He testified that typically gang leaders like Johnson go to
the general prison population, rather than some more restrictive setting. He also testified that even
prisoners in strictly controlled environments had managed to commit crimes, including ordering the
killing of other inmates. He stated that the BOP could not house prisoners in such strict conditions
indefinitely. Finally, he claimed that prisoners cannot be directly assigned to the ADX-Florence control
unit based solely on the offenses in the community. Instead, he said, the BOP could temporarily impose
restrictions on an inmate, such as limited communication and association, ifthe inmate committed some
infraction while in prison.
Not even one member ofthe jury accepted Johnson's proposed finding that he would not be "a
serious and continuing danger to the society because the government has the power to imprison him for
the rest of his life in a maximum security federal prison designed to control and monitor his behavior."
The jury did find a number of aggravating factors, both statutory and non-statutory. rn particular. the
jury found that Johnson caused the kiUing after substantial planning and premeditation in the course of a
continuing criminal enterprise that involved distribution of drugs to persons under the age of21. Italso
found that he ordered the murder to obstruct justice by preventing the victim from testifying and caused
harm to the victim's family. After its somewhat lengthy deliberations, the jury sentenced Johnson to
death.

3

139a

18-40598.3321

Case 1:16-cr-00026-MAC-ZJH Document 521-1 Filed 04/27/18 Page 4 of 8 PageID #: 4625
Case: 1:02-cv-06998 Docume nt#: 112 Filed: 12/13/10 Page 4 of 8 PagelD #:1429

In Johnson' s§ 2255 motion, he argues that he was prejudiced by his trial counsel's failure to
investigate the law and facts necessary to subject the Government's case on future dangerousness to
meaningful adversarial testing. In short, Johnson suggests that trial counsel was ineffective in allowing
the Government expert's testimony to go unrebutted.
Johnson argues that, contrary to the Government expert's testimony, there are laws which allow
for the application of strict conditions ofconfinement for extended periods oftime absent any infraction
within prison in order to alleviate the risk a particular inmate poses to society. First, the BOP can
control the conditions of confinement by employing Special Administrative Measures (4'SAMs")
authorized by 28 C.F.R. § 501.3(a). Second, courts can order restrictions on communication and
association as part of a sentence pursuant to 18 U.S.C. § 3582(d). In fact, Johnson has presented
evidence of a number of examples of such inmates in addition to those in his original motion.
II. Standard of Review

In order to succeed on his claim of ineffective assistance of counsel, a § 2255 movant must meet

both prongs of a test set forth in Stricklan d v. Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L.Ed. 2d
674 (1984). First, he must show that his counsel's performance was deficient. Id. at 687, 104 S. Ct. at
2064. In this case, the Government concedes the point, agreeing with Johnson that his trial counsel did
not effectively impeach the testimony of the Government's expert regarding Johnson's future
dangerousness. Instead, the Government disputes only whether Johnson can satisfy the second prong of
the Stricklan d test. Thus, Johnson must show that his counsel's deficient performance prejudiced his
defense. Id. More specifically, he must show "that there is a reasonable probability that, but for
counsel' s unprofessional errors, the result ofthe proceeding would have been different." Id at 694, 104
S. Ct. at 2068.

4

140a

18-40598.3322

Case 1:16-cr-00026-MAC-ZJH Document 521-1 Filed 04/27/18 Page 5 of 8 PageID #: 4626
Case: 1:02-cv-0 6998 Document # : 112 Filed: 12/13/10 Page 5 of 8 PagelD #:1430

A "reasonable probability," for purposes of this standard, is "a probability sufficient to
undermine confidence in the outcome" of the penalty phase of Johnson's trial. Id. The standard is
lower than the more familiar "preponderance of the evidence" standard because an ineffective assistance

claim "asserts the absence of one ofthe crucial a.:;surances that the result of the proceeding is reliable, so
finality concerns are somewhat weaker." Id However, Johnson must show more than that his coW1Sel's
errors "had some conceivable effect on the outcome of the proceeding." Id. at 693, 104 S. Ct. at 2067.
III.Analysis

In addition to conceding that Johnson's counsel was deficient, the Government conceded at the

certiorari stage of Johnson's direct appeal that the testimony of the Government's expert was
incomplete because he failed to mention 28 C.F.R. § 501 .3 and 18 U.S.C. § 3582(d). The Government
admitted that the testimony may have left the jury with the mistaken impression that neither the BOP
nor the Court had the authority to impose certain restrictions on an inmate jmmediately upon
sentencing. Nonetheless, the Government argues that Johnson cannot show that defense counsel's
failure to impeach the witness on those matters created a reasonable probability that the jury would not
have sentenced Johnson to death.
For a number ofreasons , the Court rejects the Government's argument. First, the Court finds
that the probability that the errors affected Johnson's sentence is higher in this case than in some
because the errors were relevant to the issue of future dangerousness. The Court recognizes the
importance of the fact that the jury in Johnson's case found a number of aggravating factors that did not
relate to Johnson's future dangerousness. But the Court finds that future dangerousness, and the
Government's ability to protect against it, is an especially important factor jn death penalty cases
generally, as well as in this case particularly.

5

141a

18-40598.3323

Case 1:16-cr-00026-MAC-ZJH Document 521-1 Filed 04/27/18 Page 6 of 8 PageID #: 4627
Case: 1:02-cv-06998 Docum ent#: 112 Filed: 12/13/ 10 Page 6 of 8 PagelD
#:1431

On this point, the Government's closing argument from the penalty phase of Johnso
n's trial is
telling. The Government devoted a significant portion of its arguments in closing
and rebuttal
issue offuture dangerousness and the likelihood that Johnson could not be controlled

to the

:in prison -perhaps

more than to any other aggravating or mitigating factor. The Government's languag
e on these points
was strong and clear. The Government stated that «as long as [Johnson] has the ability
to convey his
orders to his followers, either on the street or in prison with him, nobody is safe~
no witness, no
witness's family, anybody who stands in his way, they are not safe. It doesn't matter
where he is locked
up." (Tr. 2593.) Moreover, the Government reiterated the admittedly incomp
lete and misleading
testimony of its expert by stating, among other things, that Johnson would not be
going to

the control

unit at ADX-Florence because federal regulations would not allow it. (Tr. 2645.)
The Government's
focus on these points suggests that it recognized the potential importance of this
factor on the jury's
decision in this case.

This conclusion also finds support in the empirical research on the subject. A number of
studies
suggest that future dangerousness is one of the most issues, if not the most signific
ant, for juries
deciding whether or not to sentence a defendant to death. See, e.g., John H. Blume,
et al., Future
Dangerousness in Capital Cases: Always "At Issue", 86 Cornell L. Rev. 397,40
4 (2001); Stephen P.

Garvey, Aggravation and Mitigation in Capital Cases: What do .Jurors Think?,
98 Colum. L. Rev.
1538, 1559-60 (1998); Sally Costanzo & Mark Costanzo, life or Death Decisio
ns: An Analysis of

Capital Jury Decision Making Under the Special Issues Sentencing Framework, 18
Law & Hum.
Behav. 151, 160 ( 1994) ("[n]early all jurors [surveyed] ... offered the observation
that the penalty
decision hinged on the issue of whether the defendant would pose a continuing threat

to society").

6

142a

18-40598.3324

Case 1:16-cr-00026-MAC-ZJH Document 521-1 Filed 04/27/18 Page 7 of 8 PageID #: 4628
Case: 1:02-cv-06998 Document # : 112 Filed: 12/13/10 Page 7 of 8 PagelD # :1432

Johnson also points to an analogous case that illustrates the importance that this factor can have
on a jury. In that case, United States v. Jones, No. CR-96-458-WMN (D. Md.), a jury convicted Jones
of ordering the murders of federal witnesses, including one while he was incarcerated in a federal
prison. The Jones jury found a number of the same aggravating factors as the jury did in this case,
including that he was a future danger and a "continuing and serious threat to society." However, seven
members of the jury also found that:
Any concern respecting future dangerousness of Anthony Jones is
significantly reduced since the Federal Bureau of Prisons is empowered to
classify a prisoner serving a life sentence without possibility of release to
the highest security level federal prison, under conditions of confinement
that eliminate any reasonable probability that the prisoner will be a
continuing and serious threat to society.
The jury did not sentence Jones to death. Johnson notes that the jury in the Jones case heard testimony
regarding the restrictive conditions that could be imposed on Jones and that had been imposed in
another case.
The Government is right to note that the fact of every case and make-up ofevery jury varies, and
that it would be wrong to assume that the jury would do the same in Johnson's case as the jury did in
Jones' s case ifJohnson had effective assistance of counsel. But, the Government is notably silent in its
brief on how the two cases are distinguishable. And the similarities between the facts ofthese two cases
which have different results undermines the reliability of the result in Johnson's case further.
As discussed above, Johnson faces a relatively low burden in this case. Given that "it only takes
onejuror to nix a death sentence," United States v. Johnson, 223 F.3d 665, 670 (7th Cir. 2000), he only
needs to show a reasonable probability that one juror would have changed his or her mind during the
course ofthe lengthy deliberations in this case. Johnson has shown that his future dangerousness, the

7

143a

18-40598.3325

Case 1:16-cr-00026-MAC-ZJH Document 521-1 Filed 04/27/18 Page 8 of 8 PageID #: 4629
Case: 1:02-cv-06998 Docu ment #: 112 Filed: 12/13
/10 Page 8 of 8 PagelD #:143 3

factor admittedly affected by his counsel' s errors, was likely

an important factor in the jurors' minds,

weighing heavily on the scale for measuring aggravating and

mitigating factors. Given this showing,

the Court finds that there is a reasonable probability that ifJohns

on had effective assistance of counsel,

the jury would not have sentenced him to death. He has suffic
iently undennined the reliability of the
penalty phase of his trial. Thus, the Court GRANTS Johns
on's § 2255 motion, VACATES his death
sentence, and ORDERS that he be given a new hearing befor
ea

jury to determine his sentence.

IT IS SO ORDERED.

~66~2

Dated

Hon .Wi lli J.Hibbler
United States District Court

8

144a

18-40598.3326

